Fiscal Year 2013 United States
Army Annual Financial Report




Service to the
Nation, Strength
for the Future
Service to the
Nation, Strength
for the Future
Fiscal Year 2013 United States Army Annual Financial Report




                                                                 1




                                        2
                      7
                             8                        3

            9
                                        4
                                                      5
                       10
                                        6


1  A Soldier negotiates a water obstacle during pre-mobilization
training. (New York Army National Guard Photo by Spc. Harley
Jelis) / 2 A girl gives her father a long awaited hug as he returns from
a nine-month deployment. (Photo courtesy of the U.S. Army) / 3 A
U.S. Army sargeant and tank gunner checks the battery box and
connections on his M1A1 Abrams tank. (U.S. Army by Sgt. Ken Scar,
7th Mobile Public Affairs Detachment) / 4  Soldiers clean an AH-
64D Apache after a training exercise. / 5 Providing security during
a counter-improvised explosive device (CIED) training exercise.
(U.S. Army Photo by Gertrud Zach) / 6  Pulling security during a
senior leader engagement in Afghanistan. (U.S. Army photo by Spc.
Alexander Naylor, Released) / 7  Performing a pre-flight inspection
on an RQ-7B Shadow. (U.S. Army photo by Spc. Margaret Taylor)
/ 8 A Soldier tests his ‘swiss seat’ while rappelling. (U.S. Army photo
by Sgt. Keith Rogers) / 9 A platoon sergeant assembles small arms
during competition. (Photo by Capt. John Farmer) / 10  Soldiers
attach the hook during sling load operations. (U.S. Army photo by
Visual Information Specialist Markus Rauchenberger)
Contents
  Message from the Secretary of the Army	                      iii

  Message from the Assistant Secretary of the Army
    (Financial Management and Comptroller)	                       v

  Management’s Discussion and Analysis	                         1

  Army General Fund
    Principal Financial Statements, Notes,
    Supplementary Information and Auditor’s Report	             31

  Army Working Capital Fund
    Principal Financial Statements, Notes and Auditor’s Report	 101
ii FY 2013 United States Army Annual Financial Report




Service to the Nation,
Strength for the Future
Fiscal Year 2013 United States Army Annual Financial Report
Last year, in my introduction to the Army’s Fiscal Year 2012 Financial Report, I
noted that the Army was entering a period of leaner times as the United States
began to disengage from foreign wars and our Soldiers continued to return
home. Our goal then was to adapt to new fiscal realities without compromising
our ability to carry out our mission whenever and wherever our Soldiers are
called to action. We moved out and began to put in place a long-term plan to
reduce spending and find new efficiencies that would enable us to reinvest in
higher priority programs.

A year later, the Army is facing an even greater fiscal challenge that is reshaping
our path to achieve those goals. We will endeavor to chart the wisest path; but
in this unreasonably constrained fiscal environment, even the wise path will be
treacherous. The current and the ongoing fiscal realities have extracted a great
cost. We are being asked – as are our colleagues in the other services – to tighten
our fiscal belt beyond what was forecasted a year ago. The sequestration – the
across-the-board reductions in federal spending mandated by law – struck the
Department of Defense particularly hard. The Army, the largest and most visible
of the Nation’s defending forces, has taken the greatest share of the sequestration
burden, and the effect on Soldiers, Civilians, and their Families cannot
be overstated.

While we continue to hope for relief, prudence requires that we plan for reality.
Though we must face the reality of budgetary constraints, it is equally important
to realize that we will meet this challenge. We may be leaner and we will be
smaller, but we will focus on being stronger and more agile. We will have fewer
budgetary resources in our accounts, but we will be more resourceful with
what we have. We must continue to represent to the Nation and to the world
that often calls upon us to serve that we remain America’s Army and the most
powerful land force in the world.

This FY 2013 financial report reflects the Army’s commitment across the scope of
operations to address the ever-tightening budget realities while never forgetting
our primary mission or our responsibilities to our Soldiers and our staunchest
supporters. We will continue to care for Army Families who share their Soldiers’
burdens; we will continue to support our Army Civilians whose work is vital
to the mission; and we will keep our promises to the wounded Soldiers who
count on us to help heal their wounds and provide for their Families. Those
are all non-negotiable obligations we hold, and while budgets may tighten and
resources diminish, the President, the Secretary of Defense and I stand firm in
our commitment to support, in every way possible, the men and women of the
United States Army. As America’s Army, we will continue to serve with dignity,
courage, honor and strength.
                                                                                      Secretary of the Army




                               John M. McHugh
                              Secretary of the Army
                                                                                                              Message iii
iv FY 2013 United States Army Annual Financial Report




Service to the Nation,
Strength for the Future
Fiscal Year 2013 United States Army Annual Financial Report
The Army undertook and achieved some of our most ambitious financial
improvements during Fiscal Year (FY) 2013 while we made significant progress
of increased accountability throughout the Army. We will build upon our
successes in the coming year as we strive to meet congressionally mandated
audit readiness timelines. The culmination of this hard work, at all levels of the
organization, will provide more reliable and timely financial information with
greater accuracy in support of the highest standards of military readiness.

Despite several immense challenges, including the strain of 12 years of war,
budget uncertainty, and sequestration, and the negative impact of civilian
furloughs, the Army displayed resilience and commitment in implementing
and improving the operation of modern financial systems. Chief among these
systems are the General Fund Enterprise Business System (GFEBS) and the
Logistics Modernization Program (LMP), which have introduced automated
standard processes and controls to the Army’s business operations. Additionally,
the Army continues to develop and deploy the Global Combat Support System-
Army (GCSS-A) and the Integrated Personnel Pay System-Army (IPPS-A);
both of which will modernize and improve our business processes and lead to
significantly more efficient and effective functionality, while greatly contributing
to our goal of producing audit-ready financial statements.

The Army is employing the tools necessary to benchmark results and monitor
progress toward meeting our audit readiness goals. Progress is only possible with
the strong commitment of senior leaders and the superb efforts of a dedicated
workforce. During the past year, through the perseverance and accomplishments
of such dedicated Soldiers and Civilians, we took several critical steps towards
achieving an audit-ready Schedule of Budgetary Activity by FY 2015. Key
milestones included undergoing an audit on material GFEBS budgetary activity,




                                                                                       Assistant Secretary of the Army financial Management and Comptroller
successfully passing an audit of Army Real Property assets by independent public
accountants, implementing several internal monthly controls testing initiatives,
and other similar accomplishments geared to achieving a full audit-ready
financial report by September 2017.

We are proud of our FY 2013 accomplishments; however, our continued
progress and sustained efforts toward fiscal accountability are what we owe to the
American taxpayers, as we resource and deliver the mission-ready capabilities and
Army our Nation demands.




                          Dr. Mary Sally Matiella, CPA
                         Assistant Secretary of the Army
                    (Financial Management and Comptroller)
                                                                                                                                                              Message v
vi FY 2013 United States Army Annual Financial Report



Service to
the Nation,
Strength for
the Future




  A combat medic keeps watch on a road during a logistics inspection in Afghanistan.
  (U.S. Army photo by Sgt. Jessi Ann McCormick)

  Troops pack up their gear as they prepare to leave Forward Operating Base Azizullah,
  Afghanistan. (Photo by Spc. Joshua Edwards, Combined Task Force Dragoon Public Affairs)
                    Overview
                    The Army remains the best-trained, best-equipped and best-led fighting
                    force in the world, providing a credible and capable instrument of
The Army is         national power. The Army conducts many missions worldwide in
                    support of national security objectives, as well as within the United
transitioning to    States in support of civil authorities. The Army has over 67,000 Active
a more versatile,   Component (AC) and Reserve Component (RC) Soldiers committed to
                    operations around the world—in Afghanistan, Kosovo, the Philippines,
operationally       Horn of Africa, and throughout the Middle East as of September 25,
                    2013. Forward-stationed Army forces in the Republic of Korea, Japan,
adaptable force     Europe, and elsewhere provide Geographic Combatant Commands with
that will take on   an unparalleled capability to prevent conflict, shape the environment and,




                                                                                                                                        Army General Fund and Working Capital Fund 1
                    if necessary, win decisively.
broader missions    The Soldiers of our all-volunteer force are the Army’s greatest strategic
in support of       asset. They provide depth and versatility throughout the Total Force—

                                                                                                 Management’s Discussion and Analysis
                    the Active Army, the Army National Guard (ARNG), and the Army
the national        Reserve (USAR). The Active Army is reducing its end-strength from
                    a wartime high of approximately 570,000 to 490,000 by the end of
defense strategy.   Fiscal Year (FY) 2015; the ARNG from 358,000 to 350,200 by the end
                    of FY 2017; the USAR will maintain a 205,000 end-strength, and the
                    civilian workforce from 272,000 to 255,000 by the end of FY 2017.
                    These reductions, which began in FY 2012, represent a net loss of
                    106,000 Soldier and civilian positions.

                    Building upon the expertise gained from operations in Iraq and
                    Afghanistan, the Army is transitioning to a more versatile, operationally
                    adaptable force that will take on broader missions in support of the
                    national defense strategy. While reducing end-strength, the Army must
                    maintain ready and responsive forces that meet mission requirements
                    while optimizing resources.
2 FY 2013 United States Army Annual Financial Report



                                                                                                                                   The Army                            The Inspector
                                                                                                                                 Auditor General                         General


                                                                                                             Administrative                    Deputy Under               Chief of
                                                                                                           Assistant to the SA              Secretary of the Army    Legislative Liaison


                                                                                                                                                                       Office of Small
                                                                                                                                                                     Business Programs

            Office of the Secretary of the Army
                                                                                                                                                                      Chief Information
                                                                                                                                                Secretary                Officer/G-6
                                                                                                                                               of the Army




                                                                                                                  Synchronize
                                                                                ASA                                                                                       Chief of
         ASA                ASA                                 ASA          Financial
      Manpower
      & Reserve
                        Installation,
                         Energy &
                                                ASA
                                            Civil Works
                                                            Acquisitions,
                                                             Logistics &
                                                                            Management     General
                                                                                           Counsel
                                                                                                                                           Under Secretary              Public Affairs

        Affairs        Environments                         Technology
                                                                                 &
                                                                            Comptroller
                                                                                                                                             of the Army
                                                                                                                                                                     Executive Director
                                                                                                                                                                       Army National
                                                                                                                                       SENIOR ARMY LEADERS           Military Cemeteries
                                                                                                            Director
                                                                                                           Army Staff
                                                                                                                                                                          Chief of
                                                                                                                                             Chief of Staff              Chaplains
                                                                                                                                              of the Army




                                                                                                                  Integrate
                                                                                                                                                                       The Surgeon
            Army Staff                                                                                                                   Vice Chief of Staff             General
                                                                                                                                            of the Army
                        Army Chief                                                                                                                                    Provost Marshal
                        of Staff for                                            G-8                                                                                       General
          G1                                     Chief of        G-4         (Financial        G-2           G-3/5/7
      (Personnel)       Installation            Engineers     (Logistics)                 (Intelligence)   (Operations)
                       Management                                           Management)
                                                                                                                                             The Judge Advocate
                                                                                                                                                   General             Chief National
                                                                                                                                                                       Guard Bureau


             Defined responsibilities to ASAs                                                                                    Sergeant Major                         Chief Army
             Oversight                                                                                                            of the Army                            Reserve
    ASA      Assistant Secretary of the Army




Figure 1 – Headquarters, Department of the Army (HQDA)



Mission and Organization of the Army
The mission of the United States Army is to fight and win the Nation’s wars
through prompt and sustained land combat as part of the joint force. The Army
organizes, equips, and trains Soldiers for rapid, sustained combat operations
                                                                                                                                               The HQDA Staff supports the
on land; integrates Army capabilities with those of the other armed services;                                                                  Secretary by:
accomplishes all missions assigned by the President, Secretary of Defense, and
combatant commanders; and remains ready while preparing for the future.                                                                   Developing policies, plans,
The Army is organized to support and sustain the mobilization, training, and                                                                and programs.
deployment of its Soldiers anywhere in the world. Headquarters, Department of                                                             Establishing and prioritizing
the Army (HQDA) (Figure 1), under the direction of the Secretary of the Army                                                                requirements.
and the Chief of Staff, leads and manages the entire Army. The HQDA Staff is
composed of the Office of the Secretary of the Army (Secretariat) and the Army                                                            Providing resources to
Staff (ARSTAF).                                                                                                                             organize, man, train, and equip
                                                                                                                                            Soldiers to meet the combatant
Organizations reporting to HQDA as part of the Army’s command structure                                                                     commands’ current and future
(Figure 2) include Army commands, Army service component commands, and                                                                      operational requirements and
direct reporting units. The operational Army consists of numbered armies,                                                                   other needs as defined by the
corps, divisions, brigade combat teams, and battalions that conduct the full                                                                President, the Secretary of
range of military operations. The institutional Army supports the operational                                                               Defense, and the Secretary of
Army by providing the infrastructure necessary to man, train, equip, deploy, and                                                            the Army.
ensure the readiness of all Army forces.
                                            Headquarters
                                        Department of the Army

                                                                                                                   SMDC/
  FORSCOM          TRADOC          AMC                            USARCENT            SDDC          USASOC        ARSTRAT
                                                                  USARNORTH
                                                               USARSOUTH
                                                              USAREUR
                                                            USARPAC
                                                                                                                                          LEGEND
                                                       USARAF/SETAF
                                                                                                                                           Army    Command
                                                                                                                                                   Army Service
                                                                                                                                            ASCC   Component Command
 USAASC     ATEC      USACIDC    USMA        ANC      MDW      USACE       MEDCOM   NETCOM/     INSCOM    IMCOM     USAASB
                                                                                    9TH SC(A)                                               DRU    Direct Reporting Unit



           AMC     Army Materiel Command                     NETCOM/9th SC    Network Command/9th Signal Command              USARCENT   Army Central
            ANC    Arlington National Cemetery                       SDDC     Surface Deployment and Distribution Command      USAREUR   US Army Europe
       ARSTRAT     Army Strategic Command                           SETAF     Southern European Task Force                   USARNORTH   Army North
           ATEC    US Army Test and Evaluation Command              SMDC      Space and Missile Defense Command                USARPAC   US Army Pacific
      FORSCOM      Force Command                                  TRADOC      Training and Doctrine Command                  USARSOUTH   Army South
         IMCOM     Installation Management Command                 USAASC     US Army Acquisition Support Center                USASOC   US Army Special Operations Command
        INSCOM     US Army Intelligence and Security Command        USACE     US Army Corps of Engineers                          USMA   US Military Academy
           MDW     Military District of Washington                USACIDC     US Army Criminal Investigation Command
       MEDCOM      Medical Command                                 USARAF     US Army Africa



Figure 2 – Army Command Structure


The AC consists of full-time Soldiers assigned to the                                      operational force, providing trained and ready forces for
operational and institutional organizations that perform                                   wartime, national emergencies, and other contingencies.
day-to-day Army missions. The RC consists of the                                           Unless federally-mobilized, ARNG units are commanded
ARNG and the USAR. The Congress annually reviews                                           by their state executive, usually the governor.
and mandates the number of Soldiers that the Army
may maintain.                                                                              The USAR is the primary federal reserve force of the
                                                                                           Army. The USAR provides specialized units and resources
The ARNG has a dual role. Its first role is that of a state                                to support and sustain the deployment of Army forces
military force to train for, and respond to, domestic                                      around the globe. In addition, it is the primary source for
emergencies and other missions required by state law.                                      individual Soldiers needed to augment headquarters staff
The ARNG can also serve a federal role as part of the                                      and fill vacancies in the AC.




                                                                                                                                                                                                                     Army General Fund and Working Capital Fund 3
                                                                                                                                                                              Management’s Discussion and Analysis




Preparing to conduct a movement during an air assault exercise at Fort Drum, New York. (U.S. Air National Guard photo by Staff Sgt. Sarah Mattison)
4 FY 2013 United States Army Annual Financial Report



                                      Performance Goals, Objectives, and
                                      Results
                                      The Army is poised to meet its performance goals by the end of FY 2013.
                                      Maintaining credible strategic land-power requires the Army to continually
                                      assess and refine how we operate, manage our human capital, and increase our
                                      capabilities. The Army will build regionally-aligned, mission-tailored, land
                                      forces with a versatile mix of capabilities, formations, and equipment that is
                                      affordable and cost effective. Going beyond materiel and equipment solutions,
                                      the Army’s modernization strategy is a comprehensive effort that includes
                                      doctrine, organizations, training, leadership, personnel, and facilities. The Army
                                      will develop, field, and sustain equipment that provides Soldiers and units the
                                      capabilities they need to be successful.

                                      Sustain
                                      The Army must maintain the quality and viability of the all-volunteer force, as
                                      well as the many capabilities it provides the Nation, in order to sustain Soldiers,
                                      Families, and Army civilians in an era of persistent conflict. Sustainment ensures
                                      that Soldiers and their Families have the quality of life they deserve, leading to
                                      improved retention rates.

                                      Manning the Force—Recruiting and Retaining Soldiers
                                      While the recruiting environment is challenging, the Army remains committed
                                      to bringing only the very best into its ranks. The Army’s goal is to achieve no
                                      less than a 90% rate of new recruits with Tier 1 educational credentials, e.g.,
                                      high school diplomas or above. The Army achieved over 99% Tier 1 recruits in
                                      FY 2013, which is in line with the FY 2012 achievement. The overall attrition
                                      rate remained virtually unchanged over the last three years. The unvarying
                                      attrition rate and overall quality of recruits are positive signs that the Army is
                                      recruiting, training, and retaining a highly-qualified force.

Table 1 - Quality – Percent Tier 1 Educational Credential Holders (Active Component)

                                   FY 2009              FY 2010             FY 2011                 FY 2012            FY 2013
Tier 1 Goal                         90%                  90%                 90%                     90%                90%
Tier 1 Actual                       95%                  98%                 99%                     96%                99%

                                      Performance Measure: The Army met its recruiting requirements in the AC.
                                      A tougher recruiting environment made recruiting for the AR and ARNG more
                                      difficult in FY 2013.

Table 2 – Accessions

                                FY 2009 Actual   FY 2010 Actual   FY 2011 Actual   FY 2012 Actual      FY 2013 Goal    FY 2013 Actual
Active Component                      70,045           74,577           64,019           53,324               69,000         69,154
Army National Guard                   52,014           57,204           47,206           39,796               45,400         44,734
U. S. Army Reserve                    23,684           26,795           19,996           15,729               20,130         15,568
Troopers jog to a waiting UH-60 Black Hawk helicopter during training for protecting the U.S. consulate at Herat, Afghanistan. (U.S. Army photo by Capt.
Andrew Cochran/released)


Table 3 - Active Component End Strength Within 2 Percent

                                                  FY 2009               FY 2010             FY 2011               FY 2012               FY 2013
Goal                                                  552,400               562,400             569,400               562,000               552,100
Congressional Baseline                                532,400               562,400             569,400               562,000               542,700
Actual                                                553,044               566,045             565,463               551,503               532,043
Percent Change                                         +3.9%                 +0.7%                -0.7%                 -1.9%                 -2.0%

                                                     Performance Measure: The number of Soldiers on active duty at the end of
                                                     the year; data are as of the end-of-month (EOM), September 2013. Under
                                                     presidentially-declared states of national emergency, end-strength limits may
                                                     be waived.

Table 4 - Reserve (ARNG and USAR) End Strength Within 2 Percent




                                                                                                                                                                                                  Army General Fund and Working Capital Fund 5
                                                  FY 2009               FY 2010             FY 2011               FY 2012               FY 2013
Goal                                                  563,200               563,200             563,200               564,200               563,200
Actual                                                563,688               567,296             567,010               559,610               555,944

                                                                                                                                                           Management’s Discussion and Analysis
Percent Change                                         +0.1%                 +0.7%               +0.7%                  -0.8%                -1. 2%

                                                     Performance Measure: The number of Soldiers in the ARNG and the USAR at
                                                     the EOM, September 2013.

Members of the Utah Army National Guard assist with freefall and static line
parachute jumps near Camp Williams, Utah. (Photo by U.S. Air Force Staff
Sgt.Tim Chacon)
6 FY 2013 United States Army Annual Financial Report




U.S. Army Chief of Staff Gen. Ray Odierno reenlists Soldiers in Afghanistan. (U.S. Army Photo by Staff Sgt. Teddy Wade/Released)


Table 5 - Active and Reserve Component Retention

                                              FY 2009 Actual     FY 2010 Actual    FY 2011 Actual     FY 2012 Actual      FY 2013 Goal      FY 2013 Actual
Active Component                                     68,387             60,000            43,626             64,012                51,800         58,739
Army National Guard                                  36,672             30,472            39,750             49,272                59,234         51,145
Army Reserve                                         16,523             11,163            10,330             14,377                14,104         15,731

                                                     Performance Measure: The number of Soldiers reenlisted during a given
                                                     FY against published goals. The AC and AR achieved their retention mission for
                                                     FY 2013 as of the end of September 2013.

                                                     Due to Overseas Contingency Operations (OCO), several special skills remain
                                                     in high demand. In FY 2013, the Army offered a Critical Skills Retention and
                                                     Selective Reenlistment Bonus to attract and retain personnel in specific skills
                                                     areas, including Special Forces, Explosive Ordnance Disposal (EOD), and
                                                     Military Intelligence. These bonuses, which are vital tools in retaining Soldiers
                                                     who possess valuable combat experience, helped the Army to exceed its FY 2013
                                                     retention goal. Careful and deliberate adjustments to bonuses, including
                                                     designation of targeted critical skills, ensured the correct mixture of skilled
                                                     Soldiers. Recruiting and retaining Soldiers—confident, adaptive, competent,
                                                     and able to handle the complexity of 21st century warfare in a combined, joint,
                                                     expeditionary environment—is a highly-competitive endeavor. The Army will
                                                     continue to develop and implement programs to address this challenge.

                                                     Improving the Quality of Life for Soldiers and Their Families
                                                     The Army has statutory obligations and operational imperatives to provide a
                                                     balanced array of programs and services to Soldiers, their Families, and Army
                                                     civilians that meet the unique demands of a military lifestyle, foster life skill
                                                     competencies, strengthen and sustain physical and mental fitness and resiliency,
                                                     and promote strong and ready Army communities.
Family readiness is the state of being prepared to effectively                  injured Soldiers and their Families are receiving the care
navigate the challenges of daily living experienced in the                      management and support they need and deserve. The
unique context of military service. Prepared Soldiers and                       Warrior Transition Command (WTC) ensures focused
Families understand the challenges they may face, are aware                     and effective management across all aspects of the WCTP.
of supportive resources available to them, have the skills                      In FY 2013, the Army dedicated $321 million to equip
needed to function in the face of challenges, and use those                     the WCTP with support staff, training, and information
skills and resources to manage challenges.                                      technology (IT), and to make investments in warrior
                                                                                transition unit (WTU) administrative facilities, barracks,
The Army Family Covenant (AFC) is our senior leaders’                           and Soldier Family Assistance Centers (SFACs). As of
commitment to deliver proven quality-of-life programs                           the end of FY 2013, 19 of the 20 new congressionally-
and services that support our Soldiers, wounded warriors,                       appropriated WTU campus construction projects are
civilians, retirees, family members, and survivors of the                       complete and operational. Staff across the enterprise
fallen. The AFC builds and sustains Army readiness,                             includes all components and contractors, with almost
resilience, morale, and sense of belonging; keeps faith with                    4,000 squad leaders, platoon sergeants, nurse case
those who have sacrificed so much for the defense of the                        managers, and support staff coordinating care in WTUs
Nation; fosters an environment that allows for self-reliance;                   and community-based WTUs (CBWTU).
promotes physical, emotional, social, Family, and spiritual
strength; and maintains the strong bond of trust between                        With the WTC leading the way, the Army cares for over
the Army and the American people.                                               25,500 Soldiers and veterans annually. Under WTC’s
                                                                                direction, the Army Wounded Warrior Program assists
The Army joined forces with communities across the                              and advocates for over 17,700 wounded, ill, and injured
country to inspire support that complements or fills gaps                       Soldiers, veterans, and their Families and caregivers. Their
in existing Army programs. These programs provide                               wounds, illnesses, and injuries include hearing or vision
Soldiers and Families of all components with a balanced                         loss, amputations, spinal cord injuries, burns, paralysis,
array of services that meet the unique demands of a military                    traumatic brain injury, post-traumatic stress disorder, and
lifestyle. Such services foster life skill competencies,                        severe and terminal illnesses. This population is supported
strengthen coping skills, encourage resiliency instead of                       by over 200 advocates located at major military treatment
dependence, and offer short-term support and assistance                         facilities, Army installations, Department of Veterans
when needed.                                                                    Affairs (VA) medical centers, and in local communities
Warrior Care and Transition                                                     throughout the continental United States, Alaska, Hawaii,
With the continued maturation of the Army’s Warrior                             Puerto Rico, and Germany. Advocates function as
Care and Transition Program (WCTP), wounded, ill, and                           integrated, collaborative members of multidisciplinary




                                                                                                                                                                                              Army General Fund and Working Capital Fund 7
                                                                                                                                                       Management’s Discussion and Analysis




United with family and friends after an almost yearlong deployment to Afghanistan. (Photo by Bill Prokopyk, ND National Guard Public Affairs Office)
8 FY 2013 United States Army Annual Financial Report




Members of the U.S. Army Wounded Warrior track team practice their technique from the starting blocks in Colorado Springs, Colorado. (DoD Photo by
Marvin Lynchard)

healthcare and benefits teams within the WTUs, CBWTUs,                           Warrior Games in collaboration with the U.S.
and the VA. There are over 1,600 wounded warriors,                                 Olympic Committee (USOC).
supported at 9 CBWTUs, who have been provided the
opportunity to heal in their home communities with                               Comprehensive Soldier and Family Fitness—
their families. Approximately 6,200 additional wounded                             performance enhancement and resilience training.
warriors are supported at 29 WTU locations.
                                                                          Ready and Resilient Campaign
To help each WTU Soldier either return to the force                       The Ready and Resilient Campaign (R2C) is a
or transition to veteran status, the Army developed a                     comprehensive plan to address the immediate and
systematic framework known as the Comprehensive                           enduring needs of the Total Army, including Active,
Transition Plan (CTP). The CTP is conducted across                        Reserve, and National Guard Soldiers, their Families, and
six domains and includes an individual plan created by                    Army civilians. R2C guides the Army’s efforts to build
the Soldier with the assistance of a dedicated Triad of                   and maintain resilience across the Total Army to improve
Care and Interdisciplinary Team. Using a standardized                     unit readiness and further reinforce the Army profession.
framework, this process enables wounded, ill, and injured                 The Army supports R2C through various programs and
Soldiers to customize their recovery plans and empowers                   services delivered on the garrisons such as, but not limited
them to set and reach their personal and professional                     to, sponsorship, the Army Substance Abuse Program
goals. In FY 2013, funding allowed approximately 35% of                   (ASAP), Suicide Prevention, Comprehensive Soldier
the wounded warrior population to return to duty, while                   and Family Fitness Program, the Army Sports Program,
enabling others to successfully transition to civilian life to            Better Opportunities for Single Soldiers (BOSS), Survivor
further their education, and/or enter the workforce. The                  Outreach Services (SOS), Child, Youth, and School
program’s success can be attributed, in part, to an aggressive            Services (CYSS), the Exceptional Family Member Program
clinical and non-clinical rehabilitative approach. The                    (EFMP), Soldier Family Assistance Centers (SFAC), Army
funding-supported pillars of this program include such                    Communities of Excellence (ACE), Army Community
activities as:                                                            Service (ACS), internships, and transition programs.

      Adaptive reconditioning (physical and mental                      Improving Soldier and Family Housing
        stamina activities). Programs include those                       The Army’s commitment, coupled with congressional
        geared toward the holistic healing and mental                     support for housing programs, brings to reality our pledge
        and physical fitness of wounded, ill, and                         to provide a quality of life for Soldiers and their Families
        injured Soldiers.                                                 commensurate with their service. In concert with the
                                                                          private sector, the Army continues to exercise considerable
                                                                          effort to improve both family and unaccompanied Soldier
housing. The Army continues to eliminate inadequate                             and to complete the modernization program in the future.
family housing at enduring locations through privatization                      The FY 2013 permanent-party barracks projects—which
and either the demolition or divestiture of uneconomical                        were deferred or placed on hold to reduce the risk of
and excess facilities. The Army continues to move forward                       over-building due to pending stationing decisions—
to maintain 16,068 Army-owned family housing units                              will be addressed in the FY 2016-2020 Program
and improve or replace all inadequate family residences                         Objective Memorandum (POM). As of FY 2013, the
worldwide; these improvements are reflected in its property                     Army has 150,404 adequate bedrooms funded out of
records. Using the same business model as the Residential                       154,505 bedrooms required.
Communities Initiative (RCI) program, the Army’s
inventory of inadequate lodging is being eliminated at                          The Army’s Training Barracks Modernization Program
enduring U.S. locations through the Privatization of Army                       constructs, restores, and modernizes initial entry training
Lodging (PAL) program, and either the demolition or                             barracks to eliminate existing deficits and improve facility
divesture of uneconomical and excess lodging buildings.                         quality for Soldiers attending basic training, one-station
                                                                                unit training, and advanced individual training. As
The privatization of homes at 44 installations was                              of FY 2013, 73,953 spaces have been funded out of
completed on schedule in 2010. These 44 installations                           97,939 spaces required.
have an end-state inventory of 86,055 family homes. In
addition to privatized family housing, the Army executed                        Prepare
five unaccompanied housing (UH) privatization projects.
Four UH privatization projects were for staff sergeants and                     To prepare Soldiers, units, and equipment, the Army
above at Forts Irwin, Drum, Bragg, and Stewart; and the                         must maintain a high level of readiness for the current
fifth project was for sergeants and below at Fort Meade.                        operational environments, especially in Afghanistan, while
Together, these facilities will provide 2,402 spaces at five                    taking into consideration potential future conflicts. The
installations for unaccompanied personnel.                                      Army is continually adapting training and materiel to
                                                                                keep pace with an evolving enemy. It remains committed
The RCI and PAL programs are in the portfolio and asset                         to providing deploying Soldiers with the best available
management phase. Like RCI, PAL buildings are located at                        equipment in order to maintain a technological advantage
39 installations, and are in the development phase, which                       over any enemy Soldiers may face.
is scheduled to be completed by 2019 with a projected end
state of 14,138 guest rooms.                                                    Providing Support for Operational Requirements
                                                                                The pace of operations in the current security environment
The Army is working to eliminate inadequate, common                             presents a number of significant force management
area latrines in permanent party, single-Soldier barracks,                      challenges. Due to the Army’s global commitments,




                                                                                                                                                                                                       Army General Fund and Working Capital Fund 9
                                                                                                                                                                Management’s Discussion and Analysis




A U.S. Army sergeant medic is hoisted back into his crew’s UH-60 Black Hawk helicopter during a training exercise near Nangarhar province, Afghanistan. (U.S.
Army National Guard photo by Sgt. Margaret Taylor)
10 FY 2013 United States Army Annual Financial Report


                                                       approximately 165,000 Soldiers are deployed or forward-stationed in nearly
                                                       150 countries. As of September 24, 2013, approximately 130,000 personnel
                                                       were serving in the AC, and approximately 35,000 RC Soldiers were on
                                                       mobilization orders.

                                                       Repeated deployments affect recruiting and retention and have a significant
                                                       impact on the Army’s ability to care for Soldiers and their Families.
                                                       Consequently, the Army is examining and pursuing numerous initiatives that
                                                       will reduce force-management risk in meeting today’s challenges, and to better
                                                       position Soldiers for the future.

                                                       The Army Force Generation (ARFORGEN) process leverages modular unit
                                                       designs and the operational cycle to create a sustainable deployment posture for
                                                       units ready in predictable patterns with the capacity to surge combat power for
                                                       major operations. When fully operational, ARFORGEN will enable the Army
                                                       to effectively and efficiently schedule fully-ready units for deployment. In turn,
                                                       this will:

                                                        Reduce uncertainty for Soldiers, Families, and the local communities that
                                                          support installations.

                                                        Improve the availability of forces for combatant commanders.

                                                        Generate a continuous number of available Brigade Combat Teams (BCTs),
                                                          augmented by all required supporting organizations (given appropriate
                                                          mobilization authority).

                                                        Enable the Army to surge additional BCTs augmented by all required
                                                          supporting organizations (given appropriate mobilization authority).

                                                       Training Soldiers
                                                       Initial entry training develops warfighting capability through training in
                                                       individual warrior tasks and battle drills as well as military occupational
                                                       specialties. To ensure tasks remain relevant to the operating environment, the
                                                       Army reviews and updates these tasks and drills every two years.

                                                       The Army continues to augment its ability to conduct irregular warfare
                                                       through several multi-functional courses. For example, some courses build on
                                                       language and cultural competencies while others improve Soldiers’ and civilians’
                                                       knowledge of, and capabilities in, electronic warfare, red teaming (opposing
                                                       forces), counterterrorism, weapons of mass destruction, civil affairs, information
                                                       operations, counter-explosive hazards, and operational law.
Table 6 - Individual Training1
                                    Basic Combat     One- Station Unit        Advanced          Basic Officer   Officer Candidate   Warrant Officer   Initial Entry Rotary
Initial Military Training             Training           Training        Individual Training   Leader Course          School         Entry Course             Wing
2010 Trained (actual)                    75,920             32,129             105,310              17,916               2,307              2,273               1,132
2011 Trained (actual)                    73,825             29,468              91,480              16,364               1,424              2,236               1,260
2012 Trained (actual)2                   65,321             27,119              79,246              15,462               1,001              1,742               1,244
2013 Trained (interim)2                  55,970             19,631              66,034               9,234                 801              1,659                 610

Note 1: This data represents active Army, ARNG, and USAR students graduating from AC schools. All data is based on start date, i.e., if a class started in
FY 2011 and graduated in FY 2013, it is counted in the FY 2011 data.

Note 2: The actual trained data for 2012 and the interim trained data for 2013 are as of September 18, 2013.
Soldiers refuel an AH-64D Apache Longbow helicopter at the Oberdachstetten, Germany, Local Training Area forward arming and refueling pad. (U.S. Army
photo by Luis Viegas)

Training Units                                                              must support Soldiers, leaders, and units training for
In FY 2013, the Army provided trained and ready Soldiers                    decisive action.
to commanders around the globe in addition to meeting
critical homeland defense missions. To make certain they                    Sequestration had major effects, ranging from limited access
were combat-ready in FY 2013, deploying Soldiers engaged                    to training ranges, to reduced hours of operation at Mission
in a balanced mix of live, virtual, and constructive training.              Training Complexes (MTC). Sequestration compounded
The deploying AC and RC units executed a focused and                        the effects of reduced capability by only resourcing 75%
demanding ground- and air-training plan, which included                     of the critical requirements (CR), severely affecting the
actual miles driven and hours flown, as well as virtual miles               level of TSS necessary to keep training support available
driven and hours flown through the use of simulators. In                    and relevant. The uncertainty of FY 2013 O&M funding
FY 2013, home-station training miles and hours executed                     and the incremental release of funds based on HQDA level
were affected by the Continuing Resolution Authority                        decisions had an impact on TSS at the installation level.
(CRA) and sequestration; non-deploying units were funded                    Installations were required to rely heavily on Borrowed
at lower training proficiency levels. Official OPTEMPO                      Military Manpower (BMM) from units to perform
results for FY 2013 were not available at the time of                       TSS functions.




                                                                                                                                                                                               Army General Fund and Working Capital Fund 11
this publication.                                                           This was a challenging year for executing TSS TADSS
Training Support Systems                                                    maintenance support resources due to CRA and
The Army’s Training Support System (TSS) enables training                   Sequestration. Initial risk was assumed in time and

                                                                                                                                                        Management’s Discussion and Analysis
at home stations, Combat Training Centers (CTC), and                        material as well as firm fixed price contracts necessary to
institutions by creating realistic conditions that reflect the              procure spares and repair parts for inoperable TADSS.
operational environment. The TSS provides and operates                      Challenges were addressed with midyear funding, providing
training support products, services, and facilities in the                  a 95% operational availability for operational force and
form of critical training enablers, such as ranges and targets;             institutional base TADSS.
live-virtual-constructive and gaming Training Aids, Devices,                CTC Modernization Program (CTC Mod) began fielding
Simulators, and Simulations (TADSS); instrumentation                        replacement of the Range Communications System
systems; training facilities; maintenance of fielded TADSS;                 (RCS) necessary for the CTC Instrumentation System
and training support operations and management (O&M).                       (CTC IS) to instrument a third combined battalion and
As a result of Army Training Strategy III, the Army                         echelons above brigade enablers at the NTC in FY 2015,
identified capabilities needed to adapt TSS to support                      and JRTC in FY 2017. The CTC Mod also mitigates
ARFORGEN training requirements and lessons learned                          anticipated critical sub component failures to the RCS.
from current operations. At home stations, training                         Mission Command Training Support Program (MCTSP)
                                                                            modernized MTCs and training simulations to upgrade
12 FY 2013 United States Army Annual Financial Report


leader and battle-staff training and mission-rehearsal         fielding was reduced for systems such as the Homestation
capabilities for deploying units. The MTCs give units          Instrumentation System (HITS) and Instrumentable
the ability to train and to sustain critical individual/       Multiple Integrated Laser Engagement System (IMILES),
operator and battle-staff skills on digital command,           systems which are critical components of LVC-ITE.
control, communications, intelligence, and surveillance        Additionally, the lack of funding for planned upgrades
and reconnaissance systems. The MTCs also network              and improvements to support concurrency, relevance, and
with other installations and simulations to support joint      usefulness of fielded devices such as the Engagement Skills
training exercises. New TSS capabilities were fielded to       Trainer (EST), Call For Fire Trainer (CFFT), and the
support requirements driven by the Army Campaign               Improvised Explosive Device Effects Simulator (IEDES)
Plan. A persistent Live, Virtual, Constructive-Integrated      had a negative impact on modernization of devices fielded
Training Environment (LVC-ITE) will be implemented             at home-station and institutional locations for nearly a
at selected home stations. This architecture links Home        decade. STSP continued to provide Common Level of
Station Instrumentation Training Systems in live training      Support (CLS) manpower and services. New requirements,
areas to MTCs, which house constructive simulations and        driven by the fielding of approved systems, e.g., flight
gaming to virtual TADSS. The MTC serves as the hub             simulators, Medical Simulation Training Centers (MSTC),
for an installation’s LVC-ITE, which was fielded to four       and the LVC-ITE, increased manpower requirements
installations (Forts Hood, Bliss, Campbell, and Drum) with     in an era of significant reductions. The result has been
an endstate of 18 total sites. Construction was completed      a reduction of baseline services to all customers at most
on three MTCs with four more under construction.               installations. Because RC units must habitually train on
FY 2013 reductions in Installation Management Command          evenings and weekends, there has been an even greater
(IMCOM) funding resulted in the reduced capability of the      reduction in available services to the RC customer base
MTC to provide home-station training to resident units.        at installations with regional training support service
                                                               delivery responsibility.
Sustainable Range Program (SRP) and Integrated Training
Area Management (ITAM) maximize the capability,                Army TSS, including, manpower and operations support
availability, and accessibility of ranges and training lands   required to maintain and operate TADSS, must continue
to support doctrinal requirements, mobilization, and           to keep pace with equipment modernization and Army
deployments under normal and surge conditions. ITAM            transformation. This will ensure that training supports
provides Army range officers with the capabilities to manage   current operations, addresses ARFORGEN training and
and maintain training lands and support mission readiness.     readiness requirements, and enables training Army forces
By implementing a uniform land management program,             for prompt and sustained land combat operations.
ITAM integrates the mission requirements derived from the
SRP, with environmental requirements and environmental         Adapting Training
management practices. It also establishes the policies and     In FY 2013 the Army conducted 14 of 21 planned
procedures to achieve best, sustainable use of training and    rotations at the maneuver CTCs, 30 exercises with the
testing lands SRP provides modernization of the Army’s         Mission Command Training Program, and 34 mission
range complexes using the TSS facility investment strategy     command seminars. The CTCs provide realistic joint- and
and continuous technology refresh of training systems          combined-arms training that approximates actual combat
fielded on ranges. SRP also provides range operations          consistent with Army and joint doctrine. The CTCs are at
and maintenance to support individual and crew served          the core of the Army’s collective training strategy and have
weapons qualification at 100 continental United States         dedicated resources beyond those available at home-station
(CONUS) and outside the continental United States              training sites. Training provides a free-thinking enemy and
(OCONUS) locations and collective live fire capability         provides lessons-learned feedback through a professional
on the largest 27 installations. The capability provided at    staff of observer controllers. The training environment
all these locations will be reduced over the next four years   emphasizes rapid change and adaptation to current
due to the reduction of the force. Ranges continue to be       activities while using improved facilities on the battlefield
modernized to integrate digital systems that enable squads     and in realistic scenarios.
and platoons to train as they fight, as well as to provide
commanders and leaders with objective data to assess their     As mission requirements are reduced in Afghanistan, the
units’ performance and training levels.                        CTCs have started to conduct decisive action rotations that
                                                               will better prepare Army’s formations for a wider range of
Soldier Training Support Program (STSP) continued              contingencies. The BCTs that are not scheduled to deploy
acquisition and fielding of TADSS, supporting Live and         to theater conduct a decisive action rotation.
Virtual training. As a result, programmed acquisition and
                                                           While home-station training focuses on battalion staff and company-level
                                                           collective training proficiency, the CTCs have the unique capability to train
                                                           brigade-level-and-above staffs and to develop battalion-level-and-above collective
                                                           tasks. The complex, event-driven scenarios challenge the BCTs to execute
                                                           multiple, simultaneous missions that include integrated enablers from the Army
                                                           and the joint community.

                                                           Adaptive Army Leaders for a Complex World
                                                           Unit training and leader development are the Army’s life-blood. The Army
                                                           possesses the competitive advantage of developing leaders that cannot be
                                                           replaced by technology, or substituted with advanced weaponry and platforms.
                                                           Developing leaders today is the key to preparing the Army for 2020 and beyond.
                                                           The increasingly uncertain, complex, and interconnected global environment
                                                           demands that an Army of preparation invests in leader development—the
                                                           life-long synthesis of the training, education, and experience acquired through
                                                           opportunities in the operational, institutional, and self-development domains.
                                                           The Army is focused on developing our military and civilian leaders to meet
                                                           the challenges of the 21st century and holding commanders responsible for
                                                           developing and executing progressive, challenging and realistic training guided
                                                           by the doctrine of mission command. These efforts will result in more adaptive
                                                           forces capable of achieving regional alignment or mission tailoring as required.
                                                           Guided by the Army Leader Development Strategy, the Army is undertaking
                                                           efforts to foster continued commitment to the Army profession, preserve the all-
                                                           volunteer force, and build leaders for our nation.

                                                           The Army must balance its commitment to training, education, and experience
                                                           components of leader development. Due to the high operational demand
                                                           over the past decade, many Army leaders did not attend professional military
                                                           education (PME) at the optimal time in their career. As a result, the Army
                                                           experienced a large backlog at nearly all educational levels in both the AC and
                                                           RC. To reduce the backlog, the Army leveraged the One Army School System
                                                           (OASS); implemented Structured Self-Development; employed mobile training
                                                           teams for Noncommissioned Officer Education System courses; increased the
                                                           use of Distributed Learning to conduct PME; and optimized Intermediate Level
                                                           Education for the AC. The Army anticipates an increasing number of leaders will




                                                                                                                                                                                                                                    Army General Fund and Working Capital Fund 13
                                                           attend PME in accordance with their career timeline.

Table 7 - Professional Development (AC Schools Only)1


                                                                                                                                                                                             Management’s Discussion and Analysis
                                                 NCOES Graduates                                       OES Graduates                               WOES Graduates
                                                                                                                     Senior Service
                                                                                                    Intermediate     College (SSC)    Warrant Officer   Warrant Officer    Warrant Officer
                                                                                Sergeants Major    Level Education     Resident/      Advance Course     Staff Course       Senior Staff
                             Warrior Leader   Advanced Leader   Senior Leader   Course Resident/   Resident (ILE)/     Distance        Resident/Non-    Resident/Non-     Course Resident/
                                Course            Course           Course       Ph2 Non-resident    Common Core        Learning          resident          resident         Non-resident

2010 Trained (Actual)             29,825            16,573            9,895         265/601         1,123/912           198/326 1,952/223                   554/385             330/12
2011 Trained (Actual)             28,671            18,697           10,495         507/392         1,059/930           500/309 2,233/110                 825/1,007           234/235
2012 Trained (Actual)2            26,929            18,767           10,610         592/671         1,073/948           509/330 2,689/427 1,054/1,016                         316/347
2013 Trained (Interim)2,3         19,695            16,061            8,769             0/381             0/636         508/404 2,273/250                   931/884           381/336

Note 1: This data represents active Army, ARNG, and USAR students graduating from active component schools. All data is based on start date, i.e., if a class
starts in FY 2012 and graduates in FY 2013, it is counted as FY 2012 data.

Note 2: Actual 2012 trained data and interim 2013 trained data are as of September 18, 2013.

Note 3: The 2013 resident ILE classes do not graduate (1,201 inputs) until December 2013 and June 2014.
14 FY 2013 United States Army Annual Financial Report


                                      The Army is keenly aware of the valuable contributions made by its civilian
                                      corps in supporting the National Military Strategy. Here, too, it must provide
                                      training, education, and operational experiences that develop and improve
                                      the leadership competencies which, collectively, enhance this cadre’s ability
                                      to support Soldiers, the Army, and the Nation. To advance this goal, the
                                      Army revamped the Civilian Leader Development Program to better align it
                                      with the Military Leader Development Program. Courses are sequential and
                                      progressively targeted at specific civilian grade levels to be taken throughout the
                                      civilian’s career to better align it with the Military Leader Development Program.
                                      Specifically, the Civilian Education System (CES) meets the Secretary of the
                                      Army’s mandate that the leaders of tomorrow be adaptable and multi-skilled.
                                      This mandate demands a centralized education, training, and development
                                      program in which to “grow” civilian leaders who—in both operational and
                                      institutional capacities and in evolving environments—can meet and succeed in
                                      their missions.

Table 8 – Civilian Professional Development
                                                            Dwight D. Eisenhower School for National
                                    Army War College            Security and Resource Strategy         Civilian Education System

2013 Inputs                                            13                                         7                           27,130

                                      The CES uses leadership competencies derived from those set by the Department
                                      of Defense (DoD) civilian leader development framework and those identified
                                      by the Center for Army Leadership. The CES courses support and promote
                                      career path requirements, professional development, and life-long learning and
                                      self-development.

                                      Section 1113 of the 2010 National Defense Authorization Act (NDAA), and
                                      the Federal Supervisory Training Act, outline specific requirements for the
                                      development of a mandatory supervisor training course for all DoD supervisors,
                                      both civilian and military. Specifically, supervisor training must include the
                                      use of new NDAA authorities, instruction on prohibited personnel practices,
                                      and mentoring of new supervisors. First-time supervisors, who have been in
                                      their jobs less than two years, are required to complete training no later than
                                      one year from the date on which they were appointed to a supervisory position.
                                      Supervisors are also required to take refresher training every three years.

                                      The Army revised its Supervisor Development Course to meet the NDAA
                                      requirements. Training for all supervisors of civilian employees promotes the
                                      development of world-class leaders and provides opportunities for new managers
                                      and supervisors to interact, share experiences, and learn from each other.
                                      Supervisor training develops a diverse cadre of leaders capable of managing across
                                      the military. This training ensures continuity of the leadership and supervisory
                                      pipeline, and promotes the Army’s vision for competency-based development
                                      across the leadership continuum.

                                      In direct support of the Secretary of the Army’s initiative to transform the Army
                                      civilian workforce, the Civilian Training and Student Account (CTSA) was
                                      established for Army-funded civilians attending an Army Senior Service College
                                      (SSC), i.e., the Army War College and the Dwight D. Eisenhower School for
                                      National Security and Resource Strategy (DDE). The account mirrors the
Military Trainees, Transients, Holdees, and Students                             The Rapid Fielding Initiative
account by reassigning SSC participants to an HQDA-                              The Army is also committed to providing the best
centralized operational table of distribution and allowances.                    available equipment to deploying Soldiers. The Rapid
By assigning SSC participants to the CTSA, the command                           Fielding Initiative (RFI) continues to enhance warfighting
providing the individual for SSC attendance can                                  capabilities to address immediate Soldier requirements. A
immediately backfill against the position and mitigate any                       total of 22 BCTs, 11 combat aviation brigades (CAB), and
disruption to the organizational mission.                                        numerous other deploying units, totaling 114,554 Soldiers,
                                                                                 received RFI equipment during FY 2013.
Based on its prior successes, the Army used the CTSA
in FY 2013, and will subsequently place graduates in                             The Army Rapid Equipping Force (REF) harnesses
enterprise positions most needed by the Army. Other                              current and emerging technologies to provide immediate
initiatives will be developed and implemented to ensure a                        response to urgent equipment and materiel requirements
robust, accessible training program for all Army civilians.                      of globally fielded Army forces. The REF’s priority is
These initiatives include, but are not limited, to the                           deployed brigades and BCTs, focusing on commercial and
following:                                                                       government off-the-shelf solutions in order to maximize
                                                                                 response and minimize risk. The REF maintains forward-
      An Army-wide civilian training management                                deployed teams that interact with units to identify, equip,
        system.                                                                  and evaluate their requirements and capability shortfalls. In
      Leader competency-based training in conjunction                          addition, the REF introduced more than185 different types
        with the Army competency management system.                              of equipment (over 46,371 individual items of equipment)
                                                                                 to meet the urgent operational requirements of deployed
      Fellowships and experience-broadening                                    units in FY 2013. The REF is on track to introduce
        interagency and multinational assignments.                               37 different types of equipment and provide more than
                                                                                 9,274 individual equipment items to deployed Soldiers
      Increased outreach and communication to the                              during FY 2014.
        Army Civilian Corps with the goal of increasing
        CES participation.                                                       The Army Total Force Policy (ATFP) requires the Army
                                                                                 to organize, man, train, and equip active and reserve
The Army will continue to refine, improve, and update                            components as an integrated operational force to provide
the Civilian Education System curricula to meet                                  predictable, recurring and sustainable capabilities to
emerging initiatives and requirements and enhance                                support the National Military Strategy and Army
employee performance.                                                            commitments worldwide. The fleet age of trucks, combat
                                                                                 vehicles, communications systems, and Soldier weapon




                                                                                                                                                                                        Army General Fund and Working Capital Fund 15
                                                                                                                                                 Management’s Discussion and Analysis




T-11 parachutes lie ready to be issued to paratroopers. (U.S. Army photo by Visual Information Specialist Markus Rauchenberger/released)
16 FY 2013 United States Army Annual Financial Report




A mine resistant ambush protected vehicle driver performs daily maintenance on her vehicle. (U.S. Army National Guard photo by Sgt. Jessi Ann McCormick)

systems continues to improve as new equipment is fielded                       be accurately forecast since actual battle losses independent
to the RC. In order to eliminate the disparity between                         of historical rates of attrition drive the operational need for
the AC and the RC, ARNG and USAR forces preparing                              replacements.
to deploy are fielded the very best modernized equipment.
This achieves a critical goal on the path to create strategic                  Of the $2.71 billion appropriated for FY 2013 OCO reset
depth and transform the RC from a strategic reserve to an                      activities, the Army received $1.98 billion for its OCO
operational force.                                                             OMA accounts and $673 million for its OCO OPA
                                                                               accounts post sequestration. The Army later increased its
                                                                               OCO OMA account by $60 million to $2.04 billion. As of
Reset                                                                          July 31, 2013, OCO reset programs reset nineteen brigade
In FY 2013, Congress appropriated $2.71 billion to                             combat teams, 209 aircraft platforms, and 292,891 special
resource operational maintenance (OMA) and procurement                         repair items to include small arms and night vision devices.
programs (OPA) for OCO reset. These appropriations                             The Army obligated 98% of FY 2011 procurement
represent a $2.74 billion net reduction that occurred within                   funding, 84% of FY 2012 procurement funding, and
OCO reset caused by the combination of a twelve-month                          40% of FY2013 procurement funding.
continuing resolution and sequestration-related budget
adjustments. These budget adjustments resulted in the                          Transform
cancellation of some FY 2013 third and fourth quarter
depot orders, which contribute to the accrual of deferred                      In order for the Army to transform in a changing 21st
reset workload that the Army must address in the future.                       century security environment, it must continuously
                                                                               improve its ability to meet combatant commander needs.
Due to a $1.7 billion reduction in reset funding, the Army                     Through transformation, the Army adapts holistically to
deferred maintenance on 172 aircraft, more than 900                            how it fights, trains, modernizes, develops leaders, bases
vehicles, almost 2,000 weapons, and over 10,000 pieces                         its forces, and supports Soldiers, Families, and civilians.
of communications equipment. The deferment of reset                            Transformation is a journey, not a destination.
activity may adversely impact readiness for both active
and reserve component units up to five years beyond the                        Modularizing the Army
time that equipment redeploys from theater. Priority for                       The transition to a BCT-focused organization was the
reset resources goes to next-to-deploy units, the units on                     right decision to confront today’s fluid counter-insurgency
the Korean Peninsula, and for Global Response Force                            threats as well as adjust rapidly to scenarios the Army is
units. All other units may operate at reduced equipment                        likely to face in the years ahead. The evolving nature of
on-hand readiness levels for the near term. Repair,                            conflict—with diverse state and non-state actors employing
recapitalization, and replacement data scheduling cannot                       hybrid and asymmetric approaches to warfighting—will
continue to necessitate the range of capabilities inherent in     necessitated minor refinements to the modular design of
modular BCTs.                                                     these units.

The Army Modular Force reorganizes the Operational Army           In addition to modular design changes, the lessons learned
into modular theater armies, theater support structure,           initiated evolutions in equipment, doctrine, and training.
corps and division headquarters, brigade combat teams,            By continuously refining the Army approach to how
and multi-functional and functional support brigades based        modular formations train and fight, the Army adapts to an
on standardized organizational designs for the AC and RC.         evolving enemy, meets the Nation’s defense strategy, and
The Army reorganized from a division-based to a modular           fields new equipment, including vehicles, weapon systems,
brigade-based force to achieve three primary goals:               unmanned aircraft, and body armor.

    (1) 	Increase the number of available BCTs to meet            In FY 2013, the Army completed the modular
         operational requirements while maintaining               transformation with the conversion of the final support
         combat effectiveness equal to or better than             brigade formations. Through modularity, the Army
         previous divisional brigades;                            achieved a standardized, combat-proven organizational
                                                                  with improved combat effectiveness compared to previous
    (2) 	Create brigade-size combat support (CS) and              divisional brigades. Modularity created units of common
         combat service support (CSS) formations of               organizational design. It increased the number and agility
         common organizational designs more easily                of available BCTs to meet operational commitments,
         tailored to meet the varied demands of the               enhancing their ability to contribute to joint, interagency,
         geographic combatant commanders and reduce the           and multinational efforts. The Army continues to evaluate
         complexities of joint planning and execution; and        lessons learned and apply changes to modular force
    (3) 	Redesign organizations to perform as integral            designs, doctrine, training, leader development, and battle
         parts of the joint force, making them more               command.
         effective across the range of military operations        By the end of FY 2013, the Army completed all planned
         and enhancing their ability to contribute to joint,      modular conversions for its BCTs. By the end of FY 2012,
         interagency and multinational efforts.                   the ARNG successfully completed the full conversion of
The Army’s employment of modular formations and their             all 28 BCTs to a modular design. The modular conversion
reset following sustained combat operations helps manage          plan built 71 BCTs and approximately 229 support
the impact of high operational demand and mitigate the            brigades with enabling combat support and combat service
effects. As America’s dominant and decisive force, the            support structure in order to improve the balance of forces
Army remains committed to securing U.S. interests across          across all three components. Modular conversion also
                                                                  helps the Army meet the global force demand in a complex,




                                                                                                                                                                        Army General Fund and Working Capital Fund 17
the full range of operations—from aiding civil authorities
and citizens at home, to combating insurgents abroad.             competitive and unpredictable security environment.
While simultaneously conducting combat operations with            Providing Advanced Technologies
approximately 165,000 forward-stationed or deployed               The Army’s Science and Technology (S&T) mission

                                                                                                                                 Management’s Discussion and Analysis
Soldiers, the Army completed its most comprehensive               is to foster invention, innovation, and the use of new
transformation since World War II. In doing so, the               technologies to leverage future force capabilities while
Army met the challenges of a new security environment             exploiting opportunities to apply new technology
characterized by persistent conflict and adaptive enemies         capabilities to the current force. The Army depends on its
in complex environments. Army transformation improved             S&T program to research, develop, and demonstrate high
the capabilities of Soldiers to fight the wars we are in today,   pay-off solutions to hard problems faced by Soldiers in the
as well as the scenarios we are most likely to face in the        ever-changing and complex global environments across the
years ahead.                                                      spectrum of conflict. FY 2013 sequestration cuts had a
The Army’s assessment of modular force capabilities—              severe impact on Army Science and Technology, the seed of
including lessons learned from experiences with modular           Army modernization and innovation. Sequestration nearly
units—drove several modifications. These modifications            halved new basic research grants in FY 2013, and affected
reinforced the success of the modular concept and                 grants at more than 120 universities in 38 states.
18 FY 2013 United States Army Annual Financial Report


The S&T community, in concert with combat developers              is to have a completely integrated, secure, accessible,
in the Army Capabilities Integration Center and across            interoperable, and affordable network providing
the Army’s Training and Doctrine Command, places great            information to Soldiers and mission partners when
emphasis on demonstrating evolving advanced capabilities          they need it, in any environment—from garrison to the
rather than on maturing current, isolated, technologies.          tactical edge.
The foundation of this effort is a strong basic research
program. Investments in basic research are critical to            To achieve these capabilities, the Army is following an
acquiring new knowledge in areas that hold great potential        enterprise and regional approach. The investments made
to advance Army-wide operational capabilities. The                in FY 2013 focus on greater network capacity, regionalized
Army is also partnering with other services, combatant            security, and an enterprise cloud construct to deliver
commands, and agencies in the Joint Capability Technology         unified capabilities and Voice over Internet Protocol
Demonstration Program to rapidly transition mature                (VoIP) services. These efforts are consistent with the
technologies into solid warfighter capabilities.                  Joint Information Environment (JIE), cover 95% of the
                                                                  CONUS population, and represent the most significant
Science and technology investments support Army                   modernization of the CONUS network in DoD history.
modernization goals of developing and fielding affordable
equipment by fostering technology-based invention and             Developing the Network of 2020
innovation. As it continues diligently to identify and            The Army began significant and coordinated investments in
harvest technologies suitable for transforming the force, it is   FY 2013 in order to address network capability gaps, reduce
ever vigilant of potential and emerging threats.                  out-year sustainment costs, critically evaluate network
                                                                  strategic choices, and introduce Network Capability Sets as
The S&T community is sharpening research efforts to focus         the approach for capability insertion into the LandWarNet.
the core capabilities needed for the future and identify          However, software upgrades necessary to sustain aerial
promising leap-ahead technologies that will redefine              network operations will not be maintained due to
existing paradigms of understanding. Ultimately, the              sequestration. The Army software sustainment program
focus of its work is Soldiers by consistently seeking out         will be at high risk due to the reduction in funding for 135
new scientific avenues through which to increase their            systems that affect network security, systems operations,
capabilities and ensure their technological superiority—          integration and information assurance.
today, tomorrow, and beyond.
                                                                  Efficiencies and Cost Savings
LandWarNet Operational Capabilities and Focus                     A key goal for LandWarNet investments in FY 2013 was
After more than a decade of sustained combat operations,          to prepare for the uncertain financial environment during
the Army is transitioning to a CONUS-based expeditionary          the POM years. Through commodity buys, consolidation
force. With this new operating construct, the Army                activities, and proactive contract management, the Army
requires ‘always-on’ access to reliable, trusted information      took disciplined steps to reduce operating costs and create
as a requirement for mission success. Whether deploying           efficiencies to re-invest in LandWarNet modernization. In
to an austere theater of operations or responding to a            FY 2013 Army closed 139 data centers satisfying 109% of
humanitarian crisis, the Army relies heavily on a robust          the FY 2013 goal and 75% of the original overall goal to
infrastructure and services network that supports both            close 185 data centers by the end of FY 2015. Table 9 lists
warfighting and global business operations. The goal              specific cost reduction/avoidance successes.

Table 9 – Efficiencies and Cost Savings

Commodity Buys (enabled regionalization and divesture strategy)
Utilized bulk-purchase for MPLS routers and end-user building switches
Army Data Center Consolidation
Closed 139 data centers
Achieved 1,093 server efficiencies and 950 application efficiencies
Reduced total data center operating costs
Created energy efficiencies by lowering installation costs
Contract Management
Saved $20 million by turning off unused wireless devices
Negotiated Enterprise License Agreements (ELA) to save 24% across Army and Joint partners
Looking forward, these investments are the precursor to            to achieve $1.5 billion in annual IT savings beginning
meeting the Secretary of the Army’s directive (ref SA memo,        in FY 2015. Table 10 displays the savings that these
dated 09 Sep 2011, subject: IT Management Reform)                  investments are expected to yield.

Table 10 – Expected Savings
                                                                                                         Total Expected Savings
Initiative ($M)                                                              Total To-Date Realized             Thru FY 19
Enterprise Services                                                                           (124.9)                      (869.8)
Enterprise License/Service Agreements                                                           (48.5)                     (449.4)
Enterprise E-mail                                                                               (54.4)                     (357.2)
Elimination of Devices (Desktop/Laptop/Tablets/Mobile Devices/Air Card)                         (22.1)                       (63.2)
Capacity                                                                                        (29.3)                     (671.1)
Army Data Center Consolidation Plan (ADCCP)                                                     (29.3)                     (366.9)
End User Building Switches                                                                        0.0                      (304.2)
Security                                                                                          0.0                      (273.7)
Top Level Architecture (TLA) (-400 TLAs to 11 NIPR & 6 SIPR Regional TLAs)                        0.0                      (273.7)
Grand Total                                                                                   (154.2)                    (1,814.6)
Enterprise Services total does not tie due to rounding.


IT Management Reforms                                              acquisition. Additionally, the Army partnered with the Air
In addition to improving the physical network and creating         Force and Defense Information Systems Agency (DISA)
resource efficiencies, the Army also used FY 2013 to set in        on a joint request for information for Enterprise Content
place disciplined management practices for the network             Management and Collaboration (ECMC) and Unified
that are critical to achieving the LandWarNet 2020 and             Capabilities.
Beyond. These management reforms focused on three
critical areas:                                                    Developing Force Generation Platforms in Support of
                                                                   Army Force Generation
Governance: The Army established the Army Enterprise               Fiscal Year 2013 saw the completion or continuation of
Network Council (AENC) and senior leader forums to                 ongoing projects to improve the Army’s ability to deploy
facilitate discussion, oversee Army IT investments and             units from CONUS Power Projection Platforms. Due to
promulgate these investment decisions into the POM. In             financial constraints in the Army’s military construction
addition, the Army IT community partnered with the                 (MILCON) program, no new deployment out-load




                                                                                                                                                                             Army General Fund and Working Capital Fund 19
acquisition and financial communities to provide more              infrastructure projects were initiated in FY 2013. A key
transparency into IT procurements.                                 part of the Army’s Rapid Expeditionary Deployment
                                                                   Initiative (REDI) to improve the Nation’s power projection
Architecture: The Army published LandWarNet 2020                   capabilities is to increase capabilities at installations with

                                                                                                                                      Management’s Discussion and Analysis
and Beyond Enterprise Architecture, Regional Security              significant deployment requirements. Although recent
Stack Reference Architecture, and Identity and Access              deployments were deliberate, allowing deploying units
Management Reference Architecture in order to provide              to plan well in advance, the Army recognizes the need to
clear and enforceable design guidance to Assistant Secretary       project power on little-to-no notice. The goal of REDI is to
of the Army (Acquisition, Logistics and Technology).               improve the Army’s ability to deploy on little-to-no notice.
Re-designing the Army’s top-level security architecture—
combined with the Army’s efforts to consolidate                    Eleven MILCON projects to support REDI were ongoing
networks—improves the Army’s operations and security               in FY 2013. Five were completed. The first two completed
posture by moving disparate points of presence behind              projects improved out-loading at the seaport in Charleston
a secure perimeter and aligning the security architecture          Naval Weapons Station, South Carolina—the only military
across the Joint community.                                        general cargo seaport in the southeast region. This seaport
                                                                   is supporting current operations in the Middle East for
Agile IT Acquisition: The Army published guidance                  both deployment and redeployment. One project upgraded
to clarify the build-or-buy decision for IT capability             paving, lighting, and fencing at the port. This improved
20 FY 2013 United States Army Annual Financial Report


security for equipment and personnel during deployment             weather, the completion date for the project at Camp
and serves to protect equipment from damage. The second            Shelby moved from October to December 2013.
project expanded the pier and hardstand to adequately
position larger roll-on/roll-off and container ships. The          As MILCON funding is diminishing, more emphasis is
third project constructed a staging area complex at Fort           placed on maintenance. Four Sustainment, Restoration,
Bragg, North Carolina, to efficiently deploy airborne units        and Modernization (SRM) projects were initiated in
to meet global response force requirements. The Grow the           FY 2013. The first involved replacing 1,500 feet of
Army initiative funded this project. The next completed            Runway 15-33 at Fort Drum, New York. The next project
project was a ready building at Forbes Field, supporting           is repairing and restoring the failing taxiway at Pope Army
Fort Riley air deployments. The previous facilities did not        Airfield to support deployment at Fort Bragg, North
adequately handle the increase of Soldiers plus equipment          Carolina. The third project repairs failed asphalt taxiways
stationed there. The ready building will process Soldiers          and aprons at Fort Bliss, Texas. The last project consists of
and equipment air deploying and redeploying to/from                dredging Skiffe’s Creek at Fort Eustis, Virginia for the third
Fort Riley.                                                        port there.

The final completed project constructed a concrete pad             Implementing Base Realignment and Closure/
extension from the ammunition magazines to truck parking           Restationing Forces
areas at McAlester AAP, Oklahoma. This project allows              Base Realignment and Closure (BRAC) 2005 provided an
direct loading from forklift to large trucks, eliminating          unprecedented opportunity that improved Army training,
double-handling of equipment.                                      deployment, and supply capabilities. The primary goal
                                                                   of BRAC 2005 was to transform the Army so it could
The remaining 6 projects were initiated in FY 2012. The            properly support combatant commanders conducting
first of these projects is at McAlester AAP, Oklahoma to           two simultaneous conflicts and meet American security
upgrade the mainline rail line to accommodate modern               commitments around the world. BRAC 2005 was fully
heavy rail equipment. The mainline rail project is 60%             synchronized with other Army stationing initiatives,
complete with estimated completion date (ECD) of July              including global defense posture realignment, Grow the
2014. The original ECD of October 2013 shifted due to              Army, and Army modular forces. In addition, BRAC
sequestration and furloughs.                                       2005 is currently saving the Army more than $1 billion
                                                                   of net recurring savings per year. It did so by closing low
The next three projects are rail projects at Fort Benning,         military value, single purpose installations and leased
Georgia, Fort Sill, Oklahoma, and Camp Atterbury,                  facilities that were either no longer relevant or were less
Indiana. The Fort Benning rail improvements increase               effective in supporting a joint and expeditionary Army.
railcar storage capacity so that railcars do not require call-up   In partnership with other services, the Army used BRAC
from commercial railyards (some up to 100 miles away).             2005 to transform reserve component infrastructure to
This project is more than 60% complete with ECD of                 create more operational opportunities for joint training and
March 2014. The Fort Sill rail upgrade allows railcars to          deployment. This transformation created efficiencies in
be turned around on-post. Project award occurred in April          core Army business processes.
2012, with an ECD projected for July 2014. The third
rail project upgrades a railhead at Camp Atterbury from a          The Army continues to aggressively dispose of excess BRAC
40-railcar-per-day capability to the required 120-railcar-         2005 and legacy BRAC property. The BRAC 2005 six-year
per-day capability to allow this power generation platform         implementation period ended on September 15, 2011.
to adequately out-load units. The anticipated project              By that time, the Army had transferred an unprecedented
completion is May 2014.                                            44% of all excess BRAC 2005 acres. Excess property
                                                                   disposal efforts continue. The Army has currently
The final two projects construct Deployment Processing             conveyed 64%, or 44,800 of BRAC 2005 excess acres. In
Facilities (DPC) at Camp Atterbury, Indiana and Camp               total, the Army’s BRAC 2005 and legacy BRAC program
Shelby, Mississippi. These installations were designated as        conveyed 80% of all excess acreage. Progress continues
power generation platforms, and as such, deploy Soldiers           in an expensive and technically-challenging environment,
and equipment for mobilizing units. Work on both                   including a national real estate decline which reduced
projects is ongoing, and completion is anticipated in May          redevelopment opportunities for several years.
2014 for the Camp Atterbury DPC. Due to inclement
The Army fully supports OSD’s most recent request                In 2013, the Army initiated targeted business process
for an additional BRAC round in 2015. As the Army’s              reengineering “deep dives” to improve business processes
end-strength declines alongside available funding,               and identify improvement opportunities. These deep
millions of dollars will be wasted maintaining buildings at      dives removed unnecessary duplication and complexity
underutilized installations. The Army must immediately           from selected business processes and their supporting
address excess infrastructure and reduce costs at its            information technology systems. As an example, Army
installations. Without an additional BRAC round, the             senior leaders identified audit-readiness challenges and
Army will needlessly spend dollars maintaining surplus           unnecessary duplication within the Army’s travel orders
buildings that could be more appropriately spent on Army         writing process. After three months of effort, process
readiness and modernization.                                     teams solved the auditability challenges, recommended the
                                                                 reduction of several redundant systems, and eliminated
On January 25, 2013, the Secretary of Defense directed a         unnecessary process steps that will save the Army between
European capacity analysis to provide the basis for reducing     $80 million and $100 million over the next six years.
long-term expenses through footprint consolidation.
The effort will eliminate excess capacity while ensuring         The Army continued to leverage Lean Six Sigma continuous
the infrastructure properly supports the operational             process improvement to identify systemic constraints
requirements and strategic commitments. The Secretary            and choke points, non-value added steps, cross-domain
directed the Under Secretary of Defense for Acquisition,         conflicts, and other impediments to efficient process flow.
Technology, and Logistics to lead this initiative. The Army,     In FY 2012, the Army completed over 1,400 projects
the other services, and four Joint Working Groups, are           with $3.2 billion in benefits-conferred (savings and
identifying and analyzing opportunities for consolidation        cost avoidance). In FY 2013, the Army completed
of functions, including common support functions, such           1,500 projects, and the benefits-conferred were of a similar
as logistics, training, medical, and C4IT (Command,              magnitude. In addition to the fiscal savings, these efforts
Control, Communications, Computers, and Information              improved logistics throughput, program management,
Technology). The Services and Joint Working Groups are           better buying practices, headquarters restructuring, and
scheduled to produce and submit their recommendations            other functions that enhanced the effectiveness and
for footprint consolidation to OSD during the first two          efficiency of Army operations.
quarters of FY 2014.
                                                                 The Army’s portfolio management of Army business
Business Transformation Initiatives                              systems, its compliance orientation in support of DoD
Throughout FY 2013, the Army significantly improved the          business system certification requirements, and its
effectiveness of its business governance while accelerating      continued emphasis upon the Enterprise Resource Planning
business transformation. Army business transformation            (ERP) system federation generated many successes in




                                                                                                                                                                       Army General Fund and Working Capital Fund 21
efforts focused specifically on improving the business           FY 2013. The Army developed a plan to reduce by more
processes and information technology that drive the              than a third the total number of business systems in its
Institutional Army. The Army’s multi-faceted approach to         portfolio while simultaneously reducing total projected
business transformation enabled the Institutional Army to        costs by over 10% per year for the next six years. Army

                                                                                                                                Management’s Discussion and Analysis
perform its activities smarter, faster, and cheaper to provide   business enterprise architecture and business system
trained and ready forces at best value. Army business            certification processes closed numerous long-standing audit
transformation seeks to:                                         findings. Finally, the Army continued to focus its efforts
                                                                 on the evolution of its four core ERP systems throughout
     Enable cost-informed enterprise governance.               FY 2013. This focus enabled the Army to reduce program
     Improve the efficiency and effectiveness of business      risks associated with these complex ERPs and their
       operations.                                               associated business processes.

     Provide better alignment between business                 Having compliant, auditable systems with integrated and
       operations and operational forces.                        automated controls is critical to sustaining Army business
                                                                 processes and mitigating financial risks. The Army, with
     Improve business process alignment between the            the support of the Office of the Secretary of Defense and
       Army and DoD.                                             agencies across DoD, underwent a robust schedule of
                                                                 audits and tests of its business IT systems through FY 2013.
     Achieve audit-readiness.
22 FY 2013 United States Army Annual Financial Report


These audits assessed financial transactions, the existence   Additionally, GFEBS operates collaboratively with the
and completeness of assets, internal controls, and other      Global Combat Support System–Army (GCSS-Army),
critical functions required to meet audit readiness goals.    which is the Army’s logistics related financial ERP system.
The Army is on-track to achieve Statement of Budget           Although they are two separate ERP systems, they are
Availability by FY 2014 and audit-readiness by FY 2017.       fully integrated with GCSS-Army, employing a financial
                                                              execution module from GFEBS. GCSS-Army and
The General Fund Enterprise Business System (GFEBS)           GFEBS provide improved readiness, accountability, and
is the Army’s integrated financial management system for      financial auditability by integrating key capabilities such as
funds distribution, execution and reporting. GFEBS is         centralized funds distribution and retraction, consolidated
implemented across the Army (the Active Army, Army            status of funds and trial balance reporting, centralized
National Guard and the Army Reserve), and within the          reimbursable execution, and comprehensive managerial
CONUS and with the deployed Army world-wide. Since            cost accounting and reporting. In FY 2013, GCSS-A
the Army’s initial deployment in 2008, over 200 locations     converted approximately 1 million records and obligated
in 71 countries were added to GFEBS. GFEBS enabled            $126 million.
the Army to retire 31 systems by the end of FY 2013 and it
supports the plan to retire over 100 systems by 2017.         The Army continues to build on GFEBS capabilities and
                                                              successfully launched 14 new Business Intelligence (BI)
While GFEBS involves a new system, changes in business        Architecture/Infrastructure capabilities. Also, GFBES
processes and the integration of data, it also involves       implemented a direct disbursing solution with the
standardization and common business processes across the      Department of the Treasury, with close to $1.2 billion in
Army. GFEBS has achieved a 97% compliance rate with           invoices processed by the end of FY 2013. The disbursing
over 5,500 Federal Financial Management Improvement           solution enables the Army to maintain zero difference
Act of 1996 (FFMIA) and other statutory and regulatory        between GFEBS accounting and Fund Balance with
requirements, standards, attributes, and business rules –     Treasury, integrate payment offsets for unsettled debts, and
and the Army is well on its way to 100% compliance. In        accelerate vendor payments. By end of FY 2014, the goal is
FY 2013, the Army:                                            to have all of GFEBS-entitled CONUS payments directed
     Obligated $118.8 billion in GFEBS – an increase        to Treasury.
       of $46 billion over FY 2012
                                                              Conclusion
     Processed payroll of 215,000 civilian employees
       bi-weekly                                              The Army will continue to strike a balance between force
                                                              structure, readiness, and modernization, in a manner that is
     Completed over 53,000 end users into GFEBS             mindful of fiscal realities yet also provides the Nation with
The GFEBS Functional Training Team conducted                  capable landpower. Prudent and deliberate investments
117 trips/trainings/DCO sessions over the fiscal year         in Soldiers, Families and civilians – who have displayed
to assist commands in topics that ranged from: Tier II        remarkable mental and physical toughness and courage
Helpdesk, cProjects/Project System, Plant Maintenance,        over the past 12 years of conflict – will ensure they remain
and Real Property.                                            prepared and supported. The Army will maintain the most
                                                              versatile, agile, rapidly-deployable, and sustainable strategic
                                                              land force in the world, ready to answer the Nation’s call.
Management Assurances
Commanders and managers throughout the Department                Internal Controls
of the Army annually ensure the integrity of their reporting
systems, programs, and operations. This section focuses on       The Army operates a robust Manager’s internal Control
the Army’s system of internal controls to comply with such       program in compliance with OMB Circular A-123 to
laws as the Federal Financial Management Improvement             employ a comprehensive system of continuous evaluation
Act (FFMIA) of 1996 and the Federal Financial                    of internal controls. The Army’s program is fully
Manager’s Financial Integrity Act of 1982 (FMFIA). The           integrated with functional program control assessments.
requirements promote the production of reliable, timely,         In strict adherence to the Office of the Under Secretary
and accurate financial information through efficient and         of Defense (Comptroller) guidance, the Army reports
effective internal controls. By having effective internal        a level of assurance over its internal controls in three
controls, the Army is able to improve efficiency, operating      distinct areas: Internal Controls over Non-Financial
effectiveness and enhance public confidence in Army              operations (ICONO), Internal Controls over Financial
stewardship of public resources.                                 Reporting (ICOFR), and Internal Controls over Financial
                                                                 Systems (ICOFS). See the complete Army Statement of
                                                                 Assurance at http://asafm.army.mil/offices/FO/IntControl.
Chief Financial Officer Compliance                               aspx?OfficeCode=1500
The passage of the CFO Act of 1990 required major federal
agencies to prepare audited financial statements for the first   Internal Controls Over Financial
time. In 1994 the Government Management Reform Act               Reporting (ICOFR)
(GMRA) extended the CFO Act to include agency-wide
reports from all major executive branch agencies and their       As stated in the Army’s Annual Statement of Assurance




                                                                                                                                                                     Army General Fund and Working Capital Fund 23
components. The Government Performance and Results               dated August 26, 2013, “Although we continue to make
Act (GPRA) of 1993 required agencies to systematically           progress in improving internal controls over financial
report on plans and performance. The FFMIA of 1996,              reporting for the General and Working Capital Funds, I
along with the Clinger-Cohen Act of 1996 (also known             provide no assurance that as of June 30, 2013, the Army’s

                                                                                                                              Management’s Discussion and Analysis
as the Information Technology Management Reform                  internal controls for financial reporting were operating
Act), required that agencies install integrated systems that     effectively. This assessment is based on the auditor’s
comply with federal accounting standards and produce             inability to render an audit opinion; numerous uncorrected
auditable financial statements in accordance with Office of      actions identified in our financial improvement plan;
Management and Budget (OMB) Circular A-136, Financial            14 weaknesses associated with the General Fund and
Reporting Requirements. Additionally, agencies must              11 weaknesses associated with the Working Capital Fund.”
follow generally accepted accounting principles (GAAP)
formulated by the Federal Accounting Standards Advisory
Board (FASAB).
24 FY 2013 United States Army Annual Financial Report



                                        Analysis of Financial Statements
                                        As discussed in the accompanying independent auditor’s reports, long-standing
                                        financial management challenges prevent the Army from producing auditable
                                        financial statements for the Army General Fund (Army GF) and the Army
                                        Working Capital Fund (Army WCF). The Army, however, continues to work
                                        with the DoD to develop sustainable business practices and enhanced internal
                                        controls to improve financial management processes and produce quality
                                        financial management information. These processes must be supported by
                                        compliant business systems and an effective set of management controls.

                                        Army GF Financial Results and Balance Sheet
                                        The Army GF Balance Sheet includes total assets of $324.6 billion. Two asset
                                        categories—Fund Balance with Treasury and General Property, Plant and
                                        Equipment (GPP&E)—comprise 88 percent of total assets, with values of
                                        $132.4 billion and $154.0 billion, respectively.

                                        Liabilities primarily consist of $26.1 billion in Environmental Liabilities and
                                        $3.7 billion in Accounts Payable.

                                        Figure 3 – Composition of GF Assets and Liabilities
                                                         2%                                             3%

                                                 10%

                                                                                            33%
                                                                        41%
                                                                                                                       56%

                                              47%
                                                                                                  8%



                                              Army General Fund Assets                        Army General Fund Liabilities
                                                    Fund Balance with Treasury                     Environmental Liabilities
                                                    General Property, Plant and Equipment          Accounts Payable
                                                    Inventory and Related Property                 Other Liabilities
                                                    Remaining Assets                               Remaining Liabilities
Table 11 - Select GF Assets and Liabilities

(Amounts in billions)
                                                                                                                   Percentage of
Asset Type                                     FY 2012                 FY 2013               Change               FY 2013 Assets
Fund Balance with Treasury                            $153.3                 $132.4                ($20.9)                      41%
General Property, Plant and Equipment                  160.0                  154.0                   (6.0)                     47%
Inventory and Related Property                          30.8                   32.8                    2.2                      10%
Remaining Assets                                         8.0                    5.5                   (2.8)                      2%
Total Assets                                          $352.1                 $324.6                ($27.5)                     100%
Amounts may not sum due to rounding.
(Amounts in billions)
                                                                                                            Percentage of
Liability Type                                FY 2012             FY 2013              Change             FY 2013 Liabilities
Environmental Liabilities                               $30.4               $26.1               ($4.3)                  56%
Accounts Payable                                          4.9                 3.7                 (1.2)                  8%
Other Liabilities                                        15.4                15.2                 (0.2)                 33%
Remaining Liabilities                                     1.5                 1.4                 (0.1)                  3%
Total Liabilities                                       $52.2               $46.4               ($5.8)                 100%
Amounts may not sum due to rounding.


                                       Army WCF Financial Results
                                       The Army WCF activities maintain the Army’s combat readiness by providing
                                       supplies, equipment, and ordnance to prepare, sustain, and reset our forces
                                       in the most efficient and cost-effective manner possible. In performing this
                                       mission, WCF activities are obligated to control and minimize costs. Financial
                                       performance is measured through cash management, net operating results
                                       (NOR), and accumulated operating results (AOR). Operational performance is
                                       measured by carryover, stock availability, and production.

                                       Cash Management
                                       The current balance of funds with the U.S. Treasury equals the beginning
                                       of the fiscal year amount plus the cumulative fiscal-year-to-date amounts of
                                       collections, appropriations and transfers-in, minus the cumulative fiscal year-to-
                                       date amounts of disbursements, withdrawals and transfers-out. The Army WCF
                                       is required to maintain a positive cash balance to prevent an Anti-deficiency
                                       Act (ADA) violation under 31 USC, § 1517(a), Prohibited Obligations and
                                       Expenditures. Unlike appropriated funds, the Army WCF cash balance is not
                                       equal to outstanding obligations; however, the cash-on-hand at Treasury must be
                                       sufficient to pay bills when due.

                                       Sufficient cash levels should be maintained to support seven-to-ten days




                                                                                                                                                                       Army General Fund and Working Capital Fund 25
                                       of operational disbursements, plus adequate cash to meet six months of
                                       capital investment program disbursements, plus the amount of any positive
                                       accumulated operating results that is to be returned to customers.

                                                                                                                                Management’s Discussion and Analysis
                                       The cash balance is primarily affected by cash generated from operations;
                                       however, the balance is also affected by appropriations, transfers, and
                                       withdrawals. Maintaining a proper cash balance depends on setting rates
                                       to recover full costs—including prior year losses—accurately projecting
                                       workload and meeting established operational goals. The Army WCF ended
                                       FY 2013 with a cash balance of $1,399.9 million, within the 7- to 10- days
                                       balance requirement.

                                       Table 12 shows an overall growth in cash primarily from operations and
                                       direct appropriations offset by transfers out. The Army WCF received direct
                                       appropriations for war reserve materiel.
26 FY 2013 United States Army Annual Financial Report


Table 12 – Army WCF Cash


(Amounts in millions)                                         FY 2011                   FY 2012                     FY 2013
Beginning Cash                                                       $1,808.1                  $1,900.5                    $1,334.5
Collections                                                          13,742.5                  12,897.2                     9,425.7
Disbursements                                                        13,004.8                  12,478.2                     9,616.9
    Net Disbursements and Collections                                   737.8                     419.0                      (191.2)
Appropriations Received                                                  54.6                     155.2                       102.6
Transfers In                                                              0.0                       0.0                       154.0
Transfers Out                                                           700.0                   1,140.2                         0.0
    Net Cash Transactions                                                92.4                    (566.0)                       65.4
Ending Cash Balance                                                  $1,900.5                  $1,334.5                    $1,399.9
Amounts may not sum due to rounding.


                                                  Net Operating Results and Accumulated Operating
                                                  Results
                                                  The NOR represents the difference between revenues and costs within a fiscal
                                                  year. The AOR represents the aggregate of all recoverable net earnings, including
                                                  prior-year adjustments, since inception of the Army WCF. The goal of the Army
                                                  WCF is to establish rates that will bring the AOR to zero in the budget year. An
                                                  activity group’s financial performance is measured by comparing actual results to
                                                  the budget’s NOR and AOR.

Table 13 - Net and Accumulated Operating Results by Activity Group

(Amounts in millions)
Operating Results                                            FY 2011                   FY 2012                      FY 2013
Industrial Operations NOR                                                $113.8                    $42.0                      ($349.5)
Industrial Operations AOR*                                                639.4                    681.5                        331.9

Supply Management NOR                                                     (103.1)                 (207.5)                      (142.6)
Supply Management AOR                                                      231.9                    24.4                       (118.2)
*Includes prior-period AOR adjustments. Amounts may not sum due to rounding.



                                                  Carryover
                                                  Carryover is the dollar amount of orders accepted from customers that have
                                                  not been completed by the end of a fiscal year. It is a normal part of doing
                                                  business. These orders enable the industrial workforce to maintain continuity in
                                                  production operations.

                                                  Stock Availability
                                                  Stock availability measures the percentage of requisitions filled within established
                                                  timeframes. The DOD and Army have set a target 85% stock availability. For
                                                  FY 2012 and FY 2013, the Stock Availability target was above the 85% goal.
Table 14 - Army WCF Carryover

(Amounts in millions)                                   FY 2011                      FY 2012                         FY 2013
New Orders*                                                       $7,262.5                     $5,466.5                    $5,127.2
Allowable Carryover                                                4,684.2                      4,763.8                    4,296.8**
Calculated Carryover                                               4,321.2                      4,573.3                    4,491.3**
*Includes prior year adjustments
** Preliminary




Figure 4 - Stock Availability (percentage)


   90




   85




   80                                                                                                Stock Availability
                                                                                                     Target


   75
             Q1          Q2        Q3   Q4         Q1        Q2          Q3     Q4         Q1             Q2        Q3         Q4


                           FY 2011                            FY 2012                                      FY 2013
                                             Production
                                             Although the Industrial Operations Activity Group is comprised of 13 activities,
                                             the preponderance of workload is performed at the five hard-iron maintenance
                                             depots. As a result of the higher operating tempo, rough desert environments,
                                             and limited depot maintenance available in theater, operational fleets age
                                             at a far greater pace than expected. To counter this, the Army established a
                                             reset program designed to reverse the effects of combat stress on equipment




                                                                                                                                                                              Army General Fund and Working Capital Fund 27
                                             and to prepare equipment for future missions. Industrial operations received
                                             $1,888 million in reset orders, representing approximately 3% of FY 2013
                                             new orders.

                                                                                                                                       Management’s Discussion and Analysis
                                             The Army’s depots and their efforts to partner with industry are critical to the
                                             entire reset effort. These repair programs must continue through the end of the
                                             current conflict and for at least three additional years to reconstitute equipment
                                             completely. Due to Sequestration which caused a reduction in personnel
                                             and funding, the Industrial Operations Activity Group depot production was
                                             negatively impacted, as illustrated in Table 15.

                                             The aircraft decrease shown in the FY 2013 column of Table 15 is due to
                                             decrease in funding for the Recap program. The increase to the annual
                                             production throughout of High Mobility Multipurpose Wheeled Vehicle
                                             (HMMWV) from FY 2012 to FY 2013 is due to the HMMWV Recap program.
                                             Track shoe production levels increased from FY 2012 to FY 2013 due to an
                                             increase in requirements for the M88.
28 FY 2013 United States Army Annual Financial Report


Table 15 - Annual Production Throughput1

                                                           Pre-War                 FY 2011             FY 2012                FY 2013
Aircraft                                                                4                    101                  106                    69
Helicopter Engines                                                  <200                     760                  832                   614
Bradleys                                                              144                    349                  317                   252
HMMWVs                                                              <100                   2,090                2,480                 5,491
Firefinder Radars                                                      <1                     31                   37                    37
Track Shoes                                                       120,000                 39,161               25,136                28,273
Note 1: Throughput is the number of weapon systems completed for any given year.


                                                    Army WCF Balance Sheet
                                                    The Army WCF balance sheet shows assets exceeding $23.1 billion, primarily
                                                    in Inventory and Fund Balance with Treasury. Liabilities consist of Accounts
                                                    Payable and Other Liabilities, which include payroll, benefits, accrued annual
                                                    leave, and workman’s compensation.

                                                    Figure 5 - Army WCF Assets and Liabilities
                                                                       2%

                                                                  8%                                        18%
                                                           6%

                                                                                                                                   48%



                                                                                                         34%
                                                                            84%


                                                       Army Working Capital Fund Assets              Army Working Capital Fund Liabilities
                                                             Inventory                                   Accounts Payable
                                                             Fund Balance with Treasury                  Other Liabilities
                                                             General Property, Plant and Equipment       Military Retirement and Other
                                                             Remaining Assets                            Federal Employee Benefits

Table 16 - Army WCF Assets and Liabilities

(Amounts in millions)
                                                                                                                            Percentage of
Asset Type                                                  FY 2012                 FY 2013             Change             FY 2013 Assets
Inventory                                                       $22,096.5              $19,396.9           ($2,699.6)                    84%
Fund Balance with Treasury                                        1,334.5                1,399.9                65.4                      6%
General Property, Plant and Equipment                             1,748.8                1,772.1                23.3                      8%
Remaining Assets                                                    626.7                  534.2               (92.5)                      2%
Total Assets                                                    $25,806.5              $23,103.1           ($2,703.4)                    100%
Amounts may not sum due to rounding.
(Amounts in millions)
                                                                                        Percentage of
Liability Type                          FY 2012        FY 2013        Change          FY 2013 Liabilities
Accounts Payable                              $502.0         $671.4        $169.4                    48%
Other Liabilities                              528.1          473.8          (54.3)                  34%
Military Retirement and Other Federal
Employee Benefits                              215.1          248.1          33.0                   18%
Total Liabilities                           $1,245.2       $1,393.3        $148.1                  100%
Amounts may not sum due to rounding.




                                                                                                                                                   Army General Fund and Working Capital Fund 29
                                                                                                            Management’s Discussion and Analysis
30 FY 2013 United States Army Annual Financial Report




Required Supplementary Stewardship Information and
Required Supplementary Information
Stewardship information relates to expenditures involving                       property deferred maintenance relates to maintenance
a substantial investment by the Army for the benefit of                         needed on Army facilities that has not been funded. At
the Nation. When made, these expenditures are treated as                        the end of FY 2013, the Army reported approximately
expenses in the financial statements. Since these expenses                      $36.7 billion in deferred real property maintenance
are intended to provide long-term benefits to the public,                       on facilities with a replacement value of approximately
they are reported as supplemental information in the                            $250.5 billion. Real property deferred maintenance totals
financial statements1. There are four reported areas for                        approximately 15 percent of estimated replacement value
stewardship information: (1) nonfederal physical property;                      of the facilities requiring maintenance. The 10 major
(2) investments in research and development (R&D);                              categories of military equipment deferred maintenance
(3) deferred maintenance; and (4) heritage assets and                           totaled approximately $684.1 million at the end of
stewardship land.                                                               FY 2013. Electronic and communication systems
                                                                                equipment represented the largest identifiable category
Investment in nonfederal physical property is an expense                        of deferred equipment maintenance at approximately
incurred by the Army for the purchase, construction, or                         $110.7 million.
major renovation of physical property owned by state and
local governments. An example of this type of investment                        Heritage assets are comprised of property, plant and
is funding provided to the ARNG for assistance in the                           equipment (PP&E) of historical, natural, cultural,
construction of an ARNG facility on state land. Since the                       educational, or artistic significance. Stewardship land is
facility is constructed on state land, it is the property of                    land other than that acquired for, or in connection with,
the state; therefore, the Army cannot report it as an asset.                    general PP&E. The Army’s heritage assets are comprised
However, since the funds were used to acquire a mission-                        of buildings and structures, archeological sites, museums,
related state facility, the outlay is tracked as an investment                  and museum collection items. Detailed information
in nonfederal physical property.                                                concerning most stewardship information may be found
                                                                                in the Required Supplementary Stewardship Information
Investments in R&D are based on R&D outlays                                     (RSSI) and the Required Supplementary Information (RSI)
(expenditures). Outlays are used because current Army                           sections of this report. Heritage assets and stewardship
accounting systems are unable to capture and summarize                          land are no longer reported in the RSI; they are now
costs in accordance with federal accounting standards. The                      required to be reported in a note to the statements.2
R&D programs are classified as basic research, applied                          Additional information on heritage assets and stewardship
research, and development.                                                      land may be found in Note 10 of the Army General Fund
                                                                                (GF) statements.
Stewardship information is also comprised of real property
and military equipment deferred maintenance. Real


1  Federal Accounting Standards Advisory Board. Statement of Federal Financial Accounting Concepts and Standards (June 30, 2010). Statement of Federal
Financial Accounting Standards 8: Supplementary Stewardship Reporting, page 762. See http://www.fasab.gov/pdffiles/codification_report2010.pdf.

2  ibid. Statement of Federal Financial Accounting Standards 29: Heritage Assets and Stewardship Land, pages 9 and 13 and Technical Release 9: Implementation
Guide for Statement of Federal Financial Accounting Standards 29: Heritage Assets and Stewardship Land, page 46. SFFAS 29 found at http://www.fasab.gov/
pdffiles/sffas_29.pdf on October 23, 2011. Technical Release 9 can be found at http://fasab.gov/aapc/technicl.html.
Limitations
Limitations of the Financial Statements
The financial statements have been prepared to report the financial position and results of operations
for the entity, pursuant to the requirements of Title 31, United States Code, Section 3515(b).

While the statements have been prepared from the books and records of the entity, in accordance with
the formats prescribed by the Office of Management and Budget, the statements are in addition to the




                                                                                                         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
financial reports used to monitor and control budgetary resources which are prepared from the same
books and records.

The statements should be read with the realization that they are for a component of the United States
Government, a sovereign entity.




                                                                                                                                                                                                  Army General Fund 31
32 FY 2013 United States Army Annual Financial Report


                                                   Department of Defense - Army General Fund

                                              CONSOLIDATED BALANCE SHEET
As of September 30, 2013 and 2012
(Amounts in thousands)                                                                 2013 Consolidated           2012 Consolidated
ASSETS (Note 2)
    Intragovernmental:
       Fund Balance with Treasury (Note 3)                                         $             132,379,727   $             153,268,450
       Investments (Note 4)                                                                            2,615                       2,181
       Accounts Receivable (Note 5)                                                                  526,397                     353,387
       Other Assets (Note 6)                                                                         539,378                     434,558
       Total Intragovernmental Assets                                              $             133,448,117   $             154,058,576

   Cash and Other Monetary Assets (Note 7)                                                         1,209,884                   1,526,989
   Accounts Receivable,Net (Note 5)                                                                1,495,775                   1,355,935
   Inventory and Related Property,Net (Note 9)                                                    32,813,748                  30,824,075
   General Property, Plant and Equipment,Net (Note 10)                                           153,935,635                 159,971,256
   Other Assets (Note 6)                                                                           1,692,455                   4,339,865
TOTAL ASSETS                                                                       $             324,595,614   $             352,076,696

LIABILITIES (Note 11)
   Intragovernmental:
      Accounts Payable (Note 12)                                                   $               2,052,773   $               1,766,165
      Debt (Note 13)
      Other Liabilities (Note 15 & 16)                                                             2,114,564                   1,870,937
      Total Intragovernmental Liabilities                                          $               4,167,337   $               3,637,102

   Accounts Payable (Note 12)                                                                      1,613,368                   3,176,752
   Military Retirement and Other Federal Employment Benefits (Note 17)                             1,410,213                   1,406,105
   Environmental and Disposal Liabilities (Note 14)                                               26,080,685                  30,417,209
   Loan Guarantee Liability (Note 8)                                                                                               1,018
   Other Liabilities (Note 15 and Note 16)                                                        13,062,874                  13,532,892
TOTAL LIABILITIES                                                                  $              46,334,477   $              52,171,078

COMMITMENTS AND CONTINGENCIES (NOTE 16)
NET POSITION
   Unexpended Appropriations - Other Funds                                         $             124,090,262   $             147,252,854
   Cumulative Results of Operations - Dedicated Collections                                           34,709                      36,212
   Cumulative Results of Operations - Other Funds                                                154,136,166                 152,616,552
TOTAL NET POSITION                                                                 $             278,261,137   $             299,905,618

TOTAL LIABILITIES AND NET POSITION                                                 $             324,595,614   $             352,076,696

The accompanying notes are an integral part of these financial statements
                                                   Department of Defense - Army General Fund

                                       CONSOLIDATED STATEMENT OF NET COST
For the years ended September 30, 2013 and 2012
(Amounts in thousands)                                                                  2013 Consolidated            2012 Consolidated
Program Costs
    Gross Costs                                                                     $             200,230,122    $             217,038,973
       Military Personnel                                                                          64,528,337                   67,560,245
       Operations, Readiness & Support                                                             83,057,878                   78,701,761
       Procurement                                                                                  7,088,442                   31,216,620
       Research, Development, Test & Evaluation                                                    12,245,961                   13,993,569
       Family Housing & Military Construction                                                      33,309,504                   25,566,778
    (Less: Earned Revenue)                                                          $             (14,584,858)   $              (9,875,759)
    Net Cost before Losses/(Gains) from Actuarial Assumption Changes for Military
       Retirement Benefits                                                          $             185,645,264    $             207,163,214
    Net Program Costs Including Assumption Changes                                  $             185,645,264    $             207,163,214
Net Cost of Operations                                                              $             185,645,264    $             207,163,214

The accompanying notes are an integral part of these financial statements




                                                                                                                                              Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                                                                                                                                                                                                       Army General Fund 33
34 FY 2013 United States Army Annual Financial Report


                                                   Department of Defense - Army General Fund

                          CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2013 and 2012
                                                           2013                    2013                   2013                  2013
(Amounts in thousands)                                Earmarked Funds        All Other Funds          Eliminations           Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                    $            36,212    $    152,616,551     $                      $       152,652,763
Beginning balances, as adjusted                       $            36,212         152,616,551                        0           152,652,763
Budgetary Financing Sources:
    Appropriations used                                                           191,907,410                                    191,907,410
    Nonexchange revenue                                             1,108              (2,713)                                        (1,605)
    Donations and forfeitures of cash and cash
       equivalents                                                 27,981                                                             27,981
Other Budgetary Financing Sources                                                                                                          0
    Other Financing Sources:                                                                                                               0
    Donations and forfeitures of property                                                  459                                           459
    Transfers-in/out without reimbursement (+/-)                                     1,745,469                                     1,745,469
    Imputed financing from costs absorbed
       by others                                                                    1,053,939                                      1,053,939
    Other (+/-)                                                    (5,802)         (7,564,477)                                    (7,570,279)
Total Financing Sources                               $            23,287         187,140,087                        0           187,163,374
Net Cost of Operations (+/-)                                       24,078         185,621,184                                    185,645,262
Net Change                                            $              (791)          1,518,903                        0             1,518,112
Cumulative Results of Operations                      $            35,421         154,135,454                        0           154,170,875

UNEXPENDED APPROPRIATIONS
Beginning Balances                                    $                           147,252,857     $                      $       147,252,857
Beginning balances, as adjusted                       $                                                                          147,252,857
Budgetary Financing Sources:
    Appropriations received                                                        180,755,817                                   180,755,817
    Appropriations transferred-in/out                                                1,433,641                                     1,433,641
    Other adjustments (rescissions, etc)                                           (13,444,642)                                  (13,444,642)
    Appropriations used                                                           (191,907,410)                                 (191,907,410)
Total Budgetary Financing Sources                     $                 0          (23,162,594)                      0           (23,162,594)
Unexpended Appropriations                                                          124,090,263                                   124,090,263
Net Position                                          $            35,421          278,225,717                       0           278,261,138

The accompanying notes are an integral part of these financial statements
                                                   Department of Defense - Army General Fund

                          CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2013 and 2012
                                                      2012 Earmarked               2012                   2012                  2012
(Amounts in thousands)                                     Funds             All Other Funds          Eliminations           Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                    $            49,586    $    163,088,282     $                  0   $       163,137,868
Beginning balances, as adjusted                       $            49,586         163,088,282                        0           163,137,868
Budgetary Financing Sources:
    Appropriations used                                                 0         212,276,952                        0           212,276,952
    Nonexchange revenue                                               (45)               (461)                       0                  (506)
    Donations and forfeitures of cash and cash
       equivalents                                                  4,046                    0                       0                 4,046
    Transfers-in/out without reimbursement                              0            1,140,194                       0             1,140,194
Other Budgetary Financing Sources
    Other Financing Sources:
    Donations and forfeitures of property                               0               35,024                       0                35,024
    Transfers-in/out without reimbursement (+/-)                        0            4,357,168                       0             4,357,168
    Imputed financing from costs absorbed
       by others                                                        0           1,043,601                        0             1,043,601
    Other (+/-)                                                     8,778         (22,187,147)                       0           (22,178,369)
Total Financing Sources                               $            12,779         196,665,331                        0           196,678,110
Net Cost of Operations (+/-)                                       26,153         207,137,061                        0           207,163,214
Net Change                                            $           (13,374)        (10,471,730)                       0           (10,485,104)
Cumulative Results of Operations                      $            36,212         152,616,552                        0           152,652,764

UNEXPENDED APPROPRIATIONS




                                                                                                                                                Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Beginning Balances                                    $                 0    $    162,359,241     $                  0   $       162,359,241
Beginning balances, as adjusted                       $                 0         162,359,241                        0           162,359,241
Budgetary Financing Sources:
    Appropriations received                                             0          204,348,667                       0           204,348,667
    Appropriations transferred-in/out                                   0            1,191,111                       0             1,191,111
    Other adjustments (rescissions, etc)                                0           (8,369,210)                      0            (8,369,210)
    Appropriations used                                                 0         (212,276,952)                      0          (212,276,952)
Total Budgetary Financing Sources                     $                 0          (15,106,384)                      0           (15,106,384)
Unexpended Appropriations                                               0          147,252,857                       0           147,252,857
Net Position                                          $            36,212          299,869,409                       0           299,905,621

The accompanying notes are an integral part of these financial statements

                                                                                                                                                                                                                                         Army General Fund 35
36 FY 2013 United States Army Annual Financial Report


                                                    Department of Defense - Army General Fund

                               COMBINED STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2013 and 2012
(Amounts in thousands)                                                                   2013 Combined               2012 Combined
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance brought forward, October 1                                      $             44,329,476     $            51,648,890
Adjustment to unobligated balance, brought forward, October 1 (+ or -)
    Unobligated balance brought forward, October 1, as adjusted,                    $             44,329,476     $            51,648,890
Recoveries of prior year unpaid obligations                                                       33,762,781                  34,550,292
Other changes in unobligated balance (+ or -)                                                     (3,982,723)                 (3,235,952)
Unobligated balance from prior year budget authority, net                                         74,109,534                  82,963,230
Appropriations (discretionary and mandatory)                                                     172,738,800                 201,552,120
Spending Authority from offsetting collections (discretionary and mandatory)                      19,629,622                  27,636,567
Total Budgetary Resources                                                           $            266,477,956     $           312,151,917

Obligations Incurred                                                                $            227,840,553     $           267,822,441
Unobligated balance, end of year
    Apportioned                                                                                   24,854,531                  32,503,140
    Exempt from Apportionment                                                                        215,105                       9,845
    Unapportioned                                                                                 13,567,767                  11,816,491
Total unobligated balance, end of year                                              $             38,637,403     $            44,329,476
Total Budgetary Resources                                                           $            266,477,956     $           312,151,917

Change in Obligated Balance:
    Unpaid obligations:
Unpaid obligations, brought forward, October 1                                      $            138,729,843     $           142,457,252
Obligations incurred                                                                             227,840,553                 267,822,441
Outlays (gross) (-)                                                                             (212,096,944)               (236,999,558)
Recoveries of prior year unpaid obligations (-)                                                  (33,762,781)                (34,550,292)
Unpaid Obligations, end of year                                                                  120,710,671                 138,729,843
Uncollected payments:
Uncollected payments from Federal sources, brought forward, October 1 (-)                        (29,376,421)                (27,993,577)
Change in uncollected payments from Federal Sources (+ or -)                                       2,233,801                  (1,382,844)
Uncollected payments from Federal sources, end of year (-)                                       (27,142,620)                (29,376,421)
Obligated balance, start of year (+ or -)                                                        109,353,422                 114,463,675
Obligated Balance, End of Year (+ or -)                                             $             93,568,051     $           109,353,422

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                               $            192,368,422     $           229,188,687
Actual offsetting collections (discretionary and mandatory) (-)                                  (21,867,868)                (26,253,722)
Change in uncollected customer payments from Federal Sources (discretionary and
    mandatory) (+ or -)                                                                             2,233,801                 (1,382,844)
Budget Authority, net (discretionary and mandatory)                                 $            172,734,355     $           201,552,121
Outlays, gross (discretionary and mandatory)                                                     212,096,944                 236,999,558
Actual offsetting collections (discretionary and mandatory) (-)                                  (21,867,868)                (26,253,722)
Outlays, net (discretionary and mandatory)                                                       190,229,076                 210,745,836
Distributed offsetting receipts (-)                                                                  (595,602)                   828,530
Agency Outlays, net (discretionary and mandatory)                                   $            189,633,474     $           211,574,366

The accompanying notes are an integral part of these financial statements
                                                      Department of Defense - Army General Fund

                                COMBINED STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2013 and 2012
(Amounts in thousands)                                                                     2013 Combined                 2012 Combined
NONBUDGETARY RESOURCES
Unobligated balance brought forward, October 1                                        $                    1,017     $                     275
    Unobligated balance brought forward, October 1, as adjusted                       $                    1,017     $                     275
Recoveries of prior year unpaid obligations                                                                    1                              0
Other changes in unobligated balance (+ or -)                                                                  0                            (1)
Unobligated balance from prior year budget authority, net                             $                    1,018                           274
Spending Authority from offsetting collections (discretionary and mandatory)                                  93                           743
Total Budgetary Resources                                                             $                    1,111     $                   1,017

Status of Budgetary Resources:
Obligations Incurred                                                                  $                    1,111     $                       0
Unobligated balance, end of year
    Apportioned                                                                                                0                           975
    Unapportioned                                                                                              0                            42
Total unobligated balance, end of year                                                $                        0     $                   1,017
Total Budgetary Resources                                                             $                    1,111     $                   1,017

Change in Obligated Balance:
    Unpaid obligations:
Obligations incurred                                                                                        1,111                            0
Outlays (gross) (-)                                                                                        (1,111)                           0
Uncollected payments:
Uncollected payments from Federal sources, brought forward, October 1 (-)             $                         0    $                    (120)




                                                                                                                                                  Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Change in uncollected payments from Federal Sources (+ or -)                                                    0                          120
Obligated Balance, Start of Year (+ or -)                                             $                         0                         (120)

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                                 $                        93    $                     743
Actual offsetting collections (discretionary and mandatory) (-)                                              (93)                         (863)
Change in uncollected customer payments from Federal                                                            0                          120
Sources (discretionary and mandatory) (+ or -)
Budget Authority, net (discretionary and mandatory)                                   $                        0     $                       0
Outlays, gross (discretionary and mandatory)                                          $                    1,111                             0
Actual offsetting collections (discretionary and mandatory) (-)                                              (93)                         (863)
Outlays, net (discretionary and mandatory)                                            $                    1,018                          (863)
Agency Outlays, net (discretionary and mandatory)                                     $                    1,018     $                    (863)

The accompanying notes are an integral part of these financial statements
                                                                                                                                                                                                                                           Army General Fund 37
38 FY 2013 United States Army Annual Financial Report



Note 1.	 Significant Accounting Policies
1.A.	 Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Army
General Fund, as required by the Chief Financial Officers Act of 1990, expanded by the Government Management Reform
Act of 1994, and other appropriate legislation. The financial statements have been prepared from the books and records
of the Army General Fund in accordance with, and to the extent possible, U.S. generally accepted accounting principles
(USGAAP) promulgated by the Federal Accounting Standards Advisory Board; the Office of Management and Budget
(OMB) Circular No. A-136, Financial Reporting Requirements; and the Department of Defense (DoD) Financial Management
Regulation (FMR). The accompanying financial statements account for all resources for which the Army General Fund is
responsible unless otherwise noted.

Information relative to classified assets, programs, and operations is excluded from the statements or otherwise aggregated
and reported in such a manner that it is not discernible.

The Army General Fund is unable to fully implement all elements of USGAAP and the OMB Circular No. A-136, due
to limitations of financial and nonfinancial management processes and systems that support the financial statements.
The Army General Fund derives reported values and information for major asset and liability categories largely from
nonfinancial systems, such as inventory and logistics systems. These systems were designed to support reporting
requirements for maintaining accountability over assets and reporting the status of federal appropriations rather than
preparing financial statements in accordance with USGAAP.

The Army General Fund has implemented process and system improvements addressing these limitations to include
deployment of the General Fund Enterprise Business System (GFEBS). GFEBS is a web-based Enterprise Resource
Planning system that will help to improve financial performance, standardize business processes, ensure that capability
exists to meet future financial management needs, and provide management with relevant, reliable, and timely financial
information. GFEBS will also allow the sharing of standardized and real-time financial, cost, and accounting data across
the Army. This system contains the following six major business process areas: funds management; financials; cost
management; reimbursement management; spending chain; and property, plant, and equipment.

The Army General Fund currently has 14 auditor-identified financial statement material weaknesses: (1) Financial
Management Systems; (2) Accounting Adjustments; (3) Abnormal Account Balances; (4) Intragovernmental Eliminations;
(5) Fund Balance with Treasury; (6) Accounts Receivable; (7) Inventory and Related Property; (8) General Property, Plant,
and Equipment; (9) Accounts Payable; (10) Environmental Liabilities; (11) Statement of Net Cost; (12) Reconciliation of
Net Cost of Operations to Budget; (13) Statement of Budgetary Resources; and (14) Contingency Payment Audit Trails.

1.B.	 Mission of the Reporting Entity
The Army mission is to support the national security and defense strategies by providing well-trained, well-led, and
well-equipped forces to the combatant commanders. This mission encompasses the intent of the Congress, as defined
in Title 10 of the U.S. Code, to preserve the peace and security and provide for the defense of the U.S., its territories,
commonwealths, and possessions, and any areas occupied by the U.S.; support national policies; implement national
objectives; and overcome any nations responsible for aggressive acts that imperil the peace and security of the U.S.

This mission has been unchanged for the 238-year life of the Army, but the environment and nature of conflict have
undergone many changes over that same time, especially with the overseas contingency operations. These contingency
operations have required that the Army simultaneously transform the way that it fights, trains, and equips its soldiers. This
transformation is progressing rapidly, but it must be taken to its full conclusion if the Army is to continue to meet the
nation’s domestic and international security obligations today and into the future.
1.C.	 Appropriations and Funds
The Army General Fund receives appropriations and funds as general, trust, special, and deposit funds. The Army General
Fund uses these appropriations and funds to execute its missions and subsequently report on resource usage.

General funds are used for financial transactions funded by congressional appropriations, including personnel, operation
and maintenance, research and development, procurement, and military construction.

These appropriations also include supplemental funds enacted by the American Recovery and Reinvestment Act (Recovery Act)
of 2009. Details relating to Recovery Act appropriated funds are available on-line at
https://www.defense.gov/recovery.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific
purposes or programs in accordance with the terms of the donor, trust agreement, or statute. Special fund accounts are
used to record government receipts reserved for a specific purpose. Certain trust and special funds may be designated
as funds from dedicated collections. Funds from dedicated collections are financed by specifically identified revenues;
required by statute to be used for designated activities, benefits or purposes; and remain available over time. The Army
General Fund is required to separately account for and report on the receipt, use, and retention of revenues and other
financing sources for funds from dedicated collections.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity.
They are not funds of the Army General Fund and, as such, are not available for the Army General Fund’s operations.
The Army General Fund is acting as an agent or a custodian for funds awaiting distribution.

The Army General Fund is a party to allocation transfers with other federal agencies as a transferring (parent) entity or
receiving (child) entity. An allocation transfer is an entity’s legal delegation of authority to obligate budget authority and
outlay funds on its behalf. Generally, all financial activity related to allocation transfers (e.g., budget authority, obligations,




                                                                                                                                      Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
and outlays) is reported in the financial statements of the parent entity. Exceptions to this general rule apply to specific
funds for which OMB has directed that all activity be reported in the financial statements of the child entity. These
exceptions include U.S. Treasury-Managed Trust Funds, Executive Office of the President (EOP), and all other funds
specifically designated by OMB.

The Army General Fund receives allocation transfers from the Federal Highway Administration and the U.S. Forestry
Service. The Army General Fund receives allocation transfers for the Security Assistance programs that meet the OMB
exception for EOP funds. The activities for these programs are reported separately from the DoD financial statements
based on an agreement with OMB.

As a parent, the Army General Fund allocates funds to the Department of Agriculture and the Department of
Transportation for the active Army and Army National Guard.

1.D.	Basis of Accounting
The Army General Fund financial management systems are unable to meet all full accrual accounting requirements. Many
of the Army General Fund financial and nonfinancial feeder systems and processes were designed and implemented before
                                                                                                                                                                                                                               Army General Fund 39




the issuance of USGAAP. These systems were not designed to collect and record financial information on the full accrual
accounting basis as required by USGAAP. Most of the Army General Fund financial and nonfinancial legacy systems were
designed to record information on a budgetary basis.

The Army General Fund financial statements and supporting trial balances are compiled from the underlying financial
data and trial balances of the Army General Fund sub-entities. The underlying data is largely derived from budgetary
transactions (obligations, disbursements, and collections), from nonfinancial feeder systems, and accruals made for major
items such as payroll expenses, accounts payable, and environmental liabilities. Some of the sub-entity level trial balances
40 FY 2013 United States Army Annual Financial Report


may reflect known abnormal balances resulting largely from business and system processes. At the consolidated Army
General Fund level, these abnormal balances may not be evident. Disclosures of abnormal balances are made in the
applicable footnotes, but only to the extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into
compliance with USGAAP. One such action is the current revision of accounting systems to record transactions based
on the United States Standard General Ledger (USSGL). The Army has implemented GFEBS which contains a chart
of accounts based on the USSGL. The Army has also created additional subsidiary accounts for GFEBS that track its
General Fund financial activities at a detailed level. This new system will fully or partially subsume 107 existing systems
currently supporting Army General Fund accounting and financial management, thereby greatly reducing the total number
of general ledgers maintained by the Army. However, until all of the Army General Fund’s financial and nonfinancial
feeder systems and processes are updated to collect and report financial information as required by USGAAP, some of the
Army General Fund’s financial data will be derived from budgetary transactions, data from nonfinancial feeder systems,
and accruals.

1.E.	 Revenues and Other Financing Sources
The Army General Fund receives congressional appropriations as financing sources for general funds that expire annually,
on a multi-year basis, or do not expire. When authorized by legislation, these appropriations are supplemented by revenues
generated by sales of goods or services. The Army General Fund recognizes revenue as a result of costs incurred for goods
and services provided to other federal agencies and the public. Full-cost pricing is the Army General Fund’s standard
policy for services provided as required by OMB Circular A-25, User Charges. The Army General Fund recognizes revenue
when earned within the constraints of its current system capabilities. In some instances, revenue is recognized when bills
are issued.

The Army General Fund does not include nonmonetary support provided by U.S. allies for common defense and mutual
security in amounts reported in the Statement of Net Cost and Note 21, Reconciliation of Net Cost of Operations to Budget.
The U.S. has cost-sharing agreements with countries having a mutual or reciprocal defense agreement, where U.S. troops
are stationed, or where the U.S. Fleet is in a port.

1.F.	 Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. Now
that GFEBS has been deployed, this system will be the source for the Army General Fund to derive a substantial portion of
its reported data. However, the Army General Fund is still developing the full functionality of GFEBS and must continue
to rely on some current financial and nonfinancial feeder systems that were not designed to collect and record financial
information on the full accrual accounting basis. Estimates are made for major items such as payroll expenses, accounts
payable, environmental liabilities, and unbilled revenue. In the case of operating materiel and supplies (OM&S), operating
expenses are generally recognized when the items are purchased. Efforts are underway to transition to the consumption
method for recognizing OM&S expenses. Under the consumption method, OM&S would be expensed when consumed.
Due to system limitations, in some instances expenditures for capital and other long-term assets may be recognized as
operating expenses. The Army General Fund continues to implement process and system improvements to address
these limitations.

1.G.	Accounting for Intragovernmental Activities
Accounting standards require an entity to eliminate intraentity activity and balances from consolidated financial statements
in order to prevent an overstatement for business with itself. However, the Army General Fund cannot accurately identify
intragovernmental transactions by customer because the Army General Fund’s systems do not track buyer and seller data at
the transaction level. Generally, seller entities within the DoD provide summary seller-side balances for revenue, accounts
receivable, and unearned revenue to the buyer-side internal accounting offices. In most cases, the buyer-side records are
adjusted to agree with DoD seller-side balances and are then eliminated. The DoD is implementing replacement systems
and a standard financial information structure (SFIS) that will incorporate the necessary elements that will enable DoD to
correctly report, reconcile, and eliminate intragovernmental balances. During 4th Quarter, FY 2012, the Army deployed
GFEBS, a replacement system, which has incorporated the SFIS chart of accounts.

The Treasury Financial Manual, Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial Report of
the United States Government,” provides guidance for reporting and reconciling intragovernmental balances. While the
Army General Fund is unable to fully reconcile intragovernmental transactions with all federal agencies, the Army General
Fund is able to reconcile balances pertaining to investments in federal securities, Federal Employees’ Compensation Act
transactions with the Department of Labor, and benefit program transactions with the Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the federal government is not included. The federal
government does not apportion debt and its related costs to federal agencies. The DoD financial statements do not report
any public debt, interest or source of public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the
U.S. Treasury does not allocate such costs to DoD.

1.H. 	 Transactions with Foreign Governments and International Organizations
Each year, the Army General Fund sells defense articles and services to foreign governments and international organizations
under the provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell
defense articles and services to foreign countries and international organizations generally at no profit or loss to the federal
government. Payment in U.S. dollars is required in advance.

1.I.	 Funds with the U.S. Treasury
The Army General Fund maintains its monetary resources in U.S. Treasury accounts. The disbursing offices of the Defense




                                                                                                                                   Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Finance and Accounting Service (DFAS), Military Departments, and U.S. Army Corps of Engineers (USACE) and the
financial service centers of the Department of State process the majority of the worldwide cash collections, disbursements,
and adjustments of the Army General Fund. Each disbursing station prepares monthly reports to the U.S. Treasury on
checks issued, electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable
Fund Balance with Treasury (FBWT) account. On a monthly basis, the Army General Fund adjusts its FBWT to agree
with the U.S. Treasury accounts.

1.J.	 Cash and Other Monetary Assets
Cash is the total of cash resources under the control of DoD, which includes coin, paper currency, negotiable instruments,
and amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total U.S. dollar
equivalent of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts. Foreign
currency is valued using the U.S. Treasury prevailing rate of exchange.
                                                                                                                                                                                                                            Army General Fund 41




The majority of cash and all foreign currency is classified as “nonentity” and is restricted. Amounts reported consist
primarily of cash and foreign currency held by disbursing officers to carry out their paying, collecting, and foreign currency
accommodation exchange missions.

The Army General Fund conducts a significant portion of operations overseas. The Congress established a special account
to handle the gains and losses from foreign currency transactions for five general fund appropriations: (1) operation
and maintenance; (2) military personnel; (3) military construction; (4) family housing operation and maintenance; and
42 FY 2013 United States Army Annual Financial Report


(5) family housing construction. The gains and losses are calculated as the variance between the exchange rate current at
the date of payment and a budget rate established at the beginning of each fiscal year. Foreign currency fluctuations related
to other appropriations require adjustments to the original obligation amount at the time of payment. The Army General
Fund does not separately identify currency fluctuation transactions.

1.K.	Accounts Receivable
Accounts receivable from other federal entities or the public include accounts receivable, claims receivable, and refunds
receivable. Generally, allowances for uncollectible accounts due from the public are based upon analysis of collection
experience by age category. The DoD does not recognize an allowance for estimated uncollectible amounts from other
federal agencies. Claims against other federal agencies are to be resolved between the agencies in accordance with dispute
resolution procedures defined in the Intragovernmental Business Rules published in the Treasury Financial Manual.

1.L.	 Direct Loans and Loan Guarantees
The Army General Fund operates the Armament Retooling and Manufacturing Support Initiative under Title 10, United
States Code 4551-4555. This loan guarantee program was designed to encourage commercial use of inactive government
facilities. The revenue generated from property rental offsets the cost of maintaining these facilities.

The Federal Credit Reform Act of 1990 governs all amended direct loan obligations and loan guarantee commitments
made after FY 1991.

1.M.	Inventories and Related Property
The Army General Fund manages only military- or government-specific materiel under normal conditions. Materiel
is a unique term that relates to military force management and includes items such as ships, tanks, self-propelled
weapons, aircraft and related spares, repair parts, and support equipment. Items commonly used in and available from
the commercial sector are not managed in Army General Fund materiel management activities. Operational cycles are
irregular and the military risks associated with stock-out positions have no commercial parallel. The Army General Fund
holds materiel based on military need and support for contingencies.

Related property includes OM&S and stockpile materiel. The OM&S, including ammunition not held for sale, are
valued at standard purchase price. The Army General Fund uses both the consumption method and the purchase
method of accounting for OM&S. Items that are centrally managed and stored, such as ammunition and engines, are
generally recorded using the consumption method and are reported on the Balance Sheet as OM&S. When current
systems cannot fully support the consumption method, the Army General Fund uses the purchase method. Under this
method, materiel and supplies are expensed when purchased. During FY 2012 and FY 2013, the Army General Fund
expensed significant amounts using the purchase method because the systems could not support the consumption method
or management deemed that the item was in the hands of the end user. This is a material weakness for the DoD; long-
term system corrections are in process. Once the proper systems are in place, ammunition will be accounted for under
the consumption method of accounting. All remaining OM&S items will be accounted for under the purchase method
because management has deemed these items are in the hands of the end-users.

The Army General Fund determined that the recurring high-dollar value of OM&S in need of repair is material to the
financial statements and requires a separate reporting category. Many high-dollar items, such as aircraft engines, are
categorized as OM&S rather than military equipment.

The Army General Fund recognizes excess, obsolete, and unserviceable OM&S at a net realizable value of $0 pending
development of an effective means of valuing such materiel.
1.N.	Investments in U.S. Treasury Securities
The Army General Fund reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts.
Premiums or discounts are amortized over the term of the investments using the effective interest rate method or another
method obtaining similar results. The intent of the Army General Fund is to hold investments to maturity, unless they are
needed to finance claims or otherwise sustain operations. Consequently, a provision is not made for unrealized gains or
losses on these securities.

The Army General Fund invests in nonmarketable market-based U.S. Treasury securities which are issued to federal
agencies by the U.S. Treasury Bureau of the Public Debt. They are not traded on any securities exchange but mirror the
prices of particular U.S. Treasury securities traded in the government securities market.

1.O.	General Property, Plant and Equipment
The Army General Fund uses the estimated historical cost for valuing military equipment. The DoD identified the
universe of military equipment by accumulating information relating to program funding and associated military
equipment, equipment useful life, program acquisitions, and disposals to establish a baseline. The military equipment
baseline is updated using expenditure, acquisition, and disposal information.

The DoD general property, plant and equipment (PP&E) capitalization threshold is $100 thousand except for real
property, which is $20 thousand. The Army General Fund has fully implemented this threshold for real property.

General PP&E assets are capitalized at historical acquisition cost when an asset has a useful life of two or more years and
when the acquisition cost equals or exceeds the DoD capitalization threshold. The DoD also requires the capitalization of
improvements to existing general PP&E assets if the improvements equal or exceed the capitalization threshold and extend
the useful life or increase the size, efficiency, or capacity of the asset. The DoD depreciates all general PP&E, other than
land, on a straight-line basis.




                                                                                                                                 Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
When it is in the best interest of the government, the Army General Fund provides government property to contractors
to complete contract work. The Army General Fund either owns or leases such property, or it is purchased directly by the
contractor for the government based on contract terms. When the value of contractor-procured general PP&E meets or
exceeds the DoD capitalization threshold, federal accounting standards require that it be reported on the Army General
Fund Balance Sheet.

The DoD developed policy and a reporting process for contractors with government-furnished equipment that provides
appropriate general PP&E information for financial statement reporting. The DoD requires Army General Fund to
maintain, in its property systems, information on all property furnished to contractors. These actions are structured to
capture and report the information necessary for compliance with federal accounting standards. The Army General Fund
has not fully implemented this policy primarily due to system limitations.

1.P.	 Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, the DoD policy is to record advances
and prepayments in accordance with USGAAP. As such, payments made in advance of the receipt of goods and services
                                                                                                                                                                                                                          Army General Fund 43




should be reported as an asset on the Balance Sheet. The DoD policy is to expense and/or properly classify assets when
the related goods and services are received. The Army General Fund has not fully implemented the policy for advances
identified in contract feeder systems primarily due to system limitations.

1.Q	 Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital or operating leases.
Capital leases are leases that transfer substantially all the benefits and risks of ownership to the Army General Fund. If, at
its inception, a lease meets one or more of the following four criteria, the Army General Fund should classify that lease as
44 FY 2013 United States Army Annual Financial Report


a capital lease: (a) The lease transfers ownership of the property to the Army General Fund by the end of the lease term.
(b) The lease contains an option to purchase the leased property at a bargain price. (c) The lease term is equal to or greater
than 75 percent of the estimated economic life of the leased property. (d) The present value of rental and other minimum
lease payments, excluding that portion of the payments representing executory cost, equals or exceeds 90 percent of the fair
value of the leased property.

The last two criteria are not applicable when the beginning of the lease term falls within the last 25% of the total estimated
economic life of the leased property. Multi-year service contracts and multi-year purchase contracts for expendable
commodities are not capital leases. The discount rate for the present value calculation is either the lessor’s implicit interest
rate or the government’s incremental borrowing rate at the inception of the lease. If a lease does not meet at least one of
the above criteria it should be classified as an operating lease.

Payments for operating leases are expensed over the lease term as they become payable. Office space and leases entered
into by the Army General Fund are the largest component of operating leases and are based on costs gathered from
existing leases, General Services Administration bills, and interservice support agreements. Future-year projections use the
Consumer Price Index.

1.R.	 Other Assets
Other assets include those amounts, such as military and civil service employee pay advances, travel advances, and certain
contract financing payments that are not reported elsewhere on the Army General Fund’s Balance Sheet.

The Army General Fund conducts business with commercial contractors under two primary types of contracts: fixed
price and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can
cause, the Army General Fund may provide financing payments. Contract financing payments are defined in the Federal
Acquisition Regulations, Part 32, as authorized disbursements to a contractor before acceptance of supplies or services by the
government. Contract financing payments clauses are incorporated in the contract terms and conditions and may include
advance payments, performance-based payments, commercial advances and interim payments, progress payments based
on cost, and interim payments under certain cost-reimbursement contracts. It is DoD policy to record certain contract
financing payments as other assets. The Army General Fund has not fully implemented this policy primarily due to system
limitations.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments,
or progress payments based on a percentage or stage of completion. The Defense Federal Acquisition Regulation Supplement
authorizes progress payments based on a percentage or a stage of completion only for construction of real property,
shipbuilding and ship conversion, alteration, or repair. Progress payments based on a percentage or stage of completion are
reported as Construction-in-Progress.

1.S.	 Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12, Recognition
of Contingent Liabilities Arising from Litigation, defines a contingency as an existing condition, situation, or set of
circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more
future events occur or fail to occur. The Army General Fund recognizes contingent liabilities when past events or exchange
transactions occur, a future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is
at least a reasonable possibility of incurring a loss or additional losses. The risk of loss and resultant contingent liabilities
for the Army General Fund arises from pending or threatened litigation or claims and assessments due to events such as
aircraft, ship, and vehicle accidents; medical malpractice; property or environmental damages; and contract disputes.
Other liabilities also arise as a result of anticipated disposal costs for Army General Fund assets. Consistent with SFFAS
No. 6, Accounting for Property, Plant and Equipment, recognition of an anticipated environmental disposal liability begins
when the asset is placed into service. Based on DoD policy, which is consistent with SFFAS No. 5, nonenvironmental
disposal liabilities are recognized when management decides to dispose of an asset. The DoD recognizes nonenvironmental
disposal liabilities for military equipment nuclear-powered assets when placed into service. These amounts are not easily
distinguishable and are developed in conjunction with environmental disposal costs.

1.T.	 Accrued Leave
The Army General Fund reports liabilities for military leave and accrued compensatory and annual leave for civilians.
Sick leave for civilians is expensed as taken. The liabilities are based on current pay rates.

1.U.	Net Position
Net position consists of unexpended appropriations and cumulative results of operations.

Unexpended appropriations represent the amounts of budget authority that are unobligated and have not been rescinded
or withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have
not been incurred.

Cumulative results of operations represent the net difference between expenses and losses and financing sources (including
appropriations, revenue, and gains) since inception. The cumulative results of operations also include donations and
transfers in and out of assets that were not reimbursed.

1.V. 	Treaties for Use of Foreign Bases
The DoD has the use of the land, buildings, and other overseas facilities that are obtained through various international
treaties and agreements negotiated by the Department of State. The Army General Fund purchases capital assets overseas




                                                                                                                               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
with appropriated funds; however, the host country retains title to the land and capital improvements. Treaty terms
generally allow the Army General Fund continued use of these properties until the treaties expire. In the event treaties
or other agreements are terminated, use of the foreign bases is prohibited and losses are recorded for the value of any
nonretrievable capital assets. The settlement due to the U.S. or host nation is negotiated and takes into account the value
of capital investments and may be offset by the cost of environmental cleanup.

1.W.	Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at
the transaction level to specific obligations, payables, or receivables in the source systems and those reported by the U.S.
Treasury. Supported disbursements and collections are evidenced by corroborating documentation that would generally
support the summary level adjustments made to accounts payable and receivable. Unsupported disbursements and
collections do not have supporting documentation for the transactions and most likely would not meet audit scrutiny.
However, both supported and unsupported adjustments may have been made to the Army General Fund accounts payable
and receivable trial balances before validating the underlying transactions that established the accounts payable and
receivable. As a result, misstatements of reported accounts payable and receivable are likely present in the Army General
Fund financial statements.
                                                                                                                                                                                                                        Army General Fund 45




Due to noted material weakness in current accounting and financial feeder systems, the DoD is generally unable to
determine whether undistributed disbursements and collections should be applied to federal or nonfederal accounts
payable and receivable at the time accounting reports are prepared. Accordingly, the DoD policy is to allocate supported
undistributed disbursements and collections between federal and nonfederal categories based on the percentage of
distributed federal and nonfederal accounts payable and accounts receivable. Both supported and unsupported
undistributed disbursements and collections are then applied to reduce accounts payable and receivable accordingly.
46 FY 2013 United States Army Annual Financial Report



1.X.	 Fiduciary Activities
Fiduciary cash and other assets are not assets of the Army General Fund and are not recognized on the balance sheet.
Fiduciary activities are reported on the financial statement note schedules.

1.Y.	 Military Retirement and Other Federal Employment Benefits
Not applicable.

1.Z.	 Significant Events
During FY 2013, the Department implemented Statement of Federal Financial Accounting Standards (SFFAS) No.
43, Funds from Dedicated Collections: Amending Statement of Federal Financial Accounting Standards 27, Identifying and
Reporting Earmarked Funds. SFFAS 43 provides clarifying language to be used by reporting entities when classifying
funds and provides additional reporting alternatives for financial statement presentation and note disclosure. Refer
to Note 19, Disclosures on Statement of Changes in Net Position, and Note 23, Funds from Dedicated Collections, for
additional information.

Note 2.	 Nonentity Assets
As of September 30
(Amounts in thousands)                                                            2013                       2012
1.	 Intragovernmental Assets
    A.	Fund Balance with Treasury                                        $                 65,412   $                  63,951
    B.	Accounts Receivable                                                                      0                           0
    C.	Other Assets                                                                             0                           0
    D.	Total Intragovernmental Assets                                    $                 65,412   $                  63,951
2.	 Nonfederal Assets
    A.	Cash and Other Monetary Assets                                    $              1,209,864   $              1,526,881
    B.	Accounts Receivable                                                                145,969                    135,533
    C.	Other Assets                                                                             0                          0
    D.	Total Nonfederal Assets                                           $              1,355,833   $              1,662,414
3.	 Total Nonentity Assets                                               $              1,421,245   $              1,726,365
4.	 Total Entity Assets                                                  $            323,174,369   $            350,350,331
5.	 Total Assets                                                         $            324,595,614   $            352,076,696

Information Related to Nonentity Assets

Nonentity assets are assets for which the Army General Fund maintains stewardship accountability and reporting
responsibility. These assets are not available for the Army General Fund’s normal operations.

Nonentity Fund Balance with Treasury consists of deposit funds for humanitarian relief and reconstruction, seized Iraqi
cash, and Development Fund Iraq (DFI). Deposit funds are generally used to record amounts held temporarily until paid
to the appropriate government or public entity. Humanitarian relief and reconstruction deposit funds are funds held for
expenditures on behalf of the Iraqi people. Seized Iraqi cash is former Iraqi regime monies confiscated by coalition forces.
The DFI consists of proceeds from Iraqi oil sales, repatriated assets from the United States and other nations, and deposits
from unencumbered oil-for-food program funds. The deposit funds for seized Iraqi cash and DFI consist of residual
amounts only.

Nonentity Cash and Other Monetary Assets consist of cash held by disbursing officers to carry out their paying and
collecting missions. These amounts also include foreign currency accommodation exchange primarily consisting of the
burden-sharing for the Republic of Korea. Foreign currency is valued using the U.S. Treasury prevailing rate of exchange.
Nonentity Nonfederal Accounts Receivable are primarily from canceled year appropriations and interest receivables. These
receivables will be returned to the U.S. Treasury as miscellaneous receipts once collected.

Note 3.	Fund Balance with Treasury
As of September 30
(Amounts in thousands)                                                            2013                       2012
1.	 Fund Balances
    A.	Appropriated Funds                                                $            132,280,693    $           153,169,353
    B.	Revolving Funds                                                                          0                      1,018
    C.	Trust Funds                                                                          4,640                      3,923
    D.	Special Funds                                                                       28,981                     30,205
    E.	 Other Fund Types                                                                   65,413                     63,951
    F.	 Total Fund Balances                                              $            132,379,727    $           153,268,450
2.	 Fund Balances Per Treasury Versus Agency
    A.	Fund Balance per Treasury                                         $            136,434,864    $           157,077,553
    B.	Fund Balance per Army                                                          132,379,727                153,268,450
3.	 Reconciling Amount                                                   $              4,055,137    $             3,809,103

Information Related to Fund Balance with Treasury

Other Fund Types

Other Fund Types consist of deposit funds, clearing accounts, unavailable receipt accounts, seized Iraqi cash, and the
Development Fund Iraq (DFI). Deposit funds are generally used to record amounts held temporarily until paid to the
appropriate government or public entity. Clearing accounts are used as a temporary suspense account until later paid by or
refunded into another account or when the government acts as a banker or agent for others. Unavailable receipt accounts
are credited with all collections not earmarked by law for a specific purpose. These collections include taxes, customs




                                                                                                                                Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
duties, and miscellaneous receipts. Seized Iraqi cash is former Iraqi regime monies confiscated by coalition forces. The
DFI consists of proceeds from Iraqi oil sales, repatriated assets from the United States and other nations, and deposits from
unencumbered oil-for-food program funds.

Reconciling Amount

The U.S. Treasury reported $4.1 billion more in Fund Balance with Treasury (FBWT) than reported by the Army General
Fund. This difference includes $4.0 billion in canceling year authority, $19.6 million in net differences because of the
U.S. Treasury treatment of allocation transfers and $17.1 million in fiduciary activity. The reconciling difference due
to allocation transfers results from instances in which Army allocates to or is allocated funds from various governmental
entities. In cases in which Army is allocated funds, the allocated amount is excluded from the Fund Balance per Army, but
included in the Fund Balance per Treasury.

Status of Fund Balance with Treasury
As of September 30
(Amounts in thousands)                                                            2013                       2012
                                                                                                                                                                                                                         Army General Fund 47




1.	 Unobligated Balance
    A.	Available                                                         $             25,069,636    $            32,513,961
    B.	Unavailable                                                                     13,575,081                 11,816,532
2.	 Obligated Balance not yet Disbursed                                  $            120,710,671    $           138,729,843
3.	 Nonbudgetary FBWT                                                    $                169,643    $              (413,330)
4.	 NonFBWT Budgetary Accounts                                           $            (27,145,304)   $           (29,378,556)
5.	Total                                                                 $            132,379,727    $           153,268,450
48 FY 2013 United States Army Annual Financial Report


Status of Fund Balance with Treasury Definitions

The Status of FBWT reflects the budgetary resources to support the FBWT and is a reconciliation between budgetary
and proprietary accounts. It primarily consists of unobligated and obligated balances. The balances reflect the budgetary
authority remaining for disbursement against current and future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority
that has not been set aside to cover outstanding obligations. The unavailable balance consists primarily of funds
temporarily precluded from obligation by law which are invested in U.S. Treasury securities. Certain unobligated balances
are restricted for future use and are not apportioned for current use. Unobligated balances for trust fund accounts are
restricted for use by the public law that established the funds.

Obligated Balance Not Yet Disbursed represents funds that have been obligated for goods and services not received, and
those received but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds, unavailable receipt
accounts, clearing accounts, nonentity FBWT and Iraqi custodial accounts.

NonFBWT Budgetary Accounts reduce the Status of FBWT. Examples include borrowing authority, investment accounts,
and accounts receivable as well as unfilled orders without advance from customers.

Note 4.	Investments and Related Interest
As of September 30                                                                                2013
                                                                      Amortization   Amortized (Premium) /
(Amounts in thousands)                                 Cost             Method             Discount               Investments, Net       Market Value Disclosure
1.	 Intragovernmental Securities
    A.	Nonmarketable, Market-Based
       1.	 Military Retirement Fund                $             0                   $                   0    $                      0    $                   0
       2.	 Medicare Eligible Retiree Health Care
           Fund                                                   0                                      0                        0                          0
       3.	 US Army Corps of Engineers                             0                                      0                        0                          0
       4.	 Other Funds                                        2,699                                    (86)                   2,613                      2,685
       5.	 Total Nonmarketable, Market-Based       $          2,699                  $                 (86)   $               2,613       $              2,685
    B.	Accrued Interest                                           2                                                               2                          2
    C.	Total Intragovernmental Securities          $          2,701                  $                 (86)   $               2,615       $              2,687
2.	 Other Investments
    A.	Total Other Investments                     $             0                   $                   0    $                      0                     N/A

As of September 30                                                                                2012
                                                                      Amortization   Amortized (Premium) /
(Amounts in thousands)                                 Cost             Method             Discount               Investments, Net       Market Value Disclosure
1.	 Intragovernmental Securities
    A.	Nonmarketable, Market-Based
       1.	 Military Retirement Fund                $             0                   $                   0    $                      0    $                   0
       2.	 Medicare Eligible Retiree Health Care
           Fund                                                   0                                      0                        0                          0
       3.	 US Army Corps of Engineers                             0                                      0                        0                          0
       4.	 Other Funds                                        2,219                                    (49)                   2,170                      2,174
       5.	 Total Nonmarketable, Market-Based       $          2,219                  $                 (49)   $               2,170       $              2,174
    B.	Accrued Interest                                          11                                                              11                         11
    C.	Total Intragovernmental Securities          $          2,230                  $                 (49)   $               2,181       $              2,185
2.	 Other Investments
    A.	Total Other Investments                     $             0                   $                   0    $                      0                     N/A
Information Related to Investments and Related Interest

Other Funds include the Army Gift Fund. The Army Gift Fund was established to control and account for the
disbursement and use of monies donated to the Army General Fund along with the interest received from the investment
of such donations. The related earnings are allocated to the appropriate Army General Fund activities to be used in
accordance with the directions of the donor. These funds are recorded as Nonmarketable Market-Based U.S. Treasury
Securities, which are not traded on any securities exchange, but mirror the prices of marketable securities with similar
terms.

The U.S. Treasury securities are issued to the Army Gift Fund as evidence of its receipts and are an asset to the Army
General Fund and a liability to the U.S. Treasury. The federal government does not set aside assets to pay future benefits
or other expenditures associated with funds from dedicated collections. The cash generated from the Army Gift Fund
is deposited in the U.S. Treasury, which uses the cash for general government purposes. Since the Army General Fund
and the U.S. Treasury are both part of the federal government, these assets and liabilities offset each other from the
standpoint of the federal government as a whole. For this reason, they do not represent an asset or a liability in the U.S.
governmentwide financial statements.

The U.S. Treasury securities provide the Army General Fund with authority to draw upon the U.S. Treasury to make
future benefit payments or other expenditures. When the Army General Fund requires redemption of these securities to
make expenditures, the government will finance them from accumulated cash balances, by raising taxes or other receipts,
borrowing from the public, repaying less debt, or curtailing other expenditures. The federal government uses the same
method to finance all other expenditures.

On June 1, 2012, the Federal Accounting Standards Advisory Board issued Statement of Federal Financial Accounting
Standards (SFFAS) 43, Funds from Dedicated Collections, which amended SFFAS 27, Identifying and Reporting Earmarked
Funds. SFFAS 43, which is effective for periods after September 30, 2012, changed the term “earmarked funds” to “funds
from dedicated collections” and clarified the criteria for their classification. In 1st Quarter, FY 2013, the Army General




                                                                                                                                            Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Fund classified the source of funds for the Army Gift Fund as funds from dedicated collections and began reporting the
Army Gift Fund financial operations in accordance with SFFAS 43.

Note 5.	Accounts Receivable
As of September 30                                                                            2013
                                                                                      Allowance For Estimated
(Amounts in thousands)                                          Gross Amount Due           Uncollectibles        Accounts Receivable, Net
1.	 Intragovernmental Receivables                           $               526,397                       N/A    $               526,397
2.	 Nonfederal Receivables (From the Public)                              1,682,237                  (186,462)                 1,495,775
3.	 Total Accounts Receivable                               $             2,208,634   $              (186,462)   $             2,022,172

As of September 30                                                                            2012
                                                                                      Allowance For Estimated
(Amounts in thousands)                                          Gross Amount Due           Uncollectibles        Accounts Receivable, Net
1.	 Intragovernmental Receivables                           $               353,387                       N/A    $               353,387
2.	 Nonfederal Receivables (From the Public)                              1,486,254                  (130,319)                 1,355,935
3.	 Total Accounts Receivable                               $             1,839,641   $              (130,319)   $             1,709,322
                                                                                                                                                                                                                                     Army General Fund 49




Information Related to Accounts Receivable

Accounts Receivable represent the Army General Fund’s claim for payment from other entities. The Army General Fund
only recognizes an allowance for uncollectible amounts from the public. Claims with other federal agencies are resolved in
accordance with the Intragovernmental Business Rules.
50 FY 2013 United States Army Annual Financial Report



Note 6.	Other Assets
As of September 30
(Amounts in thousands)                                                             2013                       2012
1.	 Intragovernmental Other Assets
    A.	Advances and Prepayments                                           $                539,378    $                 434,558
    B.	Other Assets                                                                              0                            0
    C.	Total Intragovernmental Other Assets                               $                539,378    $                 434,558
2.	 Nonfederal Other Assets
    A.	Outstanding Contract Financing Payments                                              774,158                   5,803,153
    B.	Advances and Prepayments                                                             918,297                  (1,463,288)
    C.	Other Assets (With the Public)                                                             0                           0
    D.	Total Nonfederal Other Assets                                      $               1,692,455   $               4,339,865
3.	 Total Other Assets                                                    $               2,231,833   $               4,774,423

Information Related to Other Assets

Contract terms and conditions for certain types of contract financing payments convey certain rights to the government
that protect the contract work from state or local taxation, liens or attachment by the contractor’s creditors, transfer of
property, or disposition in bankruptcy. However, these rights should not be misconstrued to mean that ownership of
the contractor’s work has transferred to the federal government. The federal government does not have the right to take
the work, except as provided in contract clauses related to termination or acceptance, and the Army General Fund is not
obligated to make payment to the contractor until delivery and acceptance.

Outstanding Contract Financing Payments

The balance of Outstanding Contract Financing Payments includes $3.0 million in contract financing payments and
an additional $4.6 million in estimated future payments to contractors upon delivery and government acceptance of a
satisfactory product. Refer to Note 15, Other Liabilities, for additional information.

Note 7.	Cash and Other Monetary Assets
As of September 30
(Amounts in thousands)                                                             2013                       2012
1.	Cash                                                                   $                 156,747   $                194,878
2.	 Foreign Currency                                                                      1,053,137                  1,332,111
3.	 Other Monetary Assets                                                                         0                          0
4.	 Total Cash, Foreign Currency, & Other Monetary Assets                 $               1,209,884   $              1,526,989

Information Related to Cash and Other Monetary Assets

Cash consists primarily of cash held by disbursing officers to carry out their paying and collecting mission. Foreign
currency consists primarily of burden-sharing funds from the Republic of Korea.

Foreign currency is valued using the U.S. Treasury prevailing rate of exchange. This rate is the most favorable rate that
would legally be available to the federal government for foreign currency exchange transactions. The Army General Fund
cash and foreign currency are nonentity and are restricted.

Note 8.	Direct Loan and Loan Guarantees
Direct Loan and/or Loan Guarantee Programs

The Army General Fund operates the Armament Retooling and Manufacturing Support (ARMS) Initiative Loan
Guarantee Program which is designed to increase commercial use of inactive government facilities.
The Federal Credit Reform Act of 1990 governs all new and amended direct loan obligations and loan guarantee
commitments made after FY 1991. The Army General Fund does not operate a direct loan program.

Loan guarantee liabilities are reported at their net present value. The cost of the loan guarantee is the net present value of
the following estimated projected cash flows: Payments by the Army General Fund to cover defaults and delinquencies and
interest subsidies or other payments offset by payments to the Army General Fund including origination and other fees,
penalties, and recoveries.

Armament Retooling and Manufacturing Support Initiative

The Army General Fund established the ARMS Initiative Loan Guarantee Program, which is authorized by Title 10,
United States Code 4551-4555. The purpose of this program is to encourage commercial use of the Army’s inactive
ammunition plants through incentives for businesses willing to locate to a government ammunition production facility.
The production capacity of these facilities is greater than current military requirements; however, this capacity may be
needed by the military in the future. Revenues from property rentals are used to help offset the overhead costs for the
operation, maintenance, and environmental cleanup at the facilities.

The Army and the U.S. Department of Agriculture Rural Business-Cooperative Service (RBS) have established a
memorandum of understanding for the RBS to administer this loan guarantee program.

Loan Guarantees

In an effort to preclude additional Army General Fund loan liability, the Assistant Secretary of the Army (Acquisition,
Logistics and Technology) instituted an ARMS loan guarantee moratorium in 2004. The Army General Fund continues to
operate under the moratorium and does not anticipate initiating new loan guarantees.

Summary of Direct Loans and Loan Guarantees
As of September 30




                                                                                                                                 Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
(Amounts in thousands)                                                             2013                       2012
Loans Receivable
Direct Loans
1.	 Foreign Military Loan Liquidating Account                             $                     0    $                      0
2.	 Military Housing Privatization Initiative                                                   0                           0
3.	 Foreign Military Financing Account                                                          0                           0
4.	 Military Debt Reduction Financing Account                                                   0                           0
5.	 Total Direct Loans                                                    $                     0    $                      0
Defaulted Loan Guarantees
6.	 A.	 Foreign Military Financing Account                                $                     0    $                      0
    B.	Military Housing Privatization Initiative                                                0                           0
    C.	Armament Retooling & Manufacturing Support Initiative                                    0                           0
7.	 Total Default Loan Guarantees                                         $                     0    $                      0
8.	 Total Loans Receivable                                                $                     0    $                      0
Loan Guarantee Liability
1.	 Foreign Military Liquidating Account                                  $                     0    $                      0
2.	 Military Housing Privatization Initiative                                                   0                           0
                                                                                                                                                                                                                          Army General Fund 51




3.	 Armament Retooling & Manufacturing Support Initiative                                       0                       1,018
4.	 Total Loan Guarantee Liability                                        $                     0    $                  1,018

Direct Loans Obligated
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable.

Total Amount of Direct Loans Disbursed
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable
52 FY 2013 United States Army Annual Financial Report



Subsidy Expense for Direct Loan by Program
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable.

Subsidy Rate for Direct Loans by Program
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable

Schedule for Reconciling Subsidy Cost Allowance Balances for Post-FY 1991 Direct Loans
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable.

Defaulted Guaranteed Loans
As of September 30
(Amounts in thousands)                                                             2013                       2012
Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees
    (Allowance for Loss Method):
1.	 Foreign Military Loan Liquidating Account
    A.	Defaulted Guaranteed Loans Receivable, Gross                            $                 0    $                      0
    B.	Interest Receivable                                                                       0                           0
    C.	Foreclosed Property                                                                       0                           0
    D.	Allowance for Loan Losses                                                                 0                           0
    E.	Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net   $                 0    $                      0
Defaulted Guaranteed Loans from Post-FY 1991 Guarantees
    (Present Value Method):
2.	 Military Housing Privatization Initiative
    A.	Defaulted Guaranteed Loans Receivable, Gross                            $                 0    $                      0
    B.	Interest Receivable                                                                       0                           0
    C.	Foreclosed Property                                                                       0                           0
    D.	Allowance for Subsidy Cost (Present Value)                                                0                           0
    E.	Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net   $                 0    $                      0
3.	 Armament Retooling & Manufacturing Support Initiative
    A.	Defaulted Guaranteed Loans Receivable, Gross                            $               735    $                   735
    B.	Interest Receivable                                                                       0                          0
    C.	Foreclosed Property                                                                       0                          0
    D.	Allowance for Subsidy Cost (Present Value)                                             (735)                      (735)
    E.	Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net   $                 0    $                     0
4.	 Total Value of Assets Related to Defaulted Guaranteed Loans Receivable     $                 0    $                     0

Information Related to Defaulted Guaranteed Loans

The above schedule displays the value of assets related to defaulted guaranteed loans receivable for the current and prior
fiscal years.

Guaranteed Loans Outstanding
Information Related to Guaranteed Loans Outstanding

The Outstanding Principal of Guaranteed Loans, Face Value is the principal amount of loans disbursed by third parties
and guaranteed by the Army General Fund. The face value does not include any interest that is due to be paid on the
debt instruments.

The Amount of Outstanding Principal Guaranteed is the principal amount of loans disbursed by third parties and
guaranteed by the Army General Fund less borrower collateral. The net amount represents the loan amount guaranteed by
the Army General Fund. One performing loan remains.
Liabilities for Loan Guarantees
As of September 30
(Amounts in thousands)                                                                                   2013                                         2012
Liabilities for Losses on Loan Guarantee from Pre-FY 1992
    (Allowance for Loss):
1.	 Foreign Military Liquidating Account                                                   $                                  0        $                              0
2.	 Total Loan Guarantee Liability (Pre-FY 1992)                                           $                                  0        $                              0
Liabilities for Loan Guarantee from Post-FY 1991 (Present Value):
3.	 Military Housing Privatization Initiative                                              $                                  0        $                             0
4.	 Armament Retooling & Manufacturing Support Initiative                                                                     0                                  1,018
5.	 Total Loan Guarantee Liability (Post-FY 1991)                                          $                                  0        $                         1,018
6.	 Total Loan Guarantee Liability                                                         $                                  0        $                         1,018

Information Related to Liabilities for Loan Guarantees

Liabilities for Loan Guarantee Programs Post-FY 1991 represent the present value of the estimated cash inflows less cash
outflows of non-acquired loan guarantees. The ($39) million in loan guarantee liability represents the estimated long-term
cost to the U.S. Government of the currently performing loan for the ARMS Initiative Loan Guarantee Program.

Subsidy Expense for Loan Guarantees by Program
As of September 30
(Amounts in thousands)
                             2013                           Interest Differential       Defaults                Fees                   Other                 Total
1.	 New Loan Guarantees Disbursed:
    Military Housing Privatization Initiative                 $                0    $               0     $             0          $              0      $            0
    Armament Retooling & Manufacturing Support Initiative                      0                    0                   0                         0                   0
Total                                                         $                0    $               0     $             0          $              0      $            0
                             2012                           Interest Differential       Defaults                Fees                   Other                 Total




                                                                                                                                                                           Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
2.	 New Loan Guarantees Disbursed:
    Military Housing Privatization Initiative                 $                0    $               0     $             0          $              0      $            0
    Armament Retooling & Manufacturing Support Initiative                      0                    0                   0                         0                   0
Total                                                         $                0    $               0     $             0          $              0      $            0
                                                                                    Interest Rate          Technical
                          2013                                 Modifications        Reestimates           Reestimates             Total Reestimates          Total
3.	 Modifications and Reestimates:
    Military Housing Privatization Initiative                 $                0    $                0    $             0          $            0        $            0
    Armament Retooling & Manufacturing Support Initiative                      0                     0             (1,111)                 (1,111)               (1,111)
Total                                                         $                0    $                0    $        (1,111)         $       (1,111)       $       (1,111)
                                                                                    Interest Rate          Technical
                          2012                                 Modifications        Reestimates           Reestimates             Total Reestimates          Total
4.	 Modifications and Reestimates:
    Military Housing Privatization Initiative                 $                0    $                0    $              0         $             0       $             0
    Armament Retooling & Manufacturing Support Initiative                      0                   820                  (0)                    820                   820
Total                                                         $                0    $              820    $              0         $           820       $           820

5.	 Total Loan Guarantee:                                         2013                  2012
                                                                                                                                                                                                                                                                    Army General Fund 53




    Military Housing Privatization Initiative                 $              0      $                0
    Armament Retooling & Manufacturing Support Initiative               (1,111)                    820
Total                                                         $         (1,111)     $              820

Information Related to Subsidy Expense for Loan Guarantees by Program

In an effort to preclude additional Army General Fund loan liability, the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) instituted an ARMS loan guarantee moratorium in 2004. The Army General Fund continues
to operate under the moratorium and does not anticipate initiating new loan guarantees.
54 FY 2013 United States Army Annual Financial Report



Subsidy Rates for Loan Guarantees by Program
As of September 30
                                                              Interest               Fees and other
(Amounts in thousands)                                      Supplements   Defaults     Collections         Other           Total
Budget Subsidy Rates for Loan Guarantees:
1.	 Military Housing Privatization Initiative                0.00%        0.00%        0.00%               0.00%          0.00%
2.	 Armament Retooling & Manufacturing Support Initiative    0.00%        0.00%        0.00%               0.00%          0.00%

Information Related to Subsidy Rates for Loan Guarantees by Program

The Subsidy Rates for Loan Guarantees table displays subsidy rates applied to new guaranteed loans. The above table
displays zero percent subsidy rates because there have been no new loan guarantees originated since 2004 for the ARMS
Initiative Program.

Schedule for Reconciling Loan Guarantee Liability Balances for Post-FY 1991
    Loan Guarantees
As of September 30
(Amounts in thousands)                                                               2013                          2012
Beginning Balance, Changes, and Ending Balance:
1.	 Beginning Balance of the Loan Guarantee Liability                         $                   1,018    $                        154
2.	 Add: Subsidy Expense for Guaranteed Loans Disbursed during the
    Reporting Years by Component
    A.	Interest Supplement Costs                                              $                       0    $                          0
    B.	Default Costs (Net of Recoveries)                                                              0                               0
    C.	Fees and Other Collections                                                                     0                               0
    D.	Other Subsidy Costs                                                                            0                               0
    E.	 Total of the above Subsidy Expense Components                         $                       0    $                          0
3.	Adjustments
    A.	Loan Guarantee Modifications                                           $                       0    $                          0
    B.	Fees Received                                                                                  0                               0
    C.	Interest Supplements Paid                                                                      0                               0
    D.	Foreclosed Property and Loans Acquired                                                         0                               0
    E.	Claim Payments to Lenders                                                                      0                               0
    F.	 Interest Accumulation on the Liability Balance                                               46                              44
    G.	Other                                                                                         47                               0
    H.	Total of the above Adjustments                                         $                      93    $                         44
4.	 Ending Balance of the Loan Guarantee Liability before Reestimates         $                   1,111    $                        198
5.	 Add or Subtract Subsidy Reestimates by Component
    A.	Interest Rate Reestimate                                                                       0                              820
    B.	Technical/default Reestimate                                                              (1,111)                               0
    C.	Total of the above Reestimate Components                               $                  (1,111)   $                         820
6.	 Ending Balance of the Loan Guarantee Liability                            $                       0    $                       1,018

Information Related to the Schedule for Reconciling Loan Guarantee Liability Balances for Post-FY 1991 Loan
Guarantees

The above schedule displays the ending balances for the loan guarantee liabilities for loans that were guaranteed after
FY 1991.

Administrative Expenses
Administrative expense for the ARMS Initiative represents $4,000.00 per annum for salaries.
Note 9.	Inventory and Related Property
As of September 30
(Amounts in thousands)                                                                      2013                               2012
1.	 Inventory, Net                                                               $                            0     $                          0
2.	 Operating Materiel & Supplies, Net                                                               32,813,748                       30,824,075
3.	 Stockpile Materiel, Net                                                                                   0                                0
4.	Total                                                                         $                   32,813,748     $                 30,824,075

Inventory, Net
Not applicable.

Operating Materiel and Supplies, Net
As of September 30                                                                             2013
(Amounts in thousands)                                   OM&S Gross Value    Revaluation Allowance           OM&S, Net          Valuation Method
1.	 OM&S Categories
    A.	Held for Use                                  $          29,232,661   $                       0   $        29,232,661     SP, LAC, MAC
    B.	Held for Repair                                           3,581,087                           0             3,581,087     SP, LAC, MAC
    C.	Excess, Obsolete, and Unserviceable                               0                           0                     0          NRV
    D.	Total                                         $          32,813,748   $                       0   $        32,813,748

As of September 30                                                                             2012
(Amounts in thousands)                                   OM&S Gross Value    Revaluation Allowance           OM&S, Net          Valuation Method
1.	 OM&S Categories
    A.	Held for Use                                  $          28,157,681   $                  0        $        28,157,681     SP, LAC, MAC
    B.	Held for Repair                                           2,666,394                      0                  2,666,394     SP, LAC, MAC
    C.	Excess, Obsolete, and Unserviceable                         235,838               (235,838)                         0          NRV
    D.	Total                                         $          31,059,913   $           (235,838)       $        30,824,075




                                                                                                                                                   Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Legend for Valuation Methods:
LAC = Latest Acquisition Cost	 NRV = Net Realizable Value	    MAC = Moving Average Cost
SP = Standard Price	           LCM = Lower of Cost or Market	
AC = Actual Cost	              O = Other

Information Related to Operating Materiel and Supplies, Net

Operating Materiel and Supplies (OM&S) include ammunition, tactical missiles, and their related spare and repair
parts. The Held for Use category, which includes all materiel available to be issued, consists of $26.9 billion in Operating
Materiel and Supplies Held for Use and $2.3 billion in Operating Materiel and Supplies Held in Reserve for Future Use.
This category, which was not available in previous years, is used for economically repairable material.

Managers determine which items are more costly to repair than to replace. The value of these items is offset by an
allowance for excess, obsolete, and unserviceable OM&S which results in a net value of zero. The Army General Fund
established this allowance at 100% of the carrying account in accordance with DoD policy. These items, which include
ammunition and missiles, are reported as Excess, Obsolete, and Unserviceable.
                                                                                                                                                                                                                                            Army General Fund 55




The values of the Army’s government-furnished materiel and contractor-acquired materiel in the hands of the contractors
are normally not included in the OM&S values reported above. The DoD is presently reviewing its process for reporting
these amounts in an effort to determine the appropriate accounting treatment and the best method to collect and report
required information annually without duplicating information in other existing logistics systems.

Currently, there are no restrictions on OM&S.
56 FY 2013 United States Army Annual Financial Report



Stockpile Materiel, Net
Not applicable.

Note 10.	General PP&E, Net
As of September 30                                                                                        2013
                                                   Depreciation/
                                                   Amortization                                                  (Accumulated Depreciation/
(Amounts in thousands)                               Method        Service Life       Acquisition Value                Amortization)              Net Book Value
1.	 Major Asset Classes
    A.	Land                                             N/A            N/A        $            605,121                              N/A       $            605,121
    B.	Buildings, Structures, and Facilities            S/L         20 or 40                93,248,637            $         (34,387,110)                58,861,527
    C.	Leasehold Improvements                           S/L        lease term                   36,687                          (22,079)                    14,608
    D.	Software                                         S/L         2-5 or 10                  513,887                         (218,029)                   295,858
    E.	General Equipment                                S/L          5 or 10                14,081,795                       (6,793,535)                 7,288,260
    F.	 Military Equipment                              S/L          Various               142,390,377                      (64,450,275)                77,940,102
    G.	Shipbuilding (Construction-in-Progress)          N/A            N/A                           0                                0                          0
    H.	Assets Under Capital Lease                       S/L        lease term                  166,617                         (166,550)                        67
    I.	 Construction-in-Progress (Excludes
        Military Equipment)                             N/A            N/A                   8,930,002                             N/A                  8,930,002
    J.	Other                                                                                       322                            (232)                        90
    K.	Total General PP&E                                                         $        259,973,445            $      $(106,037,810)               153,935,635

As of September 30                                                                                        2012
                                                   Depreciation/
                                                   Amortization                                                  (Accumulated Depreciation/
(Amounts in thousands)                               Method        Service Life       Acquisition Value                Amortization)              Net Book Value
1.	 Major Asset Classes
    A.	Land                                             N/A            N/A        $            601,132                              N/A       $            601,132
    B.	Buildings, Structures, and Facilities            S/L         20 or 40                76,635,801            $         (30,951,060)                45,684,741
    C.	Leasehold Improvements                           S/L        lease term                   36,037                          (22,372)                    13,665
    D.	Software                                         S/L         2-5 or 10                  513,887                         (216,260)                   297,627
    E.	General Equipment                                S/L          5 or 10                20,153,493                       (9,082,154)                11,071,339
    F.	 Military Equipment                              S/L          Various               156,028,694                      (63,652,323)                92,376,371
    G.	Shipbuilding (Construction-in-Progress)          N/A            N/A                           0                                0                          0
    H.	Assets Under Capital Lease                       S/L        lease term                  166,617                         (165,747)                       870
    I.	 Construction-in-Progress (Excludes
        Military Equipment)                             N/A            N/A                   9,925,511                             N/A                  9,925,511
    J.	Other                                                                                       231                            (231)                         0
    K.	Total General PP&E                                                         $        264,061,403            $       (104,090,147)       $       159,971,256

1
 Note 15 for additional information on Capital Leases
Legend for Valuation Methods:
S/L = Straight Line	 N/A = Not Applicable

Information Related to General Property, Plant and Equipment

The Army General Fund uses the estimated historical cost for valuing capital equipment. In 4th Quarter, FY 2012, the
Army General Fund transitioned from using data calls for financial reporting of the following asset classes: land; buildings,
structures, and facilities; general equipment; and military equipment. Instead, the General Fund Enterprise Business
System populates financial values based on source records in the relevant accountable property system of record. This
transition supports Army audit readiness objectives and complies with DoD regulations.

The Army General Fund is not aware of any restrictions on the use or convertibility of General Property, Plant,
and Equipment.
Significant accounting adjustments have been made to the Army General Fund’s mission critical assets as a result of the
Department’s ongoing audit readiness efforts. These accounting adjustments were recognized in current year gain or loss
accounts when auditable data were not available to support restatement of prior-period financial statements.

Heritage Assets and Stewardship Land Information

The mission of the Army is to provide the military forces needed to deter war and protect the security of the United States
by organizing, training, supplying, equipping, and mobilizing forces for assignment in support of that mission. Executing
this mission requires efficient and effective use of resources in a manner that ensures operational and environmental
sustainability, while respecting the history and heritage that reflect and support the military mission. The Army has
stewardship responsibilities for heritage assets that date not only from the military history of the land, but also from prior
historic occupations. The Army relies upon heritage assets, such as historic buildings and stewardship land, for daily use in
administering, housing, and training soldiers. Heritage assets not currently employed as multi-use, such as archeological
collections or museum collections, are items that embody the multi-faceted history of the land, the military, the local
communities, and the nation. In that mission, the Army General Fund, with minor exceptions, uses most of the buildings
and stewardship land in its daily activities and includes the buildings on the Balance Sheet as multi-use heritage assets
(capitalized and depreciated).

The Statement of Federal Financial Accounting Standards (SFFAS) No. 29, Heritage Assets and Stewardship Land, issued by
the Federal Accounting Standards Advisory Board, requires note disclosures for these types of assets. The Army General
Fund’s policy is to preserve its heritage assets, which are items of historical, cultural, educational, or artistic importance.

The Army General Fund is unable to identify all quantities of heritage assets and stewardship land added through donation
or devise in FY 2013 due to limitations of the Department’s financial and nonfinancial management processes and systems.

Heritage assets within the Army General Fund consist of buildings and structures, archeological sites, and museum
collections. The Army General Fund defines these assets as follows:




                                                                                                                                                      Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Buildings and Structures

Buildings and structures which are listed on, or eligible for listing on, the National Register of Historic Places, including
multi-use heritage assets.

Archeological Sites

Sites that have been identified, evaluated, and determined to be eligible for, or are listed on, the National Historical Places
in accordance with Section 110, National Historical Preservation Act.

Museum Collection Items

Items which are unique for one or more of the following reasons: historical or natural significance; cultural, educational, or
artistic importance; or significant technical or architectural characteristics. The heritage assets for the Army General Fund
are listed below:
                                                                                                                                                                                                                                               Army General Fund 57




Categories                                                    Measure Quantity   Beginning Balance   Additions       Deletions       Ending Balance
Buildings and Structures                                           Each                  38,670                  0               0          38,670
Archeological Sites                                                Each                   8,123                  0               0           8,123
Museum Collection Items (Objects, Not Including Fine Art)          Each                 585,969                  0               0         585,969
Museum Collection Items (Objects, Fine Art)                        Each                       0                  0               0               0

*There were no donations included in the Additions column above.
58 FY 2013 United States Army Annual Financial Report


Stewardship land is land and land rights owned by the Department of the Army, but not acquired as, or in connection
with, items of General Property, Plant, and Equipment. All land provided to the Department from the public domain or
at no cost, regardless of its use, is classified as Stewardship Land.

Stewardship land is presented in context of all categories of DoD lands and reported in acres based on the predominant use
of the land. The three categories of Stewardship land held in public trust are as follows: State-Owned Land, Withdrawn
Public Land, and Public Land. The Department of the Army’s stewardship land consists mainly of mission-essential land.

The following is a description of the methods of acquisition and withdrawal of stewardship land:

        Acquiring additional land through donation or withdrawals from public domain.
        Identifying missing land records.
        Disposing of Base Realignment and Closure (BRAC) sites or transferring land to another DoD agency.
        Identifying cemeteries and historical facilities.
        Disposing of BRAC property or excess installations.
        Privatizing residential community initiatives programs.

The Army General Fund holds the following acres of stewardship land:
(Acres in Thousands)
Facility Code   Facility Title                                     Beginning Balance       Additions                Deletions     Ending Balance
     9110       Government Owned Land                                          4,981                      0                 0               4,981
     9111       State Owned Land                                                   5                      0                 0                   5
     9120       Withdrawn Public land                                          6,405                      0                 0               6,405
     9130       Licensed and Permitted Land                                      187                      0                 0                 187
     9140       Public Land                                                       11                      0                 0                  11
     9210       Land Easement                                                    218                      0                 0                 218
     9220       In-leased Land                                                    21                      0                 0                  21
     9230       Foreign Land                                                       1                      0                 0                   1
                                                                                                                   Grand Total             11,829
                                                                                                      TOTAL - All Other Lands               5,408
                                                                                                  TOTAL – Stewardship Lands                 6,421
*There were no donations included in the Additions column above.

Assets Under Capital Lease
As of September 30
(Amounts in thousands)                                                                             2013                          2012
1.	 Entity as Lessee, Assets Under Capital Lease
    A.	Land and Buildings                                                              $                       166,071      $             166,071
    B.	Equipment                                                                                                   546                        546
    C.	Accumulated Amortization                                                                               (166,550)                  (165,747)
    D.	Total Capital Leases                                                            $                            67      $                 870
Note 11.	Liabilities Not Covered by Budgetary Resources
As of September 30
(Amounts in thousands)                                                                             2013                           2012
1.	 Intragovernmental Liabilities
    A.	Accounts Payable                                                              $                                0       $                   0
    B.	Debt                                                                                                           0                           0
    C.	Other                                                                                                    478,178                     504,717
    D.	Total Intragovernmental Liabilities                                           $                          478,178       $             504,717
2.	 Nonfederal Liabilities
    A.	Accounts Payable                                                              $                        304,479         $              217,902
    B.	Military Retirement and Other Federal Employment Benefits                                            1,410,212                      1,406,105
    C.	Environmental and Disposal Liabilities                                                              23,545,732                     26,886,368
    D.	Other Liabilities                                                                                    6,042,211                      6,423,138
    E.	Total Nonfederal Liabilities                                                  $                     31,302,634         $           34,933,513
3.	 Total Liabilities Not Covered by Budgetary Resources                             $                     31,780,812         $           35,438,230
4.	 Total Liabilities Covered by Budgetary Resources                                                       14,553,665                     16,732,848
5.	 Total Liabilities                                                                $                     46,334,477         $           52,171,078

Information Related to Liabilities Not Covered by Budgetary Resources

Liabilities not covered by budgetary resources include liabilities for which congressional action is needed before budgetary
resources can be provided.

Intragovernmental Liabilities, Other, consist of Federal Employees’ Compensation Act (FECA) and other unfunded
employment-related liabilities.

Nonfederal Accounts Payable not covered by budgetary resources represent amounts that are related to canceled




                                                                                                                                                       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
appropriations. These amounts will require resources funded from future-year appropriations.

Military Retirement and Other Federal Employment Benefits consist of various employee actuarial liabilities not due and
payable during the current fiscal year. These liabilities consist primarily of the FECA benefits liability of $1.4 billion.
Refer to Note 17, Military Retirement and Other Federal Employment Benefits, for additional details and disclosures.

Environmental Liabilities represent the Department’s liability for existing and anticipated environmental cleanup
and disposal.

Nonfederal Other Liabilities primarily consist of $3.9 billion in unfunded annual leave, $51.7 million in contingent
liabilities, and $2.1 billion in expected expenditures for disposal of conventional munitions.

Liabilities such as Environmental Liabilities and Military Retirement and Other Federal Employment Benefits are not
covered by budgetary resources because there are no current or immediate appropriations available for liquidation. These
liabilities will require resources funded from future-year appropriations.
                                                                                                                                                                                                                                                Army General Fund 59




Note 12.	Accounts Payable
As of September 30
                                                                                                    2013
                                                                                    Interest, Penalties, and Administrative
(Amounts in thousands)                                     Accounts Payable                           Fees                        Total
1.	 Intragovernmental Payables                     $                    2,052,773    $                               N/A      $            2,052,773
2.	 Nonfederal Payables (to the Public)                                 1,603,250                                 10,118                   1,613,368
3.	Total                                           $                    3,656,023    $                            10,118      $            3,666,141
60 FY 2013 United States Army Annual Financial Report


As of September 30
                                                                                           2012
                                                                           Interest, Penalties, and Administrative
(Amounts in thousands)                            Accounts Payable                           Fees                             Total
1.	 Intragovernmental Payables              $                  1,766,165    $                               N/A       $               1,766,165
2.	 Nonfederal Payables (to the Public)                        3,183,094                                 (6,342)                      3,176,752
3.	Total                                    $                  4,949,259    $                            (6,342)      $               4,942,917

Information Related to Accounts Payable

Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by the Army
General Fund. The Army General Fund systems do not track intragovernmental transactions by customer at the
transaction level. Buyer-side accounts payable are adjusted to agree with intraagency seller-side accounts receivable.
Accounts Payable were adjusted by reclassifying amounts between federal and nonfederal Accounts Payable and applying
both supported and unsupported undistributed disbursements at the reporting entity level.

Note 13.	Debt
As of September 30                                                                        2013
(Amounts in thousands)                           Beginning Balance                     Net Borrowing                      Ending Balance
1.	 Agency Debt (Intragovernmental)
    A.	Debt to the Treasury                 $                         0     $                                   0     $                      0
    B.	Debt to the Federal Financing Bank                             0                                         0                            0
    C.	Total Agency Debt                    $                         0     $                                   0     $                      0
2.	 Total Debt                              $                         0     $                                   0     $                      0

As of September 30                                                                        2012
(Amounts in thousands)                           Beginning Balance                     Net Borrowing                      Ending Balance
1.	 Agency Debt (Intragovernmental)
    A.	Debt to the Treasury                 $                         1     $                                   (1)   $                      0
    B.	Debt to the Federal Financing Bank                             0                                          0                           0
    C.	Total Agency Debt                    $                         1     $                                   (1)   $                      0
2.	 Total Debt                              $                         1     $                                   (1)   $                      0

Information Related to Debt

The Army General Fund, by means of the Armament Retooling and Manufacturing Support (ARMS)-initiative legislation,
established a loan guarantee program to facilitate commercial firms’ use of specified ammunition manufacturing facilities.
When a borrower defaults on a guaranteed loan, the Army General Fund executes borrowing authority with the U.S.
Treasury to pay the lender the guaranteed outstanding principal which results in a debt with the U.S. Treasury. The total
debt of only $40.00 consists of interest and principal payments due to the U.S. Treasury for ARMS loan defaults.
Note 14.	Environmental and Disposal Liabilities
As of September 30
(Amounts in thousands)                                                                    2013                    2012
1.	 Environmental Liabilities—Nonfederal
    A.	Accrued Environmental Restoration Liabilities
       1.	 Active Installations—Installation Restoration Program (IRP) and Building
           Demolition and Debris Removal (BD/DR)                                      $           2,092,794   $           2,437,261
       2.	 Active Installations—Military Munitions Response Program (MMRP)                          883,672               1,419,268
       3.	 Formerly Used Defense Sites—IRP and BD/DR                                              3,018,759               3,063,392
       4.	 Formerly Used Defense Sites--MMRP                                                     10,096,799              10,842,520
    B.	Other Accrued Environmental Liabilities—Non-BRAC
       1.	 Environmental Corrective Action                                                         362,612                 510,690
       2.	 Environmental Closure Requirements                                                      189,065                 206,471
       3.	 Environmental Response at Operational Ranges                                            115,370                  75,878
       4.	Asbestos                                                                                 245,781                 243,450
       5.	 Non-Military Equipment                                                                        0                       0
       6.	Other                                                                                     56,157                  60,146
    C.	Base Realignment and Closure Installations
       1.	 Installation Restoration Program                                                        707,396                 658,562
       2.	 Military Munitions Response Program                                                     573,177                 535,157
       3.	 Environmental Corrective Action / Closure Requirements                                  180,867                 134,225
       4.	Asbestos                                                                                       0                       0
       5.	 Non-Military Equipment                                                                        0                       0
       6.	Other                                                                                          0                       0
    D.	Environmental Disposal for Military Equipment / Weapons Programs
       1.	 Nuclear Powered Military Equipment / Spent Nuclear Fuel                                       0                       0
       2.	 Non-Nuclear Powered Military Equipment                                                        0                       0
       3.	 Other Weapons Systems                                                                         0                       0




                                                                                                                                      Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
    E.	Chemical Weapons Disposal Program
       1.	 Chemical Demilitarization - Chemical Materials Agency (CMA)                            1,503,830               3,691,127
       2.	 Chemical Demilitarization - Assembled Chemical Weapons Alternatives
           (ACWA)                                                                                 6,054,406               6,539,062
       3.	Other                                                                                           0                       0
2.	 Total Environmental Liabilities                                                   $          26,080,685   $          30,417,209

Information Related to Environmental and Disposal Liabilities

Applicable Laws and Regulations

The Army General Fund is required to clean up contamination resulting from past waste disposal practices, leaks, spills,
and other past activity. This cleanup requirement applies to releases of hazardous substances and wastes that created a
public health or environmental risk from unexploded ordnance, discarded military munitions, and munitions constituents
at other than operational ranges. The Defense Environmental Restoration Program (DERP), established by Section 211 of
the Superfund Amendments and Reauthorization Act of 1986 and codified in Title 10 of the United States Code 2700 et.seq.,
establishes the requirements. The Army General Fund is also required to clean up contamination resulting from waste
                                                                                                                                                                                                                               Army General Fund 61




disposal practices, leaks, spills, and other activity at overseas locations in accordance with DoD policy as prescribed in DoD
Instruction 4715.8, Environmental Remediation for DoD Activities Overseas, under the Army Compliance Cleanup Program.

The Federal Accounting Standards Advisory Board (FASAB) published Technical Bulletin (TB) 2006-1, Recognition
and Measurement of Asbestos-Related Cleanup Cost, and Technical Release 10, Implementation Guidance on Asbestos
Cleanup Costs Associated with Facilities and Installed Equipment, which clarify reporting of liabilities arising from
asbestos-related cleanup.
62 FY 2013 United States Army Annual Financial Report


The Army General Fund is required to destroy the chemical stockpile and nonstockpile items as part of the Chemical
Demilitarization Program. The 1986 Defense Authorization Act (Public Law 99-145, as amended by subsequent acts)
directed the DoD to destroy the unitary chemical stockpile while providing for maximum protection of the environment,
public, and personnel involved in the destruction effort. The U.S. Army Chemical Materials Agency’s Nonstockpile
Chemical Materiel project provides centralized management and direction to the DoD for the disposal of currently
declared nonstockpile chemical materiel in a safe and environmentally sound manner. The facilities and equipment
developed and fielded as part of the program are also subject to numerous federal and state environmental regulations.

For the environmental liability associated with the destruction of chemical weapons, the schedules and cost estimates
in the approved baseline are based on the best information available and have been through the formal acquisition
program baseline-approval process at the time of report submission. However, these schedules and estimates are subject
to modifications and impacts from program risks and uncertainties inherent to the task of chemical demilitarization and
the political sensitivity of the program. These risks may include processing changes required to meet the operational
schedules due to the deteriorating condition of the stockpile and additional schedule time and/or cost to address changes in
environmental laws or congressional requirements.

Applicable laws are as follows for the DERP, NonDERP, low-level radioactive waste, and the Base Realignment and Closure
(BRAC) programs:

       Comprehensive Environmental Response, Compensation, and Liability Act
       Superfund Amendments and Reauthorization Act
       Clean Water Act
       Safe Drinking Water Act
       Clean Air Act
       Resource Conservation and Recovery Act
       Toxic Substances Control Act
       Medical Waste Tracking Act
       Atomic Energy Act
       Low-Level Radioactive Waste Policy Amendments Act
       Nuclear Waste Policy Act
       National Defense Authorization Acts

Types of Environmental Liabilities and Disposal Liabilities Identified

The Army General Fund has cleanup requirements for DERP sites at active installations, BRAC installations, formerly
used Defense sites (FUDS) at active installations that are not covered by DERP, weapon systems programs, and chemical
weapons disposal programs. Environmental disposal for weapons systems programs consists of chemical weapons
disposal, including the destruction of the entire United States’ stockpile of chemical agents and munitions and disposal
of nonstockpile chemical material. This includes binary chemical weapons, old chemical weapons recovered as part of
remediation and recovery operations, and miscellaneous materiel associated with chemical weapon production, storage,
testing, maintenance, and disposal. All cleanup is done in coordination with regulatory agencies, other responsible parties,
and current property owners.

Methods for Assigning Estimated Total Cleanup Costs to Current Operating Periods
The Army General Fund uses engineering estimates and independently validated models to estimate environmental cleanup
liabilities. The Remedial Action Cost Engineering and Requirements (RACER) system is the Army’s preferred model.
The Army General Fund relies upon the Air Force, the RACER executive agent, to validate the model in accordance with
DoD Instruction 5000.61, DoD Modeling and Simulation (M&S) Verification, Valuation, and Accreditation (VV&A), and
primarily uses the model to estimate the liabilities based on data received during a preliminary assessment and initial
site investigation. The Army primarily uses engineering estimates after obtaining extensive data during the remedial
investigation/feasibility phase of an environmental cleanup project.

The Army General Fund uses the real property inventory and engineering estimates of costs for environmental closure
liabilities and reports these costs in aggregate. Asbestos disposal costs are not estimable due to the ubiquitous nature
of non-friable asbestos, but facility surveys to determine the presence of asbestos are reported, based upon a cost of
$0.35/ square foot multiplied by the gross square feet of the Army-owned buildings.

The Army General Fund is unable to systematically gather and report environmental disposal liabilities for military
equipment or general property, plant, and equipment. Most liabilities for individual items of equipment are expected to be
below the Army’s $42,000 materiality threshold for a single environmental site. The Army General Fund will continue to
coordinate with the Office of the Under Secretary of Defense (Comptroller) to address this deficiency.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes Due to Inflation, Deflation,
Technology, or Applicable Laws and Regulations

The Army General Fund had changes in estimates resulting from previously unknown contamination, better site
characterization with sampling information, reestimation based on different assumptions, and lessons learned.
Environmental liabilities may change in the future due to changes in laws and regulations, changes in agreements with
regulatory agencies, and advances in technology.

Uncertainty Regarding the Accounting Estimates Used to Calculate the Reported Environmental Liabilities

The environmental liabilities for the Army General Fund are based on accounting estimates, which require certain
judgments and assumptions that are believed to be reasonable based upon information available at the time the estimates
are calculated. The actual results may vary materially from the accounting estimates if agreements with regulatory agencies




                                                                                                                              Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
require remediation to a different degree than anticipated when calculating the estimates. Liabilities can be further
impacted if investigation of the environmental sites discloses contamination levels different than known at the time of
the estimates.

The Army General Fund has reported asbestos survey costs, but estimating the amount of non-friable asbestos removal/
disposal at the time of building renovation or demolition, in accordance with FASAB TB 2006-1, presents too much
uncertainty to recognize on the Balance Sheet.

The Army General Fund is also uncertain regarding the costs for remediation activities in conjunction with returning
overseas military facilities to host nations. The Army General Fund is currently unable to provide a reasonable estimate
because the extent of remediation required is not known.

Other Accrued Environmental Liabilities – Non-BRAC, Other consists of low-level radioactive waste.
                                                                                                                                                                                                                       Army General Fund 63
64 FY 2013 United States Army Annual Financial Report



Note 15.	Other Liabilities
As of September 30                                                                             2013                                                       2012
(Amounts in thousands)                                         Current Liability         Noncurrent Liability                   Total                         Total
1.	Intragovernmental
    A.	Advances from Others                                $              9,839          $                0             $            9,839            $           11,539
    B.	Deposit Funds and Suspense Account Liabilities                   102,243                           0                        102,243                      (477,763)
    C.	Disbursing Officer Cash                                        1,212,841                           0                      1,212,841                     1,530,523
    D.	Judgment Fund Liabilities                                         24,622                           0                         24,622                         3,984
    E.	FECA Reimbursement to the Department of Labor                    117,324                     113,930                        231,254                       250,508
    F.	 Custodial Liabilities                                           135,682                       7,310                        142,992                       131,891
    G.	Employer Contribution and Payroll Taxes Payable                  155,858                           0                        155,858                       152,661
    H.	Other Liabilities                                                234,914                           0                        234,914                       267,594
    I.	 Total Intragovernmental Other Liabilities          $          1,993,323          $          121,240             $        2,114,563            $        1,870,937
2.	Nonfederal
    A.	Accrued Funded Payroll and Benefits                 $          2,963,720          $                      0       $        2,963,720            $        3,117,091
    B.	Advances from Others                                           2,097,918                                 0                2,097,918                     1,815,150
    C.	Deferred Credits                                                       0                                 0                        0                             0
    D.	Deposit Funds and Suspense Accounts                               67,842                                 0                   67,842                        65,061
    E.	Temporary Early Retirement Authority                                   0                                 0                        0                             0
    F.	 Nonenvironmental Disposal Liabilities
        (1)	 Military Equipment (Nonnuclear)                                 0                             0                             0                             0
        (2)	 Excess/Obsolete Structures                                      0                             0                             0                             0
        (3)	 Conventional Munitions Disposal                                 0                     2,136,649                     2,136,649                     2,136,649
    G.	Accrued Unfunded Annual Leave                                 3,632,370                             0                     3,632,370                     3,939,285
    H.	Capital Lease Liability                                             131                             0                           131                         1,496
    I.	 Contract Holdbacks                                             628,367                             0                       628,367                       674,616
    J.	 Employer Contribution and Payroll Taxes Payable                188,827                             0                       188,827                       154,593
    K.	Contingent Liabilities                                           49,258                     1,297,792                     1,347,050                     1,628,951
    L.	 Other Liabilities                                                    0                             0                             0                             0
    M.	Total Nonfederal Other Liabilities                  $         9,628,433           $         3,434,441            $       13,062,874            $       13,532,892
3.	 Total Other Liabilities                                $        11,621,756           $         3,555,681            $       15,177,437            $       15,403,829

Capital Lease Liability
As of September 30                                                                                 2013                                                        2012
(Amounts in thousands)                                    Land and Buildings           Equipment                Other                   Total                   Total
1.	 Future Payments Due
    A.	2014                                                                0                       0                        0                     0                       0
    B.	2015                                                                0                       0                        0                     0                   1,611
    C.	2016                                                                0                       0                        0                     0                     148
    D.	2017                                                              132                       0                        0                   132                       0
    E.	2018                                                                0                       0                        0                     0                       0
    F.	 After 5 Years                                                      0                       0                        0                     0                       0
    G.	Total Future Lease Payments Due                     $             132       $               0      $                 0       $           132       $           1,759
    H.	Less: Imputed Interest Executory Costs                              1                       0                        0                     1                     263
    I.	 Net Capital Lease Liability                        $             131       $               0      $                 0       $           131       $           1,496
2.	 Capital Lease Liabilities Covered by Budgetary
    Resources                                                                                                                       $           131       $           1,496
3.	 Capital Lease Liabilities Not Covered by Budgetary
    Resources                                                                                                                       $             0       $              0

Intragovernmental Other Liabilities Composition

Intragovernmental Other Liabilities consist of the unemployment compensation liability and other unfunded
employment benefits.
Estimated Future Contract Financing Payments

Contingent liabilities include $464.2 million related to contracts authorizing progress payments based on cost as defined
in the Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to the contractors’ work vest
with the federal government when a specific type of contract financing payment is made. This action protects taxpayer
funds in the event of contract nonperformance. It is DoD policy that these rights should not be misconstrued as rights
of ownership. The Army General Fund is under no obligation to pay contractors for amounts greater than the amounts
of progress payments authorized in contracts until delivery and government acceptance. The Army General Fund has
recognized a contingent liability for the estimated unpaid costs that are considered conditional for payment pending
delivery and government acceptance for the following reasons: (1) The contractors will probably complete their efforts and
deliver satisfactory products, and (2) the amount of contractor costs incurred but not yet paid are estimable.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs
incurred to date by contractors and amounts authorized to be paid under progress payments based on cost provisions
within the FAR. Estimated contractor-incurred costs are calculated by dividing the cumulative unliquidated progress
payments based on cost by the contract-authorized progress payment rate. The balance of unliquidated progress payments
based on cost is deducted from the estimated total contractor-incurred costs to determine the contingency amount.

Note 16.	Commitments and Contingencies
Information Related to Commitments and Contingencies

The Army General Fund is a party in various administrative proceedings and legal actions related to claims for
environmental damage, equal opportunity matters, and contractual bid protests.

The Army General Fund has accrued contingent liabilities for legal actions when the Office of General Counsel (OGC)
considers an adverse decision is probable and the amount of loss is measurable. In the event of an adverse judgment against




                                                                                                                                Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
the federal government, some of the liabilities may be payable from the U.S. Treasury Judgment Fund. The Army General
Fund reports contingent liabilities in Note 15, Other Liabilities.

Nature of Contingency

The Management’s Schedule of Information derived from the FY 2013 Army Legal Representation Letter outlines claims
against the Army General Fund totaling about $12.0 trillion for which the Army OGC is unable to express an opinion.
The majority of this amount is due to claims for the Fort Detrick, Maryland, contamination ($10.0 trillion) and for the
Hurricane Katrina levee breach ($2.0 trillion). The historical payout percentage for these cases is less than 1 percent. To
determine the historical payout, the Army OGC divides the total amount reported as a payout in the fiscal year by the total
amount claimed in the Army Legal Representation Letter.

The Army General Fund has other contingent liabilities for which the possibility of loss is considered reasonable. These
liabilities are not accrued in the Army General Fund’s financial statements. As of September 30, 2013, the Army General
Fund had $805.5 million in claims considered reasonably possible. These contingent liabilities and estimates are presented
in the following table. Estimates for litigations, claims, and assessments are required to be fully supported.
                                                                                                                                                                                                                         Army General Fund 65




Estimates in the Management Schedule of Information will not always agree with amounts, displayed below, that were
reported by the OGC subordinate commands because the Management Schedule of Information amounts are subject to a
materiality threshold – currently $29.7 million.
66 FY 2013 United States Army Annual Financial Report



                                        (Amounts in thousands)
                                        Title of Contingent Liabilities                                Estimate
                                        Army Environmental Law Division                                $346,930
                                        Army Contract Appeals                                           $27,116
                                        U.S. Army Claims Service                                             $0
                                        Litigation Division                                            $431,435
                                        Total                                                          $805,481

Other Information Pertaining to Commitments

The Army General Fund is a party in numerous individual contracts that contain clauses, such as price escalation, award fee
payments, or dispute resolution, that may result in a future outflow of budgetary resources. Currently, the Army General
Fund has limited automated system processes by which it captures or assesses these potential liabilities; therefore, the
amounts reported may not fairly present the Army General Fund’s commitments and contingencies.

Note 17.	Military Retirement and Other Federal Employment Benefits
As of September 30                                                                             2013                                                 2012
                                                                                      (Less: Assets Available to
(Amounts in thousands)                                              Liabilities             Pay Benefits)          Unfunded Liabilities       Unfunded Liabilities
1.	 Pension and Health Benefits
    A.	Military Retirement Pensions                             $                 0     $                     0    $                      0   $                      0
    B.	Military Pre Medicare-Eligible Retiree Health Benefits                     0                           0                           0                          0
    C.	Military Medicare-Eligible Retiree Health Benefits                         0                           0                           0                          0
    D.	Total Pension and Health Benefits                        $                 0     $                     0    $                      0   $                      0
2.	 Other Benefits
    A.	FECA                                                     $       1,410,213       $                     0    $        1,410,213         $        1,406,105
    B.	Voluntary Separation Incentive Programs                                  0                             0                     0                          0
    C.	DoD Education Benefits Fund                                              0                             0                     0                          0
    D.	Other                                                                    0                             0                     0                          0
    E.	Total Other Benefits                                     $       1,410,213       $                     0    $        1,410,213         $        1,406,105
3.	 Total Military Retirement and Other Federal
    Employment Benefits:                                        $       1,410,213       $                     0    $        1,410,213         $        1,406,105

Information Related to Military Retirement and Other Federal Employment Benefits

Federal Employees’ Compensation Act

The Army’s actuarial liability for workers’ compensation benefits is developed by the Department of Labor and provided
to the Army at the end of each fiscal year. The liability includes the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases, plus a component for incurred-but-not-reported claims. The
actuarial liability for the Federal Employees’ Compensation Act (FECA) increased $4.1 million between FY 2012 and
FY 2013.

Actuarial Cost Method

The liability is determined using a method that utilizes historical benefit payment patterns related to a specific incurred
period to predict the ultimate payments.

Market Value of Market-Based Securities

As of September 30, 2013, the market value of the nonmarketable, market-based securities held by the Army General Fund
was $2.7 million. Refer to Note 4, Investments and Related Interest, for additional information.
Assumptions

The projected annual benefit payments are discounted to the present value using the Office of Management and Budget’s
economic assumptions for 10-year U.S. Treasury notes and bonds. Cost-of-living adjustments (COLA) and medical
inflation factors (CPIM) provided by the Department of Labor are also applied to the calculation of projected future
benefits. The estimated actuarial liability is updated only at the end of each fiscal year.

Interest rate assumptions utilized for discounting were as follows:

Discount Rates
For wage benefits:
2.727% in Year 1
3.127% in Year 2 and thereafter;

For medical benefits:
2.334% in Year 1
2.860% in Year 2 and thereafter.

To provide more specifically for the effects of the inflation on the liability for future workers’ compensation benefits,
COLAs and CPIMs were applied to the calculation of projected future benefits. The actual rates for these factors for the
charge-back year (CBY) 2013 were used to adjust the historical payments associated with the methodology to current year
constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

                                       CBY             COLA           CPIM
                                       2013            N/A            N/A




                                                                                                                            Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                       2014            3.46%          3.46%
                                       2015            1.80%          3.82%
                                       2016            2.20%          3.83%
                                       2017            2.20%          3.82%
                                       2018+           2.20%          3.82%

The resulting projections from the model were analyzed to ensure that the estimates were reliable. The analysis was
based on four tests: (1) a sensitivity analysis of the model in comparison to economic assumptions; (2) a comparison, by
agency, of the percentage change in the liability amount to the percentage change in the actual incremental payments;
(3) a comparison of the incremental paid losses per case (a measure of case-severity) in CBY 2013 to the average pattern
observed during the most current three charge-back years; and (4) a comparison of the estimated liability per case in the
2013 projection to the average pattern for the projections of the most recent three years.

Other Disclosures

Actuarial liabilities are computed for employee compensation benefits as mandated by FECA. The Office of Personnel
                                                                                                                                                                                                                     Army General Fund 67




Management provides updated Army actuarial liabilities during the 4th Quarter of each fiscal year. The Army General
Fund computes its portion of the total Army actuarial liability based on the percentage of its FECA expense to the total
Army FECA expense.
68 FY 2013 United States Army Annual Financial Report



Note 18.	General Disclosures Related to the Statement of Net Cost
Intragovernmental Costs and Exchange Revenue
As of September 30
(Amounts in thousands)                                                             2013                     2012
Military Retirement Benefits
1.	 Gross Cost
    A.	Intragovernmental Cost                                                  $                   0    $                   0
    B.	Nonfederal Cost                                                                             0                        0
    C.	Total Cost                                                              $                   0    $                   0
2.	 Earned Revenue
    A.	 Intragovernmental Revenue                                              $                   0    $                   0
    B.	 Nonfederal Revenue                                                                         0                        0
    C.	Total Revenue                                                           $                   0    $                   0
3.	 Losses/(Gains) from Actuarial Assumption Changes for Military Retirement
    Benefits                                                                   $                   0    $                   0
Total Net Cost                                                                 $                   0    $                   0

Civil Works
1.	 Gross Cost
    A.	Intragovernmental Cost                                                  $                   0    $                   0
    B.	Nonfederal Cost                                                                             0                        0
    C.	Total Cost                                                              $                   0    $                   0
2.	 Earned Revenue
    A.	Intragovernmental Revenue                                               $                   0    $                   0
    B.	Nonfederal Revenue                                                                          0                        0
    C.	Total Revenue                                                           $                   0    $                   0
3.	 Losses/(Gains) from Actuarial Assumption Changes for Military Retirement
    Benefits                                                                   $                   0    $                   0
Total Net Cost                                                                 $                   0    $                   0

Military Personnel
1.	 Gross Cost
    A.	Intragovernmental Cost                                                  $          16,635,555    $          19,431,946
    B.	Nonfederal Cost                                                                    47,892,782               48,128,299
    C.	Total Cost                                                              $          64,528,337    $          67,560,245
2.	 Earned Revenue
    A.	Intragovernmental Revenue                                               $            (331,004)   $            (323,754)
    B.	Nonfederal Revenue                                                                          0                     (349)
    C.	Total Revenue                                                           $            (331,004)   $            (324,103)
3.	 Losses/(Gains) from Actuarial Assumption Changes for Military Retirement
    Benefits                                                                   $                   0    $                   0
Total Net Cost                                                                 $          64,197,333    $          67,236,142

Operations, Readiness & Support
1.	 Gross Cost
    A.	Intragovernmental Cost                                                  $          21,182,622    $          29,444,340
    B.	Nonfederal Cost                                                                    61,875,256               49,257,421
    C.	Total Cost                                                              $          83,057,878    $          78,701,761
2.	 Earned Revenue
    A.	Intragovernmental Revenue                                               $           2,903,103    $           5,559,902
    B.	Nonfederal Revenue                                                                 (4,223,948)                (579,196)
    C.	Total Revenue                                                           $          (1,320,845)   $           4,980,706
3.	 Losses/(Gains) from Actuarial Assumption Changes for Military Retirement
    Benefits                                                                   $                   0    $                   0
Total Net Cost                                                                 $          81,737,033    $          83,682,467
Intragovernmental Costs and Exchange Revenue
As of September 30
(Amounts in thousands)                                                             2013                      2012
Procurement
1.	 Gross Cost
    A.	Intragovernmental Cost                                                  $            9,286,999    $           8,162,541
    B.	Nonfederal Cost                                                                     (2,198,557)              23,054,079
    C.	Total Cost                                                              $            7,088,442    $          31,216,620
2.	 Earned Revenue
    A.	Intragovernmental Revenue                                               $           (1,132,803)   $          (1,953,087)
    B.	Nonfederal Revenue                                                                    (151,163)                 (61,141)
    C.	Total Revenue                                                           $           (1,283,966)   $          (2,014,228)
3.	 Losses/(Gains) from Actuarial Assumption Changes for Military Retirement
    Benefits                                                                   $                   0     $                   0
Total Net Cost                                                                 $           5,804,476     $          29,202,392

Research, Development, Test & Evaluation
1.	 Gross Cost
    A.	Intragovernmental Cost                                                  $           2,891,104     $           3,013,426
    B.	Nonfederal Cost                                                                     9,354,857                10,980,143
    C.	Total Cost                                                              $          12,245,961     $          13,993,569
2.	 Earned Revenue
    A.	Intragovernmental Revenue                                               $           (2,271,362)   $          (4,464,361)
    B.	Nonfederal Revenue                                                                  (2,601,848)                (107,171)
    C.	Total Revenue                                                           $           (4,873,210)   $          (4,571,532)
3.	 Losses/(Gains) from Actuarial Assumption Changes for Military Retirement
    Benefits                                                                   $                   0     $                   0
Total Net Cost                                                                 $           7,372,751     $           9,422,037




                                                                                                                                  Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Family Housing & Military Construction
1.	 Gross Cost
    A.	Intragovernmental Cost                                                  $           1,127,712     $           1,668,211
    B.	Nonfederal Cost                                                                    32,181,792                23,898,567
    C.	Total Cost                                                              $          33,309,504     $          25,566,778
2.	 Earned Revenue
    A.	Intragovernmental Revenue                                               $           (6,484,365)   $          (7,651,061)
    B.	Nonfederal Revenue                                                                    (291,468)                (295,541)
    C.	Total Revenue                                                           $           (6,775,833)   $          (7,946,602)
3.	 Losses/(Gains) from Actuarial Assumption Changes for Military Retirement
    Benefits                                                                   $                   0     $                   0
Total Net Cost                                                                 $          26,533,671     $          17,620,176

Consolidated
1.	 Gross Cost
    A.	Intragovernmental Cost                                                  $       51,123,992        $       61,720,464
    B.	Nonfederal Cost                                                                149,106,130               155,318,509
                                                                                                                                                                                                                           Army General Fund 69




    C.	Total Cost                                                              $     200,2230,122        $      217,038,973
2.	 Earned Revenue
    A.	Intragovernmental Revenue                                               $           (7,316,431)   $          (8,832,361)
    B.	 Nonfederal Revenue                                                                 (7,268,427)              (1,043,398)
    C.	 Total Revenue                                                          $          (14,584,858)   $          (9,875,759)
3.	 Losses/(Gains) from Actuarial Assumption Changes for Military Retirement
    Benefits                                                                   $                0        $                0
4.	 Costs Not Assigned to Programs                                             $                0        $                0
5.	 (Less: Earned Revenues) Not Attributed to Programs                         $                0        $                0
Total Net Cost                                                                 $      185,645,264        $      207,163,214
70 FY 2013 United States Army Annual Financial Report


Information Related to the Statement of Net Cost

Definitions

Intragovernmental costs and revenue represent transactions made between two reporting entities within the
federal government.

Public costs and revenue are exchange transactions made between the reporting entity and a nonfederal entity.

Other Information Regarding Costs

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the federal government that is
supported by appropriations or other means. The intent of the SNC is to provide gross and net cost information related
to the amount of output or outcome for a given program or organization administered by a responsible reporting entity.
The DoD’s current processes and systems do not capture and report accumulated costs for major programs based upon
the performance measures as required by the Government Performance and Results Act. The DoD is in the process of
reviewing available data and developing a cost reporting methodology as required by the Statement of Federal Financial
Accounting Standards (SFFAS) No. 4, Managerial Cost Accounting Concepts and Standards for the Federal Government, as
amended by SFFAS No. 30, Inter-entity Cost Implementation.

The amounts presented in the Consolidated Statement of Net Cost are based on funding, obligation, accrual, and
disbursing transactions, which are not always recorded using accrual accounting. The Army General Fund systems do
not always record the transactions on an accrual basis as is required by the generally accepted accounting principles. The
information presented also includes data from nonfinancial feeder systems to ensure that all cost and financing sources are
captured for the Army General Fund.

Additional Disclosures

The Army General Fund systems do not track intragovernmental transactions by customer at the transaction level. Buyer-
side expenses are adjusted to agree with internal seller-side revenues. Expenses are generally adjusted by reclassifying
amounts between federal and nonfederal expenses. Intradepartmental revenues and expenses are then eliminated.

The Army General Fund accounting systems do not capture information relative to heritage assets separately and distinctly
from normal operations. The Army General Fund is not able to separately identify the costs of acquiring, constructing,
improving, reconstructing, or renovating heritage assets. The Army Financial Improvement Plan outlines tasks to
separately identify and report costs associated with heritage assets by 4th Quarter, FY 2017.

The abnormal revenue balance impacting the “Operations, Readiness & Support” program is attributable to the current
business practice which includes elimination reporting in this program group.

 The final paragraph should state “The abnormal balance impacting Procurement Cost consists of gains and losses that
resulted from adjustments necessary to balance the Army General Fund’s feeder systems with DoD’s financial reporting
system and to correct inherent limitation of the current financial systems.

Note 19.	Disclosures Related to the Statement of Changes in Net
         Position
Information Related to the Statement of Changes in Net Position

Other Financing Sources, Other

Other Financing Sources, Other primarily consist of gains and losses that resulted from adjustments necessary to balance
the Army General Fund’s feeder systems with DoD’s financial reporting system and to correct inherent limitations of the
current financial systems.
Appropriations Received

The Appropriations Received line item on the Statement of Changes in Net Position (SCNP) does not agree with the
Appropriations line item on the Statement of Budgetary Resources (SBR). The $8.0 billion difference is due to additional
resources included in the Appropriation line item on the SBR. Refer to Note 20, Disclosures Related to the SBR, for
further information.

Eliminations

In the SCNP, all offsetting balances (i.e., transfers-in and transfers-out, revenues, and expenses) for intra-entity activity
between Earmarked Funds and All Other Funds are reported on the same lines. The Eliminations column contains
all appropriate elimination entries, which net to zero within each respective line, except for intra-entity imputed
financing costs.

Earmarked Cumulative Results of Operations

The ending balance for the Cumulative Results of Operations on the SCNP does not agree with the Cumulative Results
reported on the Balance Sheet because the cumulative results on the Balance Sheet are presented net of eliminations.

Dedicated Collections

Effective 3rd Quarter, FY 2013, the Defense Departmental Reporting System began reporting all funds identified as
“dedicated collections” only in the notes to the statements. Funds from dedicated collections are not required to be
reported separately in the Statement of Changes in Net Position, but this statement will contain a reference to the
appropriate footnotes for further information on these collections.

Note 20.	Disclosures Related to the Statement of Budgetary




                                                                                                                                    Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
         Resources
As of September 30
(Amounts in thousands)                                                               2013                         2012
1.	 Net Amount of Budgetary Resources Obligated for Undelivered Orders at the
    End of the Period                                                           $        111,398,160    $             131,871,962
2.	 Available Borrowing and Contract Authority at the End of the Period         $                  0    $                       0

Information Related to the Statement of Budgetary Resources

Undelivered Orders

Undelivered Orders presented in the Statement of Budgetary Resources (SBR) include Undelivered Orders-Unpaid for
both direct and reimbursable funds.

Reporting of Appropriations Received
                                                                                                                                                                                                                             Army General Fund 71




The Appropriations line on the SBR does not agree with the Appropriations Received line on the Statement of Changes in
Net Position because of differences between proprietary and budgetary accounting concepts and reporting requirements.
These differences, totaling $8.0 billion, consist of the receipts for special and trust funds.

Presentation of Statement of Budgetary Resources

The SBR includes intra-entity transactions because the statements are presented as combined.
72 FY 2013 United States Army Annual Financial Report


Breakdown of Apportionment Categories

The amount of direct and reimbursable obligations incurred against amounts apportioned under Category A (apportioned
by fiscal quarter), Category B (apportioned by project or activity), and Exempt from Apportionment is as follows:

                                  (Amounts in billions)
                                  Budgetary                       Direct          Reimbursable
                                  Category A                           $165.2               $5.8
                                  Category B                             $39.3             $17.7
                                  Exempt from Apportionment                  *                0.0
                                  Total                                $204.5              $23.5

                                  (Amounts in millions)
                                  Non-Budgetary                   Direct          Reimbursable
                                  Category A                               0.00             0.00

*The Exempt from Apportionment amount is $14.1 million.

The above disclosure agrees (1) with the aggregate of the related information as reported on the SF 133, Report on Budget
Execution, and (2) with Obligations Incurred as reported on the SBR.

The use of unobligated balances of the expired funding is restricted by time limit, purpose, and obligation limitations.

Terms of Borrowing Authority

Borrowing authority is used for guaranteed loan defaults relating to the Armament Retooling and Manufacturing Support
(ARMS) Initiative. This initiative is designed to encourage commercial use of inactive Army General Fund ammunition
plants through many incentives for businesses willing to locate to a government ammunition production facility. The Army
General Fund, by means of ARMS Initiative legislation, established a loan guarantee program to facilitate commercial
firms’ use of specified ammunition manufacturing facilities. The Army General Fund and Department of Agriculture Rural
Business-Cooperative Service (RBS) established a memorandum of understanding for the RBS to administer the ARMS
Initiative Loan Guarantee Program.

Borrowings are repaid on Standard Form 1151, Nonexpenditure Transfer Authorization, as maturity dates become due. For
liquidating accounts, maturity dates are one working day prior to the anniversary date of the note. For financing accounts,
maturity dates are based on the period of time used in the subsidy calculation, not the contractual term of the agency’s
loans to borrowers.

There was no borrowing authority available as of September 30, 2013.
Note 21.	Reconciliation of Net Cost of Operations to Budget
For the years ended September 30
(Amounts in thousands)                                                                     2013                      2012
Resources Used to Finance Activities:
Budgetary Resources Obligated:
1.	 Obligations incurred                                                               $      227,841,664        $      267,822,441
2.	 Less: Spending authority from offsetting collections and recoveries (-)                   (53,396,942)              (62,187,722)
3.	 Obligations net of offsetting collections and recoveries                           $      174,444,722        $      205,634,719
4.	 Less: Offsetting receipts (-)                                                                (595,602)                  828,530
5.	 Net obligations                                                                    $      173,849,120        $      206,463,249
Other Resources:
6.	 Donations and forfeitures of property                                                             459                    35,024
7.	 Transfers in/out without reimbursement (+/-)                                                1,745,469                 4,357,168
8.	 Imputed financing from costs absorbed by others                                             1,053,939                 1,043,601
9.	 Other (+/-)                                                                                (7,570,278)              (22,178,371)
10.	Net other resources used to finance activities                                     $       (4,770,411)       $      (16,742,578)
11.	Total resources used to finance activities                                         $      169,078,709        $      189,720,671
Resources Used to Finance Items not Part of the Net Cost of Operations:
12.	Change in budgetary resources obligated for goods, services and benefits
    ordered but not yet provided:
    12a.	 Undelivered Orders (-)                                                       $          20,473,802     $              628,452
    12b.	 Unfilled Customer Orders                                                                (3,763,787)                 1,104,954
13.	Resources that fund expenses recognized in prior Periods (-)                                  (5,070,608)                (2,052,694)
14.	Budgetary offsetting collections and receipts that do not affect Net Cost of
    Operations                                                                                        595,696                  (827,667)
15.	Resources that finance the acquisition of assets (-)                                          (24,330,081)              (14,240,034)
16.	Other resources or adjustments to net obligated resources that do not affect Net
    Cost of Operations:
    16a.	 Less: Trust or Special Fund Receipts Related to exchange in the Entity’s
          Budget (-)                                                                                    0                         0




                                                                                                                                           Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
    16b.	 Other (+/-)                                                                           5,824,350                17,786,177
17.	Total resources used to finance items not part of the Net Cost of Operations       $       (6,270,628)       $        2,399,188
18.	Total resources used to finance the Net Cost of Operations                         $      162,808,081        $      192,119,859
Components of the Net Cost of Operations that will not Require or Generate
    Resources in the Current Period:
Components Requiring or Generating Resources in Future Period:
19.	Increase in annual leave liability                                                 $              10,626     $              42,899
20.	Increase in environmental and disposal liability                                                       0                         0
21.	Upward/Downward reestimates of credit subsidy expense (+/-)                                            0                         0
22.	Increase in exchange revenue receivable from the public (-)                                       (3,076)                   66,223
23.	Other (+/-)                                                                                      212,148                   872,985
24.	Total components of Net Cost of Operations that will Require or Generate
    Resources in future periods                                                        $             219,698     $             982,107
Components not Requiring or Generating Resources:
25.	Depreciation and amortization                                                      $          25,473,228     $          12,109,975
26.	Revaluation of assets or liabilities (+/-)                                                             0                         0
27.	Other (+/-)
    27a.	 Trust Fund Exchange Revenue                                                                       0                        0
                                                                                                                                                                                                                                    Army General Fund 73




    27b.	 Cost of Goods Sold                                                                                0                        0
    27c.	 Operating Material and Supplies Used                                                            385                     (513)
    27d.	Other                                                                                     (2,856,128)               1,951,786
28.	Total Components of Net Cost of Operations that will not Require or Generate
    Resources                                                                          $          22,617,485     $          14,061,248
29.	Total components of Net Cost of Operations that will not Require or Generate
    Resources in the current period                                                    $       22,837,183        $       15,043,355
30.	Net Cost of Operations                                                             $      185,645,264        $      207,163,214
74 FY 2013 United States Army Annual Financial Report


Information Related to the Reconciliation of Net Cost of Operations to Budget

Required Disclosures

Due to the limitations of the Army General Fund financial systems, budgetary data do not agree with proprietary expenses
and capitalized assets. The difference between budgetary and proprietary data is a previously identified deficiency.

The amount of the adjustment to the note schedule to bring it into balance with the Statement of Net Cost totaled
$79.2 billion and was reported in the category of Other Components Not Requiring or Generating Resources.

The Reconciliation of Net Cost of Operations to Budget is intended to explain and define the relationship between
net obligations from budgetary accounting and net cost of operations from proprietary accounting. The following
Reconciliation of Net Cost of Operations to Budget lines is presented as combined instead of consolidated due to
intraagency budgetary transactions not being eliminated:

       Obligations Incurred
       Less: Spending authority from offsetting collections and recoveries
       Obligations net of offsetting collections and recoveries
       Less: Offsetting Receipts
       Net Obligations
       Undelivered Orders
       Unfilled Customer Orders

Budgetary Resources Obligated, Other include (1) other gains and losses and (2) gains and losses on disposition of assets.
These latter gains and losses resulted from adjustments necessary to balance the Army General Fund’s feeder systems with
DoD’s financial reporting system and to correct inherent limitations of the current financial systems.

Other Resources or Adjustments to Net Obligated Resources That Do not Affect Net Cost of Operations, Other include
financing sources transferred in and out without reimbursement, other gains and losses, and gains and losses on disposition
of assets.

Components Requiring or Generating Resources in Future Period, Other represent increases in future-funded expenses for
conventional disposal costs and contingent liabilities for contract appeals and tort claims.

Components not Requiring or Generating Resources, Other are comprised of other expenses not requiring budgetary
resources for the Iraqi Relief and Reconstruction Fund--a transfer fund in which the Army General Fund executes the
funding on behalf of the Executive Office of the President. The U.S. Treasury requires that the execution for this type of
transfer is presented on the Army General Fund financial statements. This line also includes the current year change in
Construction-in-Progress balances.

Note 22.	Disclosures Related to Incidental Custodial Collections
The Army General Fund does not collect incidental custodial revenues.
Note 23.	Funds from Dedicated Collections
BALANCE SHEET                                                                                       2013
                                                                         Rivers and Harbors
As of September 30                                  Harbor Maintenance    Contributed and
(Amounts in thousands)                                  Trust Fund         Advance Fund           Other Funds         Eliminations         Consolidated Total
ASSETS
Fund balance with Treasury                           $              0     $               0   $         33,622    $                  0     $         33,622
Investments                                                         0                     0              2,615                       0                2,615
Accounts and Interest Receivable                                    0                     0                (63)                      0                  (63)
Other Assets                                                        0                     0                  6                       0                    6
Total Assets                                         $              0     $               0   $         36,180    $                  0     $         36,180

LIABILITIES and NET POSITION
Accounts Payable and Other Liabilities                              0                     0              1,471                       0                1,471
Total Liabilities                                    $              0     $               0   $          1,471    $                  0     $          1,471
Unexpended Appropriations                                           0                     0                  0                       0                    0
Cumulative Results of Operations                                    0                     0             34,709                       0               34,709
Total Liabilities and Net Position                   $              0     $               0   $         36,180    $                  0     $         36,180

STATEMENT OF NET COST
For the period ended September 30
Program Costs                                        $              0     $               0   $         25,038    $                  (1)   $         25,037
Less Earned Revenue                                                 0                     0               (245)                       0                (245)
Net Program Costs                                    $              0     $               0   $         24,793    $                  (1)   $         24,792
Less Earned Revenues Not Attributable to Programs                   0                     0                  0                        0                   0
Net Cost of Operations                               $              0     $               0   $         24,793    $                  (1)   $         24,792

STATEMENT OF CHANGES IN NET POSITION
Net Position Beginning of the Period                 $              0     $               0   $         36,212    $                  0     $         36,212




                                                                                                                                                                Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Net Cost of Operations                               $              0     $               0   $         24,793    $                  0     $         24,793
Budgetary Financing Sources                                         0                     0             29,092                       0               29,092
Other Financing Sources                                             0                     0             (5,802)                      0               (5,802)
Change in Net Position                               $              0     $               0   $         (1,503)   $                  0     $         (1,503)
Net Position End of Period                           $              0     $               0   $         34,709    $                  0     $         34,709




                                                                                                                                                                                                                                                         Army General Fund 75
76 FY 2013 United States Army Annual Financial Report



BALANCE SHEET                                                                                 Restated 2012
                                                                         Rivers and Harbors
As of September 30                                  Harbor Maintenance    Contributed and
(Amounts in thousands)                                  Trust Fund         Advance Fund           Other Funds          Eliminations       Consolidated Total
ASSETS
Fund balance with Treasury                           $              0     $               0   $         34,129     $                  0   $         34,129
Investments                                                         0                     0              2,181                        0              2,181
Accounts and Interest Receivable                                    0                     0                  0                        0                  0
Other Assets                                                        0                     0                114                        0                114
Total Assets                                         $              0     $               0   $         36,424     $                  0   $         36,424

LIABILITIES and NET POSITION
Accounts Payable and Other Liabilities                              0                     0                212                        0                212
Total Liabilities                                    $              0     $               0   $            212     $                  0   $            212
Unexpended Appropriations                                           0                     0                  0                        0                  0
Cumulative Results of Operations                                    0                     0             36,212                        0             36,212
Total Liabilities and Net Position                   $              0     $               0   $         36,424     $                  0   $         36,424

STATEMENT OF NET COST
For the period ended September 30
Program Costs                                        $              0     $               0   $         26,153     $                  0   $         26,153
Less Earned Revenue                                                 0                     0                  0                        0                  0
Net Program Costs                                    $              0     $               0   $         26,153     $                  0   $         26,153
Less Earned Revenues Not Attributable to Programs                   0                     0                  0                        0                  0
Net Cost of Operations                               $              0     $               0   $         26,153     $                  0   $         26,153

STATEMENT OF CHANGES IN NET POSITION
Net Position Beginning of the Period                 $              0     $               0   $          49,586    $                  0   $         49,586
Net Cost of Operations                               $              0     $               0   $          26,153    $                  0   $         26,153
Budgetary Financing Sources                                         0                     0               4,001                       0              4,001
Other Financing Sources                                             0                     0               8,778                       0              8,778
Change in Net Position                               $              0     $               0   $         (13,374)   $                  0   $        (13,374)
Net Position End of Period                           $              0     $               0   $          36,212    $                  0   $         36,212

Information Related to Funds from Dedicated Collections

Funds from dedicated collections are financed by specifically identified revenues, required by statute to be used for
designated activities or purposes, and remain available over time. The Army General Fund has identified the following
such funds and their related statutory citations:

Sale of Hunting and Fishing Permits. Fees are received from individuals for the issuance of special hunting and fishing
permits. The funds for this account are used for wildlife, fish, and game conservation and rehabilitation on military
reservations. Title 10, United States Code (USC) 670b gives the authority to collect and distribute funds for the intended
purposes.

Restoration of Rocky Mountain Arsenal. Funds are received from private industry for the cleanup of contaminated areas
of Rocky Mountain Arsenal. Public Law (PL) 99 661, Section 1367, provides the authority for this explicit use.

Royalties for Use of DoD-Military Insignia and Trademarks. Funds are received from the sale of commemorative
memorabilia, trademarks, and licensing activities. The funds are used to replenish inventory stock for such items and other
related commemorative program expenses. The authority to create expenditures originates from PL 102 484, Section 378.

Forest and Wildlife Conservation, Military Reservations. Funds are received from the sales of forest products harvested
from forests on military installations and distributed to the respective states involved in the sales. Each state is entitled
to 40% of the sales of products from its forest after reimbursement of DoD appropriations for the costs of production.
Title 10, USC 2665 provides authority for this fund and for payments to the states.

National Science Center. Funds received from the collection of fees are used for the operation and maintenance of the
National Science Center as authorized under PL 99-145, Defense Authorization Act, 1986, Section 1459.

Bequest of Major General Fred C. Ainsworth to Walter Reed Army Medical Center. Funds received from interest on
investments are used for purchasing supplies and equipment for the library at the Walter Reed Army Medical Center. The
Army cannot currently identify the statutory citation that provides authority for the use of this fund. The appropriation
for this fund is 21X8063.

Department of the Army General Gift Fund. Funds are received from private parties and estates and used for various
purposes. Title 10, USC 2601 establishes the authority governing the use of this fund.

Note 24.	Fiduciary Activities
Schedule of Fiduciary Activity
For the period ended September 30
(Amounts in thousands)                                                               2013                        2012
1.	 Fiduciary net assets, beginning of year                                 $                 95,421    $                129,380
2.	 Fiduciary revenues                                                                             0                           0
3.	Contributions                                                                             111,880                     126,011
4.	 Investment earnings                                                                        7,364                       9,624
5.	 Gain (Loss) on disposition of investments, net                                                 0                           0
6.	 Administrative and other expenses                                                              0                           0
7.	 Distributions to and on behalf of beneficiaries                                         (130,712)                   (169,594)
8.	 Increase/(Decrease) in fiduciary net assets                             $                (11,468)   $                (33,959)
9.	 Fiduciary net assets, end of period                                     $                 83,953    $                 95,421




                                                                                                                                    Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Schedule of Fiduciary Net Assets
As of September 30
(Amounts in thousands)                                                               2013                        2012
Fiduciary Assets
1.	 Cash and cash equivalents                                               $                 83,952    $                 95,421
2.	Investments                                                                                     0                           0
3.	 Other Assets                                                                                   0                           0
Fiduciary Liabilities
4.	 Less: Liabilities                                                       $                      0    $                      0
5.	 Total Fiduciary Net Assets                                              $                 83,952    $                 95,421

Fiduciary activities are those federal government activities that relate to the collection or receipt of cash or other assets in
which nonfederal individuals or entities have an ownership interest that the federal government must uphold. Fiduciary
activities also include managing, protecting, accounting for, investing, and disposing of such cash or other assets. The
DoD has a fiduciary duty to the Saving Deposit Program in which the Army General Fund (GF) participates. Public Law
89-538 authorizes DoD, through the Savings Deposit Program, to collect a voluntary allotment from the current pay of
                                                                                                                                                                                                                             Army General Fund 77




members of the armed forces deployed outside the United States or its possessions in designated areas. The Army GF
collects the savings and allotments of soldiers, and the collections and accrued earned interest are transferred to the Navy
General Fund, the program’s executive agent. These fiduciary assets are not assets of the Army GF and are not recognized
on its Balance Sheet.
78 FY 2013 United States Army Annual Financial Report



Note 25.	Other Disclosures
As of September 30                                                    2013 Asset Category
(Amounts in thousands)                  Land and Buildings       Equipment             Other           Total
1.	 ENTITY AS LESSEE-Operating Leases
    Future Payments Due
    Fiscal Year
    2014                                $               67   $               0    $            0   $               67
    2015                                                67                   0                 0                   67
    2016                                                67                   0                 0                   67
    2017                                                67                   0                 0                   67
    2018                                                67                   0                 0                   67
    After 5 Years                                   15,017                   0                 0               15,017
Total Future Lease Payments Due         $           15,352   $               0    $            0   $           15,352

Note 26.	Restatements
Not applicable.
Fiscal Year 2013 Required Supplementary Stewardship Information
The following summarizes nonfederal physical property. Investments in non-federal physical property refers to those
expenses incurred by the Army for the purchase, construction, or major renovation of physical property owned by state and
local governments, including major additions, alterations, and replacements; the purchase of major equipment; and the
purchase of improvement to other physical assets. A schedule of estimated investments value of state-owned properties that
are used by the federal government is shown below.
           Nonfederal Physical Property: Yearly Investments in State and Local Governments for Fiscal Years 2009 through 2013
(Amounts in millions)
                            (a)                            (b)               (c)             (d)               (e)              (f)
                        Categories                       FY 2013          FY 2012          FY 2011          FY 2010          FY 2009
Transferred Assets:
1.	 National Defense Mission-Related                           $20.8            $32.4            $31.5              $22.2          $26.7
Funded Assets:
2.	 National Defense Mission-Related                               0                0                0                  0              0
Totals                                                         $20.8            $32.4            $31.5              $22.2          $26.7

The Army General Fund (GF) incurs investments in nonfederal physical property for the purchase, construction, or
major renovation of physical property owned by state and local governments, including major additions, alterations,
and replacements; the purchase of major equipment; and the purchase or improvement of other nonfederal assets. In
addition, nonfederal physical property investments include federally-owned physical property transferred to state and
local governments.

Investment values included in this report are based on nonfederal physical property outlays (expenditures). Outlays are
used because current DoD accounting systems are unable to capture and summarize costs in accordance with federal
accounting standards.

The following table summarizes basic research, applied research, and development investments and provides examples




                                                                                                                                             Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
of each.
                              Yearly Investments in Research and Development for Fiscal Years 2009 through 2013
(Amounts in millions)
                            (a)                            (b)               (c)             (d)               (e)              (f)
                        Categories                       FY 2013          FY 2012          FY 2011          FY 2010          FY 2009
Basic Research                                                 354.3            $356.5          $414.4            $405.5            $392.7
Applied Research                                               876.7           1,102.4         1,161.6             728.3          1,191.1
Development
    Advanced Technology Development                          1,016.3          1,151.0          1,187.2              941.0         1,341.8
    Advanced Component Development and
      Prototypes                                               491.7            737.3            989.9               781.3        1,023.8
    Systems Development and Demonstration                    2,962.0          2,823.8          3,424.0             1,913.7        4,883.9
    Research, Development, Test and Evaluation
      Management Support                                     1,275.3          1,320.6          1,397.4               726.3        1,387.1
    Operational Systems Development                          1,150.3          1,173.4          1,291.0               690.2        1,700.9
Total                                                        8,126.6         $8,665.0         $9,865.5            $6,186.3      $11,921.4
                                                                                                                                                                                                                                      Army General Fund 79




Narrative Statement

Research and development programs are classified in the following categories: basic research, applied research, and
development. The definition for each type of R&D category and subcategories is explained below.

Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of phenomena and
observable facts without specific applications, processes, or products in mind. Basic research involves the gathering of a
fuller knowledge or understanding of the subject under study. Major outputs are scientific studies and research papers.
80 FY 2013 United States Army Annual Financial Report


The following are two representative program examples for each of the major categories:

Defense Research Sciences (PE 0601102A): This program fosters fundamental scientific knowledge and contributes to
the sustainment of Army scientific and technological superiority in land warfighting capability; provides new concepts and
technologies for the Army’s future force; and provides the means to exploit scientific breakthroughs and avoid technological
surprises. It fosters innovation in Army niche areas (such as lightweight armor, energetic materials, night vision) and when
the commercial incentive to invest is lacking due to limited markets, e.g., vaccines for tropical diseases. It also focuses
universal single investigators on research areas of Army interest, such as high-density compact power and novel sensor
phenomenologies. The in-house portion of the program capitalizes on the Army’s scientific talent and specialized facilities
to expeditiously transition knowledge and technology into the appropriate developmental activities. The extramural
program leverages the research efforts of other government agencies, academia, and industry. This translates to a coherent,
well-integrated program which is executed by four primary contributors: (1) the Army Research, Development, and
Engineering Command; (2) the U.S. Army Engineer Research and Development Center; (3) the Army Medical Research
and Materiel Command laboratories; and, (4) the Army Research Institute for Behavioral and Social Sciences. The
basic research program is coordinated with the other services via Defense Science and Technology Reliance (Defense
Basic Research Advisory Group) and other inter-service working groups. This program responds to the scientific and
technological requirements of the DoD Basic Research Plan by enabling technologies that can significantly improve joint
war-fighting capabilities. The projects in this program involve basic research efforts directed toward providing fundamental
knowledge that will contribute to the solution of military problems related to long-term national security needs.

University and Industry Research Centers (PE 0601104A): A significant portion of the work performed within this
program directly supports future force requirements by providing research that supports enabling technologies for future
force capabilities. Broadly, the work in this project falls into three categories: collaborative technology alliances (CTAs),
university centers of excellence (COEs), and paradigm-shifting centers, university-affiliated research centers (UARCs).
The Army has formed CTAs to leverage large investments by the commercial sector in basic research areas that are of great
interest to the Army. The CTAs involve partnerships among industry, academia, and the Army Research Laboratory (ARL)
to incorporate the practicality of industry; the expansion of the boundaries of knowledge from universities; and the ability
of Army scientists to shape, mature and transition technology. The CTAs have been competitively established in the areas
of advanced sensors, advanced decision architecture, communications and networks, power and energy, and robotics. This
program element includes the Army’s COEs, which focus on expanding the frontiers of knowledge in research areas where
the Army has enduring needs, such as rotorcraft, automotive, microelectronics, materials, and information sciences. The
COEs couple state-of-the-art research programs at academic institutions with broad-based graduate education programs
to increase the supply of scientists and engineers in information sciences, materials science, electronics, automotive, and
rotary-wing technology. Also included is eCYBERMISSION, the Army’s national, web-based competition to stimulate
interest in science, math, and technology among middle and high school students. This program also includes the four
Army UARCs, which have been created to exploit opportunities to advance new capabilities through a sustained long-term,
multi-disciplinary effort. The Institute of Advanced Technology funds basic research in electromagnetics and hypervelocity
physics. The Institute for Soldier Nanotechnologies (ISN) focuses on Soldier protection by emphasizing revolutionary
materials research for advanced Soldier protection and survivability. The Institute for Collaborative Biotechnologies,
focusing on enabling network-centric technologies, will broaden the Army’s use of biotechnology for the development
of bio-inspired materials, sensors, and information processing. The Institute for Creative Technologies is a partnership
with academia and the entertainment and gaming industries to leverage innovative research and concepts for training
and simulation.

Applied Research is the systematic study to gain knowledge or understanding necessary for determining the means by
which a recognized and specific need may be met. It is the practical application of such knowledge or understanding
for the purpose of meeting a recognized need. This research points toward specific military needs with a view toward
developing and evaluating the feasibility and practicability of proposed solutions and determining their parameters.
Major outputs are scientific studies, investigations, research papers, hardware components, software codes, and limited
construction of, or part of, a weapon system to include non-system specific development efforts.

The following are two representative program examples for this category:
Materials Technology (PE 0602105A): This program funds research and evaluation of materials technologies for armor
and armaments that will significantly enhance the survivability and lethality of future force systems and, when feasible,
can be exploited to enhance the current force. This program builds on materials research transitioned from the Defense
Research Sciences Materials and Mechanics project and applies it to specific Army platforms and the individual Soldier.
This program is directed toward developing materials technology that contributes to making heavy forces lighter and more
deployable and light forces more lethal and survivable. The program provides the technology base required for solving
materials-related problems in individual Soldier support equipment, armor, armaments, aircraft, ground and combat
vehicles, and combat support. This program also funds collaborative research efforts in nanomaterials technology among
the ARL, the ISN at the Massachusetts Institute of Technology, and the ISN industry partners. The effort is focused
specifically on the improvement in individual Soldier protection.

Combat Vehicle and Automotive Technology (PE 0602601A): This program researches, investigates, and applies combat
vehicle and automotive component technologies that enhance survivability, mobility, sustainability, and maintainability
of Army ground combat and tactical vehicles. As combat vehicle systems become smaller and lighter, and tactical
vehicles are more often exposed to combat conditions, one of the greatest technological and operational challenges is
providing adequate crew protection without reliance on heavy, passive armor. This challenge will be met using a layered
approach, including long-range situational awareness, advanced lightweight opaque and transparent armors, active
protection systems, and multi-spectral signature reduction. Another focus of the program is on designing, fabricating,
and evaluating performance of integrated and add-on lightweight armor packages needed to provide lightweight combat
vehicles protection against chemical energy and kinetic energy threats with less than one-fourth the weight of conventional
heavy armor. Additionally, the program is organized to design, fabricate, and evaluate structural and add-on armors
for tactical vehicles. This program funds the National Automotive Center (NAC). The goal of the NAC is to leverage
large, commercial investments in automotive technology, research, and development by pursuing automotive-oriented
technology programs that have potential benefit to military ground vehicles. The research and investigation of a variety of
enabling technologies in the areas of hybrid electric propulsion, mobility, thermal management, intelligent systems, vehicle
diagnostics, fuels/lubricants, and water purification is also part of the program function. Future force vehicles and new
tactical vehicles are being designed with hybrid electric architectures, advanced high-power density engines, and auxiliary




                                                                                                                               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
power units that provide power for propulsion, control systems, communications, life support systems, electromagnetic
armor, Soldier battery charging, and export to other systems.

Development takes what has been discovered or learned from basic and applied research and uses it to establish
technological feasibility, assessment of operability, and production capability. Development is comprised of the five stages
defined below; program examples follow:

    1.	 Advanced Technology Development is the systematic use of the knowledge or understanding gained from research
        directed toward proof of technological feasibility and assessment of operations and productibility rather than
        the development of hardware for service use. It employs demonstration activities intended to prove or test a
        technology or method.

    2.	 Advanced Component Development and Prototypes (ACD&P) evaluates integrated technologies in as realistic an
        operating environment as possible to assess the performance or cost reduction potential of advanced technology.
        Programs in this phase are generally system specific. Major outputs of ACD&P are hardware and software
        components, or complete weapon systems ready for operational and developmental testing and field use.
                                                                                                                                                                                                                        Army General Fund 81




    3.	 System Development and Demonstration concludes the program or project and prepares it for production. It
        consists primarily of pre-production efforts, such as logistics and repair studies. Major outputs are weapons
        systems finalized for complete operational and developmental testing.

    4.	 Research, Development, Test & Evaluation Management Support is support for installations and operations for
        general R&D use. This category includes costs associated with test ranges, military construction maintenance
        support for laboratories, operation and maintenance of test aircraft and ships, and studies and analyses in support
        of the R&D program.
82 FY 2013 United States Army Annual Financial Report


    5.	 Operational Systems Development is concerned with development projects in support of programs or upgrades
        still in engineering and manufacturing development, which have received approval for production, and for which
        production funds have been budgeted in subsequent fiscal years.

Electronic Warfare Advanced Technology (PE 0603008A): The goal of this program is to provide the Army’s future force
enabling technologies for a secure, mobile, wireless network that will operate reliably in diverse and complex terrain, in
all environments, and, when feasible, to exploit opportunities to enhance current force capabilities. Technologies will be
matured and demonstrated to address this challenge with distributed, mobile, secure, self-organizing communications
networks. A key objective is to demonstrate seamlessly integrated communications technologies across all network tiers,
ranging from unattended networks and sensors through maneuver elements and airborne/space assets. To accomplish the
goal, this program will investigate and leverage external communication technologies and combine technology options
in a series of command, control, communications, and computers intelligence, surveillance, and reconnaissance on-the-
move experiments to measure the battlefield effectiveness for the future force. This program also provides (1) protection
technologies for tactical wireless networks against modern network attacks; (2) smart communication technologies to
network and control unmanned systems anywhere on the battlefield, enabling timely sensor-decider-engagement linkage to
defeat critical targets; (3) advanced antenna technologies for greater communications mobility, range, and throughput; and,
(4) automated network management aids.

Aviation - Advanced Development (PE 0603801A): This program provides advanced development aviation support of
tactical programs associated with air mobility, advanced maintenance concepts and equipment, and Aircrew Integrated
Systems. This program demonstrates the feasibility and maturity of new technology and gains understanding in order
to evaluate utility of this technology to expedite delivery of new capabilities for Army aviation rotary-wing assets.
Additionally, the aviation ground support equipment assets enhance the functionality of current and future aircraft by
(1) improving the effectiveness of maintenance and servicing operations through validating new maintenance concepts to
improve man and machine interfaces; (2) improving aircraft maintenance processes; (3) reducing operation and support
costs; , and, (4) inserting diagnostics technologies to replace obsolete and unsupportable equipment.

Patriot/Medium Extended Air Defense System Combined Aggregate Program (CAP) (PE 0604869A): The Medium
Extended Air Defense System (MEADS) program is a tri-national, co-development program among the United
States, Germany, and Italy to replace the U.S. Patriot air defense systems, Patriot and Hawk systems in Germany,
and Nike Hercules systems in Italy. The North Atlantic Treaty Organization (NATO) MEADS Management Agency
(NAMEADSMA) is the NATO contracting authority that manages the system acquisition, and the MEADS program,
itself, on behalf of participating nations. Within the Patriot/MEADS CAP, there are two synergistic efforts: (1) an
international MEADS development effort managed by NAMEADSMA; and, (2) a U.S. effort to inject U.S.-specific
capability requirements into the MEADS major end items. The MEADS will provide joint and coalition forces with
critical asset and defended area protection against multiple and simultaneous attacks by short- to medium-range ballistic
missiles, cruise missiles, unmanned aerial vehicles and tactical air-to-surface missiles. The Missile Segment Enhancement
(MSE) missile has been accepted as the baseline missile for MEADS. It is being developed for the Patriot system to meet
U.S. operational requirements. The MSE will provide a more agile and lethal interceptor that increases the engagement
envelope/defended area of the Patriot and the MEADS systems. The PAC-3 MSE improves upon the current PAC-3
missile capability by providing a higher performance solid rocket motor, modified lethality enhancer, more responsive
control surfaces, upgraded guidance software, and insensitive munitions improvements.

Army Test Ranges and Facilities (0605601A): This program funds the indirect test costs associated with rapidly-testing
field systems and equipment needed in support of the War on Terror, such as individual Soldier protection equipment
and countermeasures for improvised explosive devices (IEDs) and up-armoring the Army’s wheeled vehicle fleet. This
project sustains the developmental test and evaluation capability required to support Army as well as joint service or other
service systems’ hardware and technologies. Unclassified systems scheduled for developmental testing encompass the entire
spectrum of weapons systems. Capabilities are also required to support system-of-systems and network-centric systems to
include future combat system testing.
This project provides the institutional funding required to operate the developmental test activities required by DoD
program executive officers; program and product managers; and research, development, and engineering centers. This
project resources four DoD major range and test facility bases: White Sands Missile Range, New Mexico; Aberdeen Test
Center, Maryland; Electronic Proving Ground, Arizona; and Yuma Proving Ground, Arizona, and includes management
of natural environmental testing at Cold Regions Test Center, Fort Greely and Fort Wainwright, Alaska, and the Tropic
Regions Test Center at various locations. This project also funds the Army’s developmental test capability at Aviation
Technical Test Center and Redstone Technical Test Center, both in Alabama. Test planning and safety verification at
Headquarters, U.S. Army Developmental Test Command, Maryland, is also supported by this program.

Information Systems Security Program (0303140A): The Communications Security Equipment Program develops
information systems security (ISS) equipment and techniques required to combat threat signal intelligence capabilities and
to ensure the integrity of data networks. The Army’s Research, Development, Test, and Evaluation ISS program objective
is to implement National Security Agency-developed security technology in Army information systems. Communications
security equipment technology ensures total signal and data security for all Army information systems to include any
operational enhancement and specialized configurations.

National Defense Property, Plant, and Equipment: The Federal Accounting Standards Advisory Board revised the
Statement of Federal Financial Accounting Standards No. 6 to require the capitalization and depreciation of military
equipment (formerly National Defense Property, Plant and Equipment/ND PP&E) for Fiscal Year 2003 and beyond, and
encouraged early implementation.




                                                                                                                             Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                                                                                                                                                                                      Army General Fund 83
84 FY 2013 United States Army Annual Financial Report



Fiscal Year 2013 Required Supplementary Information
                        General Property, Plant, and Equipment Real Property Deferred Maintenance Amounts
                                                Fiscal Year Ended September 30, 2013

                      (Amounts in millions)                                  Current Fiscal Year
                                                                             Required Work (deferred
                              Property Type        Plant Replacement Value       maintenance)          Percentage
                                Category 1                    $229,115                   $30,724         13%
                                Category 2                     $13,036                    $3,544         27%
                                Category 3                      $8,355                    $2,458         29%

Narrative Statement

In accordance with DoD Financial Management Regulation 7000.14-R (updates through September 2013), Volume 6B,
Chapter 12, Paragraph 120302. B.1., the Army’s FY 2013 deferred maintenance estimates include all facilities in which
DoD has ownership interest under the control of the Army.

The deferred maintenance estimates are based on the facility Q-ratings reported in ISR 4th Quarter 2013 or Q-ratings
obtained by application of business rules described below. For FY 2013, the Q-rating values range from 0 to 100.
Deferred maintenance is calculated as follows:

                    Deferred Maintenance = (100 – Q-rating) x 0.01 x plant replacement value (PRV).

Q-ratings are determined by the Installation Status Report (ISR) for the majority of facilities, and by business rule for the
remaining facilities. During ISR data collection, facility occupants evaluate the condition of each facility against published
standards. The inspection generates a quality improvement cost estimate for each facility based on the condition rating
of each component of the facility, and the component improvement cost factor. Improvement cost factors are developed
using industry standards for each facility component within each facility type. The business rule assignment of Q-ratings
is as follows: 95 if the facility is no more than 5 years old; 85 if the facility is permanent or semi-permanent construction
and between 5 and 15 years old; 70 if the facility is permanent or semi-permanent construction and more than 15 years
old; 40 if the facility is temporary construction and more than 5 years old; 95 if the asset is a lease. Acceptable operating
condition represents facilities with no deferred maintenance.

Facilities with an ownership interest of “FEE” are included in the data set.

Property Categories are as follows:

     Category 1: Buildings, structures, and utilities that are enduring and required to support an ongoing mission
       including multi-use Heritage Assets. (Facilities with an Operational Status of “Active” or “Semi-Active” are
       included, less those with a disposal code.)
     Category 2: Buildings, structures, and utilities that are excess to requirements or planned for replacement or
       disposal including multi-use Heritage Assets. (Facilities with an Operational Status of “Caretaker,” “Disposed,”
       “Excess,” “Non-Functional,” “Outgrant,” and “Surplus” plus “Active” and “Semi-active” with disposal codes.)
     Category 3: Buildings, Structures, and Utilities that are Heritage Assets. These have an operational status of
       “Closed” and are not maintained. (Facilities with an Operational Status of “Closed” as well as a historical status.)
                         Military Equipment Deferred Maintenance for Fiscal Year Ended September 30, 2013

                               (Amounts in thousands)
                               Major Categories
                               Aircraft                                                  $88,000
                               Automotive Equipment                                       75,090
                               Combat Vehicles                                            48,241
                               Construction Equipment                                      2,766
                               Electronics and Communications Systems                    110,737
                               General Purpose Equipment                                       0
                               Missiles                                                        0
                               Ordnance Weapons and Munitions                              4,640
                               Other                                                     354,608
                               Ships                                                           0
                               Grand Total                                              $684,083

The OP-30 from the FY 2013 president’s budget was used to compile the deferred depot level maintenance.

Depot Maintenance Operations and Planning System is the automated system for capturing depot-level deferred
maintenance data. The data is for subactivity group 123, all active components.

Funding provided to support the Program Objective Memorandum (POM) 12-16 for depot maintenance adequately
supported the Army’s most critical modernization and equipping strategies. The program ensured that Soldiers have the
equipment needed to execute their assigned mission as they progress through the Army Force Generation (ARFORGEN)
cycle. The bottom-line is that depot maintenance requirements continue to grow while the Army continues to get fewer
resources with reduced budgets.

The funding also provided the resources necessary for Land Forces Depot Maintenance to meet the requirements of an
Army transitioning from operations in theater to home station training – an expeditionary Army engaged in full spectrum




                                                                                                                               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
operation (FSO) training and poised for future contingency response. In recent years, the Army has leveraged Overseas
Contingency Operation (OCO) dollars to offset depot maintenance through equipment reset for redeploying units.
Deployed units and enduring equipment requirements currently funded by OCO will accelerate their transition into the
base budget as operations in Southwest Asia continue decreasing. Redeployed units will demand greater equipment to
support FSO training and future contingencies. To meet the exigencies of war, Army has generated a digitally dependent
force. The digitally integrated Army of today is far different from the analog Army that went to war at the beginning of the
decade. These technologies must now be sustained.

Heritage Assets and Stewardship Land Condition Information for Fiscal Year Ended September 30, 2013

The conditions of archeological sites across the Army remain varied from poor to excellent based on a number of factors
including the environmental setting and natural disasters, the type of the site, and impacts from Army activities. If an
Army activity has the potential to adversely impact an archeological site eligible for the National Register, the Garrison’s
Installation Cultural Resources Management Plan (ICRMP) contains provisions for how the installation might proceed
to avoid, minimize, or mitigate those impacts. The ICRMPs provide installations the information and tools necessary
to manage their cultural resources, including archeological sites, in compliance with federal requirements. These plans
provide for site protection, site condition monitoring, and mitigation procedures for adverse impacts to sites. Overall, the
                                                                                                                                                                                                                        Army General Fund 85




conditions of sites on Army installations are fair, based on the Army’s cultural resource management procedures.
86 FY 2013 United States Army Annual Financial Report
                                                          Army General Fund 87
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
88 FY 2013 United States Army Annual Financial Report
                                                          Army General Fund 89
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
90 FY 2013 United States Army Annual Financial Report
                                                          Army General Fund 91
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
92 FY 2013 United States Army Annual Financial Report
                                                          Army General Fund 93
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
94 FY 2013 United States Army Annual Financial Report
                                                          Army General Fund 95
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
96 FY 2013 United States Army Annual Financial Report
                                                          Army General Fund 97
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
98 FY 2013 United States Army Annual Financial Report
                                                          Army General Fund 99
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
100 FY 2013 United States Army Annual Financial Report
Limitations
Limitations of the Financial Statements
The financial statements have been prepared to report the financial position and results of operations
for the entity, pursuant to the requirements of Title 31, United States Code, Section 3515(b).

While the statements have been prepared from the books and records of the entity, in accordance with
the formats prescribed by the Office of Management and Budget, the statements are in addition to the




                                                                                                         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
financial reports used to monitor and control budgetary resources which are prepared from the same
books and records.

The statements should be read with the realization that they are for a component of the United States
Government, a sovereign entity.




                                                                                                                                                                                                  Army Working Capital Fund 101
102 FY 2013 United States Army Annual Financial Report


                                               Department of Defense - Army Working Capital Fund

                                               CONSOLIDATED BALANCE SHEET
As of September 30, 2013 and 2012
(Amounts in thousands)                                                                 2013 Consolidated            2012 Consolidated
ASSETS (Note 2)
    Intragovernmental:
       Fund Balance with Treasury (Note 3)                                         $                1,399,877   $               1,334,455
       Investments (Note 4)                                                                                 -                           -
       Accounts Receivable (Note 5)                                                                   334,387                     294,764
       Total Intragovernmental Assets                                              $               $1,734,264   $               1,629,219

   Cash and Other Monetary Assets (Note 7)                                                                339                           -
   Accounts Receivable, Net (Note 5)                                                                   24,699                      24,233
   Inventory and Related Property, Net (Note 9)                                                    19,396,944                  22,096,521
   General Property, Plant and Equipment, Net (Note 10)                                             1,772,150                   1,748,773
   Other Assets (Note 6)                                                                              174,730                     307,744
TOTAL ASSETS                                                                       $               23,103,126   $              25,806,490
STEWARDSHIP PROPERTY, PLANT & EQUIPMENT (Note 10)

LIABILITIES (Note 11)
   Intragovernmental:
      Accounts Payable (Note 12)                                                   $                  91,687    $                 109,060
      Debt (Note 13)
      Other Liabilities (Note 15 & 16)                                                                89,957                       88,239
      Total Intragovernmental Liabilities                                                            181,644                      197,299

   Accounts Payable (Note 12)                                                      $                 579,701    $                 392,970
   Military Retirement and Other Federal                                                             248,118                      215,104
   Employment Benefits (Note 17)
   Environmental and Disposal Liabilities (Note 14)
   Loan Guarantee Liability (Note 8)
   Other Liabilities (Note 15 and Note 16)                                                            383,882                     439,834
TOTAL LIABILITIES                                                                  $                1,393,345   $               1,245,207

COMMITMENTS AND CONTINGENCIES (NOTE 16)
NET POSITION
   Unexpended Appropriations - Other Funds                                         $                 188,345                      127,825
   Cumulative Results of Operations - Earmarked Funds
   Cumulative Results of Operations - Other Funds                                                  21,521,436                  24,433,458
TOTAL NET POSITION                                                                 $               21,709,781   $              24,561,283

TOTAL LIABILITIES AND NET POSITION                                                 $               23,103,126   $              25,806,490

The accompanying notes are an integral part of these financial statements
                                               Department of Defense - Army Working Capital Fund

                                       CONSOLIDATED STATEMENT OF NET COST
For the years ended September 30, 2013 and 2012
(Amounts in thousands)                                                                  2013 Consolidated             2012 Consolidated
Program Costs
    Gross Costs                                                                     $              25,513,647     $              33,365,902
       Operations, Readiness & Support                                                             25,513,647                    33,365,902
       Procurement
       Research, Development, Test & Evaluation
       Family Housing & Military Construction
    (Less: Earned Revenue)                                                          $              (22,609,502)   $             (30,792,842)
    Net Cost before Losses/(Gains) from Actuarial Assumption Changes for Military
       Retirement Benefits                                                          $               2,904,145     $               2,573,060
    Net Program Costs Including Assumption Changes                                  $               2,904,145     $               2,573,060
Net Cost of Operations                                                              $               2,904,145     $               2,573,060

The accompanying notes are an integral part of these financial statements




                                                                                                                                               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                                                                                                                                                                                                        Army Working Capital Fund 103
104 FY 2013 United States Army Annual Financial Report


                                               Department of Defense - Army Working Capital Fund

                         CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2013 and 2012
                                                          2013                    2013                     2013                  2013
(Amounts in thousands)                               Earmarked Funds        All Other Funds            Eliminations           Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                    $                 0   $      24,433,458      $                  0   $        24,433,458
Beginning balances, as adjusted                       $                 0   $      24,433,458      $                  0   $        24,433,458
Budgetary Financing Sources:
    Appropriations used                                                 0               42,116                        0                42,116
Transfers-in/out without reimbursement                                  0              154,000                        0               154,000
Other Budgetary Financing Sources
    Other Financing Sources:
    Transfers-in/out without reimbursement (+/-)                        0             (266,469)                       0              (266,469)
    Imputed financing from costs absorbed
       by others                                                        0             158,266                         0               158,266
    Other (+/-)                                                         0             (95,790)                        0               (95,790)
Total Financing Sources                               $                 0   $          (7,877)     $                  0   $            (7,877)
Net Cost of Operations (+/-)                                            0           2,904,145                         0             2,904,145
Net Change                                            $                 0   $      (2,912,022)     $                  0   $        (2,912,022)
Cumulative Results of Operations                      $                 0   $      21,521,436      $                  0   $        21,521,436

UNEXPENDED APPROPRIATIONS
Beginning Balances                                    $                 0   $          127,825     $                  0   $           127,825
Beginning balances, as adjusted                       $                 0   $          127,825     $                  0   $           127,825
Budgetary Financing Sources:
    Appropriations received                           $                 0   $               0      $                  0   $                 0
    Appropriations transferred-in/out                                                 102,637                                         102,637
    Appropriations used                                                               (42,116)                                        (42,116)
Total Budgetary Financing Sources                     $                 0   $          60,521      $                  0   $            60,521
Unexpended Appropriations                                               0             188,345                         0               188,345
Net Position                                          $                 0   $      21,709,781      $                  0   $        21,709,781

The accompanying notes are an integral part of these financial statements
                                               Department of Defense - Army Working Capital Fund

                         CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2013 and 2012
                                                           2012                    2012                    2012                  2012
(Amounts in thousands)                                Earmarked Funds        All Other Funds           Eliminations           Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                    $                 0   $       27,935,733     $                  0   $        27,935,733
Beginning balances, as adjusted                       $                 0   $       27,935,733     $                  0   $        27,935,733
Budgetary Financing Sources:
    Appropriations used                                                 0               27,369                        0                27,369
    Transfers-in/out without reimbursement                              0           (1,140,194)                       0            (1,140,194)
Other Budgetary Financing Sources
    Other Financing Sources:
    Transfers-in/out without reimbursement (+/-)                        0              (91,948)                       0               (91,948)
    Imputed financing from costs absorbed
       by others                                                        0              178,843                        0               178,843
    Other (+/-)                                                         0               96,715                        0                96,715
Total Financing Sources                               $                 0   $         (929,215)    $                  0   $          (929,215)
Net Cost of Operations (+/-)                                            0            2,573,060                        0             2,573,060
Net Change                                            $                 0   $       (3,502,275)    $                  0   $        (3,502,275)
Cumulative Results of Operations                      $                 0   $       24,433,458     $                  0   $        24,433,458

UNEXPENDED APPROPRIATIONS
Beginning Balances                                    $                 0   $                  0   $                  0   $                  0
Beginning balances, as adjusted                       $                 0   $                  0   $                  0   $                  0
Budgetary Financing Sources:
    Appropriations received                           $                 0   $          155,194     $                  0   $           155,194




                                                                                                                                                 Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
    Appropriations transferred-in/out                                   0                    0                        0                     0
    Appropriations used                                                 0              (27,369)                       0               (27,369)
Total Budgetary Financing Sources                     $                 0   $          127,825     $                  0   $           127,825
Unexpended Appropriations                                               0              127,825                        0               127,825
Net Position                                          $                 0   $       24,561,283     $                  0   $        24,561,283

The accompanying notes are an integral part of these financial statements




                                                                                                                                                                                                                                          Army Working Capital Fund 105
106 FY 2013 United States Army Annual Financial Report


                                                 Department of Defense - Army Working Capital Fund

                                COMBINED STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2013 and 2012
(Amounts in thousands)                                                                    2013 Combined                2012 Combined
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance brought forward, October 1                                       $                 434,809                   2,150,010
Adjustment to unobligated balance, brought forward, October 1 (+ or -)
    Unobligated balance brought forward, October 1, as adjusted,                     $                  434,809    $             2,150,010
Recoveries of prior year unpaid obligations                                                           1,587,115                  1,528,463
Other changes in unobligated balance (+ or -)                                                          (546,855)                (1,994,513)
Unobligated balance from prior year budget authority, net                            $                1,475,069    $             1,683,960
Appropriations (discretionary and mandatory)                                                            102,637                    155,194
Contract Authority                                                                                    4,918,176                  5,979,778
Spending Authority from offsetting collections (discretionary and mandatory)                          7,164,677                  5,382,359
Total Budgetary Resources                                                            $               13,660,559    $            13,201,291

Obligations Incurred                                                                 $               10,743,731                 12,766,482
Unobligated balance, end of year
    Apportioned                                                                                       2,916,828                   434,809
    Exempt from Apportionment
    Unapportioned
Total unobligated balance, end of year                                               $                2,916,828    $               434,809
Total Budgetary Resources                                                            $               13,660,559    $            13,201,291

Change in Obligated Balance:
    Unpaid obligations:
Unpaid obligations, brought forward, October 1                                       $                6,989,129                  8,229,298
Obligations incurred                                                                                 10,743,731                 12,766,482
Outlays (gross) (-)                                                                                  (9,616,874)               (12,478,188)
Recoveries of prior year unpaid obligations (-)                                                      (1,587,115)                (1,528,463)
Unpaid Obligations, end of year                                                                       6,528,871                  6,989,129
Uncollected payments:
Uncollected payments from Federal sources, brought forward, October 1 (-)                            (6,076,999)                (7,077,240)
Change in uncollected payments from Federal Sources (+ or -)                                           (237,118)                 1,000,241
Uncollected payments from Federal sources, end of year (-)                                           (6,314,117)                (6,076,999)
Obligated balance, start of year (+ or -)                                            $                  912,130    $             1,152,058
Obligated balance, end of year (+ or-)                                               $                  214,754    $               912,130

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                                $               12,185,490                 11,517,331
Actual offsetting collections (discretionary and mandatory) (-)                                      (9,425,660)               (12,897,161)
Change in uncollected customer payments from Federal
Sources (discretionary and mandatory) (+ or -)                                       $                 (237,118)   $             1,000,241
Budget Authority, net (discretionary and mandatory)                                  $                2,522,712                   (379,589)
Outlays, gross (discretionary and mandatory)                                                          9,616,874                 12,478,188
Actual offsetting collections (discretionary and mandatory) (-)                                      (9,425,660)               (12,897,161)
Outlays, net (discretionary and mandatory)                                                              191,214                   (418,973)
Agency Outlays, net (discretionary and mandatory)                                    $                  191,214                   (418,973)

The accompanying notes are an integral part of these financial statements
Note 1.	 Significant Accounting Policies
1.A.	 Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Army
Working Capital Fund (WCF), as required by the Chief Financial Officers Act of 1990, expanded by the Government
Management Reform Act of 1994, and other appropriate legislation. The financial statements have been prepared from the
books and records of the Army WCF in accordance with, and to the extent possible, U.S. generally accepted accounting
principles (USGAAP) promulgated by the Federal Accounting Standards Advisory Board; the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements; and the Department of Defense (DoD) Financial
Management Regulation (FMR). The accompanying financial statements account for all resources for which the Army
WCF is responsible unless otherwise noted.

The Army WCF is unable to fully implement all elements of USGAAP and the OMB Circular No. A-136, due to
limitations of financial and nonfinancial management processes and systems that support the financial statements.
Although the Army WCF now derives reported values and information for major asset and liability categories from the
Logistic Modernization Program (LMP) system, LMP contains some system and posting deficiencies related to items
such as source-accepted procurements, budgetary transactions, continuing resolutions, cash balances, and undeposited
collections. In addition, LMP relies on some data from systems such as entitlement systems and property systems that
compromise the ability to fully meet all USGAAP standards. The Army WCF continues to implement process and
system improvements addressing these limitations. The Army WCF will continue to use USGAAP principles to address
compensating controls for off-line systems, as well as functionality and processes for items such as constructive receipts,
funds certification, and outgoing Military Interdepartmental Procurement Requests (MIPRs).

The Army WCF currently has eleven auditor identified financial statement material weaknesses: (1) Financial Management
Systems; (2) Fund Balance with Treasury; (3) Inventory; (4) General Property, Plant and Equipment; (5) Accounts Payable;
(6) Abnormal Account Balances; (7) Statement of Net Cost; (8) Statement of Budgetary Resources; (9) Intragovernmental
Eliminations; (10) Other Accounting Entries; and (11) Reconciliation of Net Cost of Operations to Budget.




                                                                                                                              Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
1.B.	 Mission of the Reporting Entity
The Army mission is to support the national security and defense strategies by providing well-trained, well-led, and
well-equipped forces to the combatant commanders. This mission encompasses the intent of the Congress, as defined
in Title 10 of the U.S. Code, to preserve the peace and security and provide for the defense of the U.S., its territories,
commonwealths, and possessions, and any areas occupied by the U.S.; support national policies; implement national
objectives; and overcome any nations responsible for aggressive acts that imperil the peace and security of the U.S.

The Army WCF is part of the Defense Working Capital Fund, and is divided into two separate business areas: Supply
Management and Industrial Operations. These business areas ensure delivery of critical items, such as petroleum products,
repair parts, consumable supplies, depot maintenance services, munitions, and weapons to support the deployment and
projection of lethal force as required by the nation.                                                                                                                                                                  Army Working Capital Fund 107

1.C.	 Appropriations and Funds
The Army WCF receives appropriations and funds as defense working capital (revolving) funds and uses the appropriation
and funds to execute its mission and subsequently report on resource usage.

Army WCF received funding to establish an initial corpus through an appropriation or a transfer of resources from existing
appropriations or funds. The corpus finances operations and transactions that flow through the fund. The Army WCF
sells goods and services to customers on a reimbursable basis and maintains the corpus. Reimbursable receipts fund future
operations and generally are available in their entirety for use without further congressional action. At various times,
Congress provides additional appropriations to supplement the Army WCF, as an infusion of cash, when revenues are
inadequate to cover costs within the corpus.
108 FY 2013 United States Army Annual Financial Report



1.D.	Basis of Accounting
The Army WCF’s financial management systems are unable to meet all full accrual accounting requirements. Some of the
Army WCF’s financial and nonfinancial feeder systems and processes were designed and implemented prior to the issuance
of USGAAP. These systems were not designed to collect and record financial information on the full accrual accounting
basis as required by USGAAP.

The financial statements are compiled from the underlying financial data and trial balances of the Army WCF sub-entities.
The underlying data is partially derived from budgetary transactions (obligations, disbursements, and collections), reported
on budgetary status reports and accruals made from nonfinancial feeder systems for major items such as payroll expenses,
accounts payable and Federal Employees’ Compensation Act (FECA) liabilities.

Some of the sub-entity level trial balances may reflect known abnormal balances resulting largely from business and system
processes. At the consolidated Army WCF level, these abnormal balances may not be evident. Disclosures of abnormal
balances are made in the applicable footnotes, but only to the extent that the abnormal balances are evident at the
consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into
compliance with USGAAP. One such action is the current revision of accounting systems to record transactions based on
the United States Standard General Ledger (USSGL). The Army has implemented the LMP at all of the Army Materiel
Command’s activities except for Non-Army Managed Items (NAMI) and the U.S. Army Medical Material Agency, which
is expected to fully transition to Operation and Maintenance, Army funding in FY2014. NAMI will transition to LMP
in August 2014. Until LMP functionality is fully implemented, and all of the processes are updated to collect and report
financial information as required by USGAAP, some of the Army WCF’s financial data will be derived from a combination
of budgetary transactions, nonfinancial feeder systems, and accruals.

1.E.	 Revenues and Other Financing Sources
The Army WCF is divided into two separate business areas: Industrial Operations and Supply Management. Industrial
Operations activities recognize revenue according to the percentage-of-completion method, while the Supply Management
activities recognize revenue when an inventory item is sold.

1.F.	 Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. The
Army WCF now derives the majority of its reported data from LMP which is designed to collect and record financial
information for accruals. However, estimates are made for some major items such as payroll expenses, entitlement systems
accruals, unbilled revenue, transportation expenses and MIPRs. The Army WCF continues to implement process and
system improvements to address these limitations.

1.G.	Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances from consolidated financial
statements in order to prevent overstatement for business with itself. However, the Army WCF cannot accurately identify
intragovernmental transactions by customer because LMP does not capture the correct buyer and seller data at the
transaction level.

Generally, seller entities within the DoD provide summary seller-side balances for revenue, accounts receivable, and
unearned revenue to the buyer-side internal accounting offices. In most cases, the buyer-side records are adjusted to agree
with DoD seller-side balances and are then eliminated. LMP implemented a standard financial information structure
(SFIS) in FY 2013 which incorporates required data elements and attributes that will enable the Army WCF to more
correctly report, reconcile, and eliminate intragovernmental balances.
The Treasury Financial Manual Part 2 – Chapter 4700, Agency Reporting Requirements for the Financial Report of the United
States Government, and related appendices, provide guidance for reporting and reconciling intragovernmental balances.
While the Army WCF is unable to fully reconcile intragovernmental transactions with all federal agencies, Army WCF is
able to reconcile balances pertaining to FECA transactions with the Department of Labor and benefit program transactions
with the Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The
Federal Government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements, do
not report any public debt, interest or source of public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the
U.S. Treasury does not allocate such costs to DoD.

1.H.	Transactions with Foreign Governments and International Organizations
Each year, Army WCF sells defense articles and services to foreign governments and international organizations under
the provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell defense
articles and services to foreign countries and international organizations generally at no profit or loss to the Federal
Government. Payment in U.S. dollars is required in advance.

1.I.	 Funds with the U.S. Treasury
The Army WCF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of the Defense
Finance and Accounting Service (DFAS), the Military Departments, the U.S. Army Corps of Engineers (USACE), and the
Department of State’s financial service centers process the majority of the Army WCF’s cash collections, disbursements, and
adjustments worldwide. Each disbursing station prepares monthly reports to the U.S. Treasury on checks issued, electronic
fund transfers, interagency transfers, and deposits.




                                                                                                                               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable
Fund Balance with Treasury (FBWT) account. On a monthly basis, Army WCF’s FBWT is adjusted to agree with the U.S.
Treasury accounts.

1.J.	 Cash and Other Monetary Assets
There are no restrictions on cash or the use or conversion of foreign currencies.

1.K.	Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable, claims receivable, and refunds
receivable. The allowance for uncollectible accounts due from the public is based upon an analysis of collection experience                                                                                             Army Working Capital Fund 109
grouped by age categories. The DoD does not recognize an allowance for estimated uncollectible amounts from other
federal agencies. Claims against other federal agencies are to be resolved between the agencies in accordance with dispute
resolution procedures defined in the Intragovernmental Business Rules published in the Treasury Financial Manual.

1.L.	 Direct Loans and Loan Guarantees
Not applicable.

1.M.	Inventories and Related Property
The Army WCF manages only military-specific or government-specific materiel under normal conditions. Materiel is a
unique term that relates to military force management, and includes items such as ships, tanks, self-propelled weapons,
110 FY 2013 United States Army Annual Financial Report


aircraft, etc., and related spares, repair parts, and support equipment. Items commonly used in and available from the
commercial sector are not managed in Army WCF materiel management activities. Operational cycles are irregular and
the military risks associated with stock-out positions have no commercial parallel. The Army WCF holds materiel based
on military need and support for contingencies. The DoD is currently developing a methodology to be used to account for
“inventory held for sale” and “inventory held in reserve for future sale.”

The Army WCF has transitioned approximately 92% of its resale inventory to LMP which includes moving average cost
(MAC) functionality. However, the on-hand, transitioned balances were not properly baselined to MAC. Accordingly, the
Army WCF cannot confirm the actual historical cost of this inventory and recognizes that a portion may not be compliant
with Statement of Federal Financial Accounting Standards (SFFAS) No. 3, Accounting for Inventory and Related Property.

The Army WCF reports the remaining 8% of resale inventories representing Non-Army Managed Items (NAMI) and
the United States Army Medical Materiel Agency (USAMMA) at the latest Defense Logistics Agency (DLA) price or
an approximation of historical cost using latest acquisition cost (LAC) adjusted for holding gains and losses. The latest
DLA price and the LAC method are used because legacy inventory systems were designed for materiel management
rather than financial accounting. Although these systems provide visibility and accountability over inventory items, they
do not maintain historical cost data necessary to comply with SFFAS No. 3. Additionally, these systems cannot produce
financial transactions using the USSGL, as required by the Federal Management Improvement Act of 1996 (PL 104-
208). USAMMA will transfer from the Army WCF to Operation and Maintenance, Army funding in FY 2014. NAMI is
expected to transition to LMP and MAC valuation in August FY 2014.

The Army WCF continues to work toward compliance with SFFAS No 3, Interpretation 7, Items Held for Remanufacture,
which states that inventory held for repair should be accounted for as “inventory held for remanufacture.” Therefore,
Inventory held for remanufacture reflects capitalized repair/rebuild costs and the cost of unrepaired carcasses. Exchange
pricing is used for customer returns. The Army WCF is unable to comply with some SFFAS No 3, Interpretation 7
requirements until such time that all LMP functionality is fully implemented and all inventory related tasks in the Army
Financial Improvement Plan have been addressed.

The Army WCF recognizes excess, obsolete, and unserviceable inventory at net realizable value of $0 pending development
of an effective means of valuing such materiel.

Contractor acquired inventory may not be properly accounted for due to system limitation.

Inventory available and purchased for resale includes consumable spare and repair parts and repairable items owned and
managed by Army WCF. This inventory is retained to support military or national contingencies. Inventory held for
repair is damaged inventory that requires repair to make it suitable for sale. Often, it is more economical to repair these
items rather than to procure them. The Army WCF customers often rely on weapon systems and machinery no longer
in production. As a result, Army WCF supports a process that encourages the repair and rebuilding of certain items.
This repair cycle is essential to maintaining a ready, mobile, and armed military force. Work in process balances include
(1) costs related to the production or servicing of items, including direct material, labor, applied overhead; (2) the value
of finished products or completed services that are yet to be placed in service; and (3) munitions in production and depot
maintenance work with its associated costs incurred in the delivery of maintenance services.

1.N.	Investments in U.S. Treasury Securities
Not applicable.

1.O.	General Property, Plant and Equipment
The DoD’s General Property, Plant & Equipment (PP&E) capitalization threshold is $100 thousand except for real
property, which is $20 thousand. The Army WCF has fully implemented the threshold for all property.
The Army WCF capitalizes all PP&E used in the performance of its mission. These assets are capitalized as General PP&E,
whether or not they meet the definition of any other PP&E category.

When it is in the best interest of the government, the Army WCF provides government property to contractors to
complete contract work. The Army WCF either owns or leases such property, or it is purchased directly by the contractor
for the government based on contract terms. When the value of contractor-procured General PP&E meets or exceeds the
DoD capitalization threshold, federal accounting standards require that it be reported on Army WCF’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government-furnished equipment that provides
appropriate General PP&E information for financial statement reporting. The DoD requires the Army WCF to maintain,
in their property systems, information on all property furnished to contractors. These actions are structured to capture
and report the information necessary for compliance with federal accounting standards. The Army WCF has not fully
implemented this policy primarily due to system limitations.

1.P.	 Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is to record advances
and prepayments in accordance with USGAAP. Payments made in advance of the receipt of goods and services should be
reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when the related
goods and services are received. The Army WCF has implemented this policy for advances identified as military and civil
service employee pay advances, travel advances, and advances in contract feeder systems.

1.Q.	Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital or operating leases. When
a lease is essentially equivalent to an installment purchase of property (a capital lease), and the value equals or exceeds the
current capitalization threshold, Army WCF records the applicable asset as though purchased, with an offsetting liability,
and depreciates it. The Army WCF records the asset and the liability at the lesser of the present value of the rental and




                                                                                                                                  Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
other lease payments during the lease term (excluding portions representing executory costs paid to the lessor) or the
asset’s fair market value. The discount rate for the present value calculation is either the lessor’s implicit interest rate or
the government’s incremental borrowing rate at the inception of the lease. The Army WCF, as the lessee, receives the use
and possession of leased property; for example real estate or equipment from a lessor in exchange for a payment of funds.
An operating lease does not substantially transfer all the benefits and risk of ownership. Payments for operating leases are
expensed over the lease term as they become payable.

1.R.	 Other Assets
Army WCF other assets include credits due for returns and estimated future payments to contractors (future contract
financing payments) upon delivery and government acceptance of satisfactory products.

The Army WCF conducts business with commercial contractors under two primary types of contracts: fixed price and cost                                                                                                      Army Working Capital Fund 111
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, the Army
WCF may provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations,
Part 32, as authorized disbursements to a contractor prior to acceptance of supplies or services by the government.
Contract financing payments clauses are incorporated in the contract terms and conditions and may include (1) advance
payments, (2) performance-based payments, (3) commercial advance and interim payments, (4) progress payments based
on cost, and (5) interim payments under certain cost-reimbursement contracts. It is DoD policy to record certain contract
financing payments as Other Assets. The Army WCF has fully implemented this policy. Estimated future payments to
contractors are offset by a contingent liability.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments,
or progress payments based on a percentage or stage of completion. The Defense Federal Acquisition Regulation
112 FY 2013 United States Army Annual Financial Report


Supplement authorizes progress payments based on a percentage or stage-of-completion only for construction of real
property, shipbuilding, and ship conversion, alteration, or repair. Progress payments based on percentage or stage-of-
completion are reported as construction-in-progress.

1.S.	 Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by the SFFAS No. 12, Recognition
of Contingent Liabilities Arising from Litigation, defines a contingency as an existing condition, situation, or set of
circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or
more future events occur or fail to occur. The Army WCF recognizes contingent liabilities when past events or exchange
transactions occur, a future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at
least a reasonable possibility of incurring a loss or additional losses. The Army WCF’s risk of loss and resultant contingent
liabilities arise from pending or threatened litigation or claims and assessments due to events such as aircraft, ship and
vehicle accidents; medical malpractice; property or environmental damages; and contract disputes.

1.T.	 Accrued Leave
The Army WCF reports liabilities for accrued compensatory and annual leave for civilians. Sick leave for civilians is
expensed as taken. The liabilities are based on current pay rates.

1.U.	Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended appropriations
represent the amounts of budget authority that are unobligated and have not been rescinded or withdrawn. Unexpended
appropriations also represent amounts obligated for which legal liabilities for payments have not been incurred.

Cumulative Results of Operations represent the net difference between expenses and losses, and financing sources
(including appropriations, revenue, and gains), since inception. The cumulative results of operations also include
donations and transfers in and out of assets that were not reimbursed.

1.V.	 Treaties for Use of Foreign Bases
Not applicable.

1.W.	Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched
at the transaction level to specific obligations, payables, or receivables in the source systems and those reported by the
U.S. Treasury.

Supported disbursements and collections may be evidenced by the availability of corroborating documentation that
would generally support the summary level adjustments made to accounts payable and accounts receivable. Unsupported
disbursements and collections do not have supporting documentation for the transactions and most likely would not meet
audit scrutiny. However, both supported and unsupported adjustments may have been made to the Army WCF accounts
payable and accounts receivable trial balances before validating underlying transactions that established the accounts
payable and accounts receivable. As a result, misstatements of reported accounts payable and accounts receivable are likely
present in the Army WCF financial statements.

Due to noted material weakness in current accounting and financial feeder systems, the DoD is generally unable to
determine whether undistributed disbursements and collections should be applied to federal or nonfederal accounts
payable and accounts receivable at the time accounting reports are prepared. Accordingly, the DoD policy is to allocate
supported undistributed disbursements and collections between federal and nonfederal categories based on the percentage
of distributed federal and nonfederal accounts payable and accounts receivable. Both supported and unsupported
undistributed disbursements and collections are then applied to reduce accounts payable and accounts receivable
accordingly.

1.X.	 Fiduciary Activities
Not applicable.

1.Y.	 Military Retirement and Other Federal Employment Benefits
Not applicable.

1.Z.	 Significant Events
Not applicable.

Note 2.	 Nonentity Assets
As of September 30
(Amounts in thousands)                                                                2013                        2012
1.	 Intragovernmental Assets
    A.	Fund Balance with Treasury                                            $                       0    $                      0
    B.	A ccounts Receivable                                                                          0                           0
    C.	Other Assets                                                                                  0                           0
    D.	Total Intragovernmental Assets                                        $                       0    $                      0
2.	 Nonfederal Assets
    A.	Cash and Other Monetary Assets                                        $                        0   $                       0
    B.	Accounts Receivable                                                                        1,982                       1,858
    C.	Other Assets                                                                                   0                           0




                                                                                                                                      Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
    D.	Total Nonfederal Assets                                               $                    1,982   $                   1,858
3.	 Total Nonentity Assets                                                   $                    1,982   $                   1,858
4.	 Total Entity Assets                                                      $               23,101,144   $              25,804,632
5.	 Total Assets                                                             $               23,103,126   $              25,806,490

Assets are categorized as either entity or nonentity. Entity assets consist of resources that are available for use in the
operations of the entity.

Nonentity assets are assets for which the AWCF maintains stewardship accountability and reporting responsibility, but are
not available for the AWCF normal operations.

These nonentity assets are for interest, penalties and administrative fees to be collected for out-of-service debts into a receipt
account and then forwarded to the U.S. Treasury.                                                                                                                                                                               Army Working Capital Fund 113
114 FY 2013 United States Army Annual Financial Report



Note 3.	Fund Balance with Treasury
As of September 30
(Amounts in thousands)                                                            2013                       2012
1.	 Fund Balances
    A.	Appropriated Funds                                                $                       0     $                    0
    B.	Revolving Funds                                                                   1,399,877                  1,334,455
    C.	Trust Funds                                                                               0                          0
    D.	Special Funds                                                                             0                          0
    E.	 Other Fund Types                                                                         0                          0
    F.	 Total Fund Balances                                              $               1,399,877     $            1,334,455
2.	 Fund Balances Per Treasury Versus Agency
    A.	Fund Balance per Treasury                                         $               1,399,878     $            1,334,455
    B.	Fund Balance per AWCF                                                             1,399,877                  1,334,455
3.	 Reconciling Amount                                                   $                       1     $                    0

Status of Fund Balance with Treasury
As of September 30
(Amounts in thousands)                                                            2013                       2012
1.	 Unobligated Balance
    A.	Available                                                         $                2,916,827    $               434,809
    B.	Unavailable                                                                                0                          0
2.	 Obligated Balance not yet Disbursed                                                   6,528,871                  6,989,129
3.	 Nonbudgetary FBWT                                                                             0                          0
4.	 Non-FBWT Budgetary Accounts                                                          (8,045,821)                (6,089,483)
5.	Total                                                                 $                1,399,877    $             1,334,455

The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support FBWT and is a
reconciliation between budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances.
The balances reflect the budgetary authority remaining for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority
that has not been set aside to cover outstanding obligations. Certain unobligated balances are restricted for future use and
are not apportioned for current use.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and
those received but not paid.

Non-FBWT Budgetary Accounts reduces the Status of FBWT. For the AWCF these include unfilled orders without
advances, reimbursements earned receivable, and contract authority.

Note 4.	Investments and Related Interest
Not applicable.
Note 5.	Accounts Receivable
As of September 30                                                                            2013
                                                                                      Allowance For Estimated
(Amounts in thousands)                                          Gross Amount Due           Uncollectibles           Accounts Receivable, Net
1.	 Intragovernmental Receivables                           $               334,387                       N/A       $               334,387
2.	 Nonfederal Receivables (From the Public)                                 39,475                   (14,776)                       24,699
3.	 Total Accounts Receivable                               $               373,862   $               (14,776)      $               359,086



As of September 30                                                                            2012
                                                                                      Allowance For Estimated
(Amounts in thousands)                                          Gross Amount Due           Uncollectibles           Accounts Receivable, Net
1.	 Intragovernmental Receivables                           $               294,764                        N/A      $               294,764
2.	 Nonfederal Receivables (From the Public)                                 39,050                   (14,817)                       24,233
3.	 Total Accounts Receivable                               $               333,814   $               (14,817)      $               318,997

The accounts receivable represent the AWCF claim for payment from other entities. The AWCF only recognizes an
allowance for uncollectible amounts from the public. Claims with other federal agencies are resolved in accordance with
the Intragovernmental Business Rules.

Note 6.	Other Assets
As of September 30
(Amounts in thousands)                                                                2013                               2012
1.	 Intragovernmental Other Assets
    A.	Advances and Prepayments                                               $                         0       $                              0
    B.	Other Assets                                                                                     0                                      0
    C.	Total Intragovernmental Other Assets                                   $                         0       $                              0
2.	 Nonfederal Other Assets




                                                                                                                                                   Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
    A.	Outstanding Contract Financing Payments                                $                174,663          $                   307,652
    B.	Advances and Prepayments                                                                     67                                   92
    C.	Other Assets (With the Public)                                                                0                                    0
    D.	Total Nonfederal Other Assets                                          $                174,730          $                   307,744
3.	 Total Other Assets                                                        $                174,730          $                   307,744

Other Assets (Intragovernmental) consist of the turn-in of unserviceable and obsolete inventory awaiting credit dispositions
from federal resources, e.g. Defense Logistics Agency.

Contract terms and conditions for certain types of contract financing payments convey certain rights to the government
that protect the contract work from state or local taxation, liens or attachments by the contractor’s creditors, transfer of
property, or disposition in bankruptcy. However, these rights should not be misconstrued to mean that ownership of the
contractor’s work has transferred to the federal government. The federal government does not have the right to take the                                                                                                                     Army Working Capital Fund 115
work, except as provided in contract clauses related to termination or acceptance, and the AWCF is not obligated to make
payment to the contractor until delivery and acceptance.

The balance of Outstanding Contract Financing Payments includes $161.8 million in contract financing payments and
an additional $12.9 million in estimated future payments to contractors upon delivery and government acceptance of a
satisfactory product. See additional discussion in Note 15, Other Liabilities.
116 FY 2013 United States Army Annual Financial Report



Note 7.	Cash and Other Monetary Assets
As of September 30
(Amounts in thousands)                                                                         2013                                2012
1.	Cash                                                                             $                     339,170        $                             0
2.	 Foreign Currency                                                                                            0                                      0
3.	 Other Monetary Assets                                                                                       0                                      0
4.	 Total Cash, Foreign Currency, & Other Monetary Assets                           $                     339,170        $                             0

There are no restrictions on cash or the use or conversion of foreign currencies.

Note 8.	Direct Loan and Loan Guarantees
Not applicable.

Note 9.	Inventory and Related Property
As of September 30
(Amounts in thousands)                                                                         2013                                2012
1.	 Inventory, Net                                                                  $                   19,396,944       $                22,096,521
2.	 Operating Materiel & Supplies, Net                                                                           0                                 0
3.	 Stockpile Materiel, Net                                                                                      0                                 0
4.	Total                                                                            $                   19,396,944       $                22,096,521

As a result of audit readiness efforts, adjustments were made to the AWCF’s mission critical assets. These accounting
adjustments were recognized in current year cost accounts when auditable data was not available to support restatement of
prior period financial statements.

Inventory, Net
As of September 30                                                                                2013
(Amounts in thousands)                                 Inventory, Gross Value   Revaluation Allowance           Inventory, Net      Valuation Method
1.	 Inventory Categories
    A.	Available and Purchased for Resale              $         14,189,121     $         (2,375,619)       $         11,813,502    MAC,FIFO,LAC
    B.	Held for Repair                                            6,118,319                   52,684                   6,171,003      LAC,MAC
    C.	Excess, Obsolete, and Unserviceable                          196,663                 (196,663)                          0        NRV
    D.	Raw Materiel                                               1,412,439                        0                   1,412,439     MAC,SP,LAC
    E.	Work in Process                                                    0                        0                           0        AC
    F.	Total                                           $         21,916,542     $         (2,519,598)       $         19,396,944

As of September 30                                                                                2012
(Amounts in thousands)                                 Inventory, Gross Value   Revaluation Allowance           Inventory, Net      Valuation Method
1.	 Inventory Categories
    A.	Available and Purchased for Resale              $         15,739,274     $         (1,644,253)       $         14,095,021    MAC,FIFO,LAC
    B.	Held for Repair                                            6,592,703                   56,202                   6,648,905      LAC,MAC
    C.	Excess, Obsolete, and Unserviceable                          154,138                 (154,138)                          0        NRV
    D.	Raw Materiel                                               1,352,562                        0                   1,352,562     MAC,SP,LAC
    E.	Work in Process                                                   33                        0                          33        AC
    F.	Total                                           $         23,838,710     $         (1,742,189)       $         22,096,521

Legend for Valuation Methods:
LAC = Latest Acquisition Cost	 NRV = Net Realizable Value	    MAC = Moving Average Cost
SP = Standard Price	           LCM = Lower of Cost or Market	
AC = Actual Cost	              FIFO = First-In-First-Out
Inventory Held for Repair Revaluation Allowance has an abnormal balance of $52.7 million as a result of postings in
the Logistic Modernization Program (LMP) carried forward from the FY 2009 migration from Commodity Command
Standard System (CCSS). The issue is being addressed with a system change request, which is expected to be complete by
the end of 1st Quarter, FY 2015.

There are restrictions on the use, sale, and disposition of inventory classified as war reserve materiel valued at moving
average cost of $827.8 million which includes petroleum products, subsistence items, spare parts, and medical materiel.

The categories listed comprise Inventory, Net. The AWCF assigns inventory items to a category based upon the type
and condition of the asset. Inventory Available and Purchased for Resale includes spare and repair parts, clothing and
textiles and petroleum products. Inventory Held for Repair consists of damaged materiel held as inventory that is
more economical to repair than to dispose. Excess, Obsolete, and Unserviceable Inventory consists of scrap materiel or
items that cannot be economically repaired and are awaiting disposal. Raw Material consists of items consumed in the
production of goods for sale or in the provision of services for a fee.

Work-in-Process includes costs related to producing or servicing of items, including direct material, direct labor, applied
overhead and other direct costs. Work-in-Process also includes the value of the finished products or completed services
pending the submission of bills to the customer. The work-in-process designation may also be used to accumulate the
amount paid to the contractor under cost reimbursable contracts, including amounts withheld from payment to ensure
performance, and amounts paid to other government plants for accrued costs of end items of materiel ordered but not
delivered. Work-in-Process includes munitions in production and depot maintenance work and its associated labor,
applied overhead, and supplies used in the delivery of maintenance services. Work-in-Process has a zero balance as a result
of a change in business process in FY 2013.

Operating Materiel and Supplies, Net
Not applicable.




                                                                                                                                                                Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Stockpile Materiel, Net
Not applicable.

Note 10.	General PP&E, Net
As of September 30                                                                               2013
                                               Depreciation/
                                               Amortization                                               (Accumulated Depreciation/
(Amounts in thousands)                           Method        Service Life       Acquisition Value             Amortization)              Net Book Value
1.	 Major Asset Classes
    A.	Land                                        N/A             N/A        $               10,008                         N/A       $              10,008
    B.	Buildings, Structures, and Facilities       S/L          20 or 40                   2,177,791       $          (1,524,916)                    652,875
    C.	Leasehold Improvements                      S/L         lease term                          0                           0                           0                                                                                             Army Working Capital Fund 117
    D.	Software                                    S/L          2-5 or 10                  1,079,575                    (765,084)                    314,491
    E.	General Equipment                           S/L           5 or 10                   1,718,193                  (1,296,182)                    422,011
    F.	 Military Equipment                         S/L           Various                           0                           0                           0
    G.	Shipbuilding (Construction-in-
        Progress)                                  N/A            N/A                                 0                           0                         0
    H.	Assets Under Capital Lease                  S/L         lease term                             0                           0                         0
    I.	 Construction-in- Progress (Excludes
        Military Equipment)                        N/A            N/A                        372,765                         N/A                    372,765
    J.	Other                                                                                       0                           0                          0
    K.	Total General PP&E                                                     $            5,358,332       $          (3,586,182)      $          1,772,150
118 FY 2013 United States Army Annual Financial Report



As of September 30                                                                               2012
                                               Depreciation/
                                               Amortization                                               (Accumulated Depreciation/
(Amounts in thousands)                           Method        Service Life       Acquisition Value             Amortization)              Net Book Value
1.	 Major Asset Classes
    A.	Land                                        N/A             N/A        $               9,693                           N/A      $               9,693
    B.	Buildings, Structures, and Facilities       S/L          20 or 40                  2,096,918          $         (1,514,600)                   582,318
    C.	Leasehold Improvements                      S/L         lease term                         0                             0                          0
    D.	Software                                    S/L          2-5 or 10                 1,064,497                      (599,089)                   465,408
    E.	General Equipment                           S/L           5 or 10               1,645,126                       (1,241,441)                   403,685
    F.	 Military Equipment                         S/L           Various                          0                             0                          0
    G.	Shipbuilding (Construction-in-
        Progress)                                  N/A            N/A                                 0                            0                        0
    H.	Assets Under Capital Lease                  S/L         lease term                             0                            0                        0
    I.	 Construction-in- Progress (Excludes
        Military Equipment)                        N/A             N/A                         287,669                        N/A                   287,669
    J.	Other                                                                                         0                          0                         0
    K.	Total General PP&E                                                     $              5,103,903       $         (3,355,130)     $          1,748,773

1
 Note 15 for additional information on Capital Leases
Legend for Valuation Methods:
S/L = Straight Line	 N/A = Not Applicable

Assets Under Capital Lease
Not applicable.

Note 11.	Liabilities Not Covered by Budgetary Resources
As of September 30
(Amounts in thousands)                                                                                2013                                 2012
1.	 Intragovernmental Liabilities
    A.	Accounts Payable                                                                  $                              0      $                           0
    B.	Debt                                                                                                             0                                  0
    C.	Other                                                                                                       68,165                             60,762
    D.	Total Intragovernmental Liabilities                                               $                         68,165      $                      60,762
2.	 Nonfederal Liabilities
    A.	Accounts Payable                                                                  $                               0     $                          0
    B.	Military Retirement and Other Federal Employment Benefits                                                   248,118                          215,104
    C.	Environmental and Disposal Liabilities                                                                            0                                0
    D.	Other Liabilities                                                                                               841                            2,544
    E.	Total Nonfederal Liabilities                                                      $                         248,959     $                    217,648
3.	 Total Liabilities Not Covered by Budgetary Resources                                 $                         317,124     $                    278,410
4.	 Total Liabilities Covered by Budgetary Resources                                                             1,076,221                          966,797
5.	 Total Liabilities                                                                    $                       1,393,345     $                  1,245,207

Liabilities Not Covered by Budgetary Resources includes liabilities for which congressional action is needed before
budgetary resources can be provided.

Intragovernmental Other Liabilities represent future-funded Federal Employee’s Compensation Act liabilities billed to the
AWCF by the Department of Labor (DOL) for payment made by DOL to Army beneficiaries.

Military Retirement and Other Federal Employment Benefits consists of various employee actuarial liabilities not due
and payable during the current fiscal year. These liabilities primarily consist of $248.1 million for FECA actuarial reserve.
Refer to Note 17, Military Retirement and Other Federal Employment Benefits, for additional details and disclosures.

Nonfederal Other Liabilities consists of material returns of non-Army managed items in the amount of $841 thousand.
Note 12.	Accounts Payable
As of September 30                                                                               2013
                                                                                         Interest, Penalties, and
(Amounts in thousands)                                         Accounts Payable            Administrative Fees            Total
1.	 Intragovernmental Payables                             $                91,687   $                          N/A   $            91,687
2.	 Nonfederal Payables (to the Public)                                    579,701                                0               579,701
3.	Total                                                   $               671,388   $                            0   $           671,388

As of September 30                                                                               2012
                                                                                         Interest, Penalties, and
(Amounts in thousands)                                         Accounts Payable            Administrative Fees            Total
1.	 Intragovernmental Payables                             $               109,060   $                          N/A   $           109,060
2.	 Nonfederal Payables (to the Public)                                    392,970                                0               392,970
3.	Total	                                                  $               502,030   $                            0   $           502,030

Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by AWCF.
The AWCF’s systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side
accounts payable are adjusted to agree with interagency seller-side accounts receivable. Accounts payable was adjusted by
reclassifying amounts between federal and nonfederal accounts payable and recorded as supported undistributed.

Note 13.	Debt
Not applicable.

Note 14.	Environmental and Disposal Liabilities
Not applicable.




                                                                                                                                            Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                                                                                                                                                                                                     Army Working Capital Fund 119
120 FY 2013 United States Army Annual Financial Report



Note 15.	Other Liabilities
As of September 30                                                                          2013                                           2012
(Amounts in thousands)                                  Current Liability             Noncurrent Liability           Total                 Total
1.	Intragovernmental
    A.	Advances from Others                         $                       669   $                          0   $              669    $             5,887
    B.	Deposit Funds and Suspense Account
        Liabilities                                                           0                              0                    0                     0
    C.	Disbursing Officer Cash                                                0                              0                    0                     0
    D.	Judgment Fund Liabilities                                              0                              0                    0                     0
    E.	FECA Reimbursement to the Department of
        Labor                                                        20,974                          47,190                   68,164                60,761
    F.	 Custodial Liabilities                                         1,982                               0                    1,982                 1,857
    G.	Employer Contribution and Payroll Taxes
        Payable                                                      19,142                               0                   19,142                19,734
    H.	Other Liabilities                                                  0                               0                        0                     0
    I.	 Total Intragovernmental Other Liabilities   $                42,767       $                  47,190      $            89,957   $            88,239
2.	Nonfederal
    A.	Accrued Funded Payroll and Benefits          $               196,115       $                          0   $           196,115   $           217,041
    B.	Advances from Others                                          78,914                                  0                78,914                65,780
    C.	Deferred Credits                                                   0                                  0                     0                     0
    D.	Deposit Funds and Suspense Accounts                              339                                  0                   339                     0
    E.	Temporary Early Retirement Authority                               0                                  0                     0                     0
    F.	 Nonenvironmental Disposal Liabilities
        (1)	 Military Equipment (Nonnuclear)                                  0                              0                    0                      0
        (2	 Excess/Obsolete Structures                                        0                              0                    0                      0
        (3)	 Conventional Munitions Disposal                                  0                              0                    0                      0
    G.	Accrued Unfunded Annual Leave                                          0                              0                    0                      0
    H.	Capital Lease Liability                                                0                              0                    0                      0
    I.	 Contract Holdbacks                                                  771                              0                  771                 16,262
    J.	 Employer Contribution and Payroll Taxes
        Payable                                                       8,914                               0                    8,914                30,418
    K.	Contingent Liabilities                                             0                          12,896                   12,896                14,582
    L.	 Other Liabilities                                            85,933                               0                   85,933                95,751
    M.	Total Nonfederal Other Liabilities           $               370,986       $                  12,896      $           383,882   $           439,834
3.	 Total Other Liabilities                         $               413,753       $                  60,086      $           473,839   $           528,073

Capital Lease Liability
Not applicable.

Nonfederal Other Liabilities primarily consists of $85.1 million for industrial operations service accruals.

Contingent Liabilities
Contingent liabilities of $12.9 million relate to contracts authorizing payments based on cost as defined in the Federal
Acquisition Regulation (FAR). In accordance with contract terms, specific rights to a contractor’s work vests with the
federal government when a specific type of contract financing payment is made. This action protects taxpayer funds in the
event of contractor nonperformance. It is DoD policy that these rights not be misconstrued as rights of ownership. The
AWCF is under no obligation to pay contractors for amounts greater than the amounts of progress payments authorized in
contracts until delivery and government acceptance. Due to the probability the contractors will complete their efforts and
deliver satisfactory products, and because the amount of contractor costs incurred but yet unpaid are estimable, the AWCF
has recognized a contingent liability for the estimated unpaid costs that are considered conditional for payment pending
delivery and government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs
incurred to date by contractors and amounts authorized to be paid under progress payments based on cost provisions
within the FAR. Estimated contractor-incurred costs are calculated by dividing the cumulative unliquidated
progress payments based on costs by the contractor-authorized progress payment rate. The balance of unliquidated
progress payments based on cost is deducted from the estimated total contractor-incurred costs to determine the
contingency amount.

Note 16.	Commitments and Contingencies
The AWCF may be a party in various administrative proceedings and legal actions related to claims for environmental
damage, equal opportunity matters, and contractual bid protests. We are not aware of any contingent liabilities for legal
actions at this time.

Additionally, the AWCF is a party in numerous individual contracts that contain clauses, such as price escalation, award fee
payments, or dispute resolution, that may result in a future outflow of budgetary resources. Currently, AWCF has limited
automated system processes by which it captures or assesses these potential liabilities; therefore, the amounts reported
may not fairly present AWCF’s commitments and contingencies. The AWCF records contingent liabilities in Note 15,
Other Liabilities.

Note 17.	Military Retirement and Other Federal Employment Benefits
As of September 30                                                                       2013                                                           2012
                                                                              (Less: Assets Available to Pay
(Amounts in thousands)                                     Liabilities                  Benefits)                  Unfunded Liabilities           Unfunded Liabilities
1.	 Pension and Health Benefits
    A.	Military Retirement Pensions                    $                 0      $                        0     $                          0   $                          0
    B.	Military Pre Medicare-Eligible Retiree Health
       Benefits                                                          0                               0                                0                              0
    C.	Military Medicare-Eligible Retiree Health
       Benefits                                                          0                               0                                0                              0
    D.	Total Pension and Health Benefits               $                 0      $                        0     $                          0   $                          0
2.	 Other Benefits




                                                                                                                                                                             Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
    A.	FECA                                            $            248,118     $                        0     $                248,118       $                215,104
    B.	Voluntary Separation Incentive Programs                            0                              0                            0                              0
    C.	DoD Education Benefits Fund                                        0                              0                            0                              0
    D.	Other                                                              0                              0                            0                              0
    E.	Total Other Benefits                            $            248,118     $                        0     $                248,118       $                215,104
3.	 Total Military Retirement and Other Federal
    Employment Benefits:                               $            248,118     $                        0     $                248,118       $                215,104

Federal Employees Compensation Act (FECA)

Actuarial liabilities are computed for employee compensation benefits as mandated by the Federal Employment
Compensation Act (FECA). The Office of Personnel Management provides updated Army actuarial liabilities during
the 4th Quarter of each fiscal year. The AWCF computes its portion of the total Army actuarial liability based on the
percentage of AWCF FECA expense to the total Army FECA expense.
                                                                                                                                                                                                                                                                      Army Working Capital Fund 121


The AWCF actuarial liability for workers’ compensation benefits is developed by the Department of Labor and provided
to AWCF at the end of each fiscal year. The liability includes the estimated liability for death, disability, medical, and
miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims. In FY 2013,
the fund effected a change in accounting estimate to refine the methodology used for selecting the interest rate assumptions
and enhance matching of the interest rates to the projected cash flows; the change in accounting estimate did not affect
amounts previously reported for FY 2012. The actuarial liability for FECA increased $33.0 million between FY 2012
and FY 2013.

In FY 2013, the fund effected a change in accounting estimate to refine the methodology used for selecting the interest
rate assumptions and enhance matching between the timing of cash flows and interest rates. For FY 2013, projected
122 FY 2013 United States Army Annual Financial Report


annual payments were discounted to present value based on Office of Management and Budget’s (OMB’s) interest rate
assumptions which were interpolated to reflect the average duration in years for income payments and medical payments.
In FY2012 and prior years, these projected annual benefit payments were discounted to present value using OMB’s
economic assumptions for 10-year Treasury notes and bonds. Interest rate assumptions utilized for FY 2013 discounting
were as follows:

Discount Rates
For wage benefits:
2.727% in Year 1
3.127% in Year 2 and thereafter;

For medical benefits:
2.334% in Year 1
2.860% in Year 2 and thereafter.

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage
inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index medical or
CPIMs) were applied to the calculation of projected future benefits. The actual rates for these factors for the charge back
year (CBY) 2013 were also used to adjust the methodology’s historical payments to current year constant dollars. The
compensation COLAs and CPIMs used in the projections for various CBY were as follows:
                                             CBY                COLA           CPIM
                                             2013               N/A            N/A
                                             2014               1.67%          3.46%
                                             2015               1.80%          3.82%
                                             2016               2.20%          3.83%
                                             2017               2.20%          3.82%
                                             2018+              2.20%          3.82%

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based on
four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the percentage change in
the liability amount to the percentage change in the actual incremental payments, (3) a comparison of the incremental
paid losses per case (a measure of case-severity) in CBY 2013 to the average pattern observed during the most current
three CBY, and (4) a comparison of the estimated liability per case in the 2013 projection to the average pattern for the
projections of the most recent three projections.

Note 18.	General Disclosures Related to the Statement of Net Cost
Intragovernmental Costs and Exchange Revenue
As of September 30
(Amounts in thousands)                                                                 2013                      2012
Operations, Readiness & Support
1.	 Gross Cost
    A.	Intragovernmental Cost                                                    $             1,965,579     $           3,136,647
    B.	Nonfederal Cost                                                                        23,548,068                30,229,255
    C.	Total Cost                                                                $            25,513,647     $          33,365,902
2.	 Earned Revenue
    A.	Intragovernmental Revenue                                                 $             (9,226,963)   $          (14,099,933)
    B.	Nonfederal Revenue                                                                     (13,382,539)              (16,692,909)
    C.	Total Revenue                                                             $            (22,609,502)   $          (30,792,842)
3.	 Losses/(Gains) from Actuarial Assumption Changes for Military Retirement
    Benefits                                                                                           0                         0
4.	 Costs Not Assigned to Programs                                                                     0                         0
5.	 (Less: Earned Revenues) Not Attributed to Programs                                                 0                         0
Total Net Cost                                                                   $             2,904,145     $           2,573,060
Abnormal balances are found on the trial balance for the 6100 accounts at the object class level. These accounts are normal
at the summary level by USSGL account. In 4th Quarter, FY 2013, DDRS-AFS began capturing amounts by object class
detail at the USSGL account level. Historical detail was not captured at this level in the source accounting system (LMP)
resulting in amounts not properly flowing to the correct object class. Expected completion date is 1st Quarter, FY 2015
with the implementation of Standard Financial Information Structure (SFIS) 10.0.

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal Government that
are supported by appropriations or other means. The intent of the SNC is to provide gross and net cost information
related to the amount of output or outcome for a given program or organization administered by a responsible reporting
entity. The DoD’s current processes and systems do not capture and report accumulated costs for major programs based
upon the performance measures as required by the Government Performance and Results Act. The DoD is in the process
of reviewing available data and developing a cost reporting methodology as required by the Statement of Federal Financial
Accounting Standards (SFFAS) No. 4, Managerial Cost Accounting Concepts and Standards for the Federal Government, as
amended by SFFAS No. 30, Inter-entity Cost Implementation.

Intragovernmental costs and revenue represent transactions made between two reporting entities within the
Federal Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The AWCF systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side expenses
are adjusted to agree with internal seller-side revenues. Expenses were adjusted by reclassifying amounts between federal
and nonfederal expenses. Intradepartmental revenues and expenses are then eliminated.

While AWCF activities generally record transactions on an accrual basis, as is required by federal generally accepted
accounting principles, the systems do not always capture actual costs. Some of the information presented on the
Consolidated Statement of Net Cost is based on non-financial feeder systems, including property accountability and




                                                                                                                              Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
logistics systems.

Note 19.	Disclosures Related to the Statement of Changes in
         Net Position
Other Financing Sources, Other on the Statement Changes in Net Position consists of other gains and other losses from
non-exchange activity primarily attributable to intragovernmental transfers-in/out for which trading partners could not be
identified.

Effective with FY 2013 reporting, the Department has elected an alternative presentation for the Statement of Changes
in Net Position (SCNP) as provided for in Statement of Federal Financial Accounting Standards (SFFAS) No. 43, Funds
from Dedicated Collections: Amending Statement of Federal Financial Accounting Standards 27, Identifying and Reporting
Earmarked Funds. Prior to the implementation of SFFAS 43, the SCNP contained separate columns for reporting of funds                                                                                                   Army Working Capital Fund 123
from dedicated collections. Beginning in FY 2013, the SCNP will provide a reference to the “Funds from Dedicated
Collections” footnote and will no longer include separate columns on the face of the statement.

A change in procedure from FY 2012 to FY 2013 resulted in the AWCF WAR appropriations received appearing
on separate lines of the SCNP. In FY 2012, appropriations were incorrectly recorded using USSGL 4119 (Other
Appropriations Realized). In FY 2013, appropriations were recorded as a transfer in using USSGL 4170 (Transfer -
Current Year Authority Transfers In). The procedural change was to correctly reflect how appropriations are received by the
overall working capital fund (97X4930) and transferred to the individual activities.
124 FY 2013 United States Army Annual Financial Report



Note 20.	Disclosures Related to the Statement of Budgetary
         Resources
As of September 30
(Amounts in thousands)                                                              2013                   2012
1.	 Net Amount of Budgetary Resources Obligated for Undelivered Orders at the
    End of the Period                                                           $          5,486,630   $          6,087,248
2.	 Available Borrowing and Contract Authority at the End of the Period         $                  0   $                  0

Abnormal balances are found on the trial balance for the 48XX and 49XX series accounts at the object class level. These
accounts are normal at the summary level by USSGL account. In 4th Quarter, FY 2013, DDRS-AFS began capturing
amounts by object class detail at the USSGL account level. Historical detail was not captured at this level in the source
accounting system (LMP) resulting in amounts not properly flowing to the correct object class. Expected completion date
is 1st Quarter, FY 2015 with the implementation of SFIS 10.0.

The AWCF obligations represent reimbursable obligations of $10.7 billion and direct obligations of $185.9 million in
apportionment category B, apportioned by project or activity.

The AWCF Statement of Budgetary Resources includes intraentity transactions because the statements are presented
as combined.

There are no legal arrangements affecting the use of unobligated balances of budgetary authority.

The AWCF received appropriations in FY 2013 in the amount of $102.6 million to fund War Reserve materiel.

In June 2013, AWCF received a funds transfer of $154.0 million from DLA via the DoD Working Capital Fund
(97X4930.0000) as a result of BRAC 2005 recommendation #176, Legal Authority: Defense Base Closure and
Realignment Act of 1990 (part A of title XXIX of Public Law 101-510; 10 U.S.C. 2687).

A change in procedure from FY 2012 to FY 2013 resulted in the AWCF WAR appropriations received appearing
on separate lines of the SCNP. In FY 2012, appropriations were incorrectly recorded using USSGL 4119 (Other
Appropriations Realized). In FY 2013, appropriations were recorded as a transfer in using USSGL 4170 (Transfer -
Current Year Authority Transfers In). The procedural change was to correctly reflect how appropriations are received by the
overall working capital fund (97X4930) and transferred to the individual activities.
Note 21.	Reconciliation of Net Cost of Operations to Budget
For the years ended September 30
(Amounts in thousands)                                                                     2013                      2012
Resources Used to Finance Activities:
Budgetary Resources Obligated:
1.	 Obligations incurred                                                               $           10,743,731    $           12,766,482
2.	 Less: Spending authority from offsetting collections and recoveries (-)                       (11,249,892)              (13,425,383)
3.	 Obligations net of offsetting collections and recoveries                           $             (506,161)   $             (658,901)
4.	 Less: Offsetting receipts (-)                                                                           0                         0
5.	 Net obligations                                                                    $             (506,161)   $             (658,901)
Other Resources:
6.	 Donations and forfeitures of property                                                                  0                         0
7.	 Transfers in/out without reimbursement (+/-)                                                    (266,469)                  (91,948)
8.	 Imputed financing from costs absorbed by others                                                  158,266                   178,843
9.	 Other (+/-)                                                                                      (95,791)                   96,715
10.	Net other resources used to finance activities                                     $            (203,994)    $             183,610
11.	Total resources used to finance activities                                         $            (710,155)    $            (475,291)
Resources Used to Finance Items not Part of the Net Cost of Operations:
12.	Change in budgetary resources obligated for goods, services and benefits
    ordered but not yet provided:
    12a.	 Undelivered Orders (-)                                                       $             600,619     $           1,365,146
    12b.	 Unfilled Customer Orders                                                                   249,618                  (976,031)
13.	Resources that fund expenses recognized in prior Periods (-)                                      (1,706)                   (9,532)
14.	Budgetary offsetting collections and receipts that do not affect Net Cost of
    Operations                                                                                              0                         0
15.	Resources that finance the acquisition of assets (-)                                           (3,447,558)               (4,395,874)
16.	Other resources or adjustments to net obligated resources that do not affect Net
    Cost of Operations
    16a.	 Less: Trust or Special Fund Receipts Related to exchange in the Entity’s
          Budget (-)                                                                                        0                         0




                                                                                                                                           Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
    16b.	 Other (+/-)                                                                                 362,259                    (4,767)
17.	Total resources used to finance items not part f the Net Cost of Operations        $           (2,236,768)   $           (4,021,058)
18.	Total resources used to finance the Net Cost of Operations                         $           (2,946,923)   $           (4,496,349)
Components of the Net Cost of Operations that will not Require or Generate
    Resources in the Current Period:
Components Requiring or Generating Resources in Future Period:
19.	Increase in annual leave liability                                                 $                   0     $                    0
20.	Increase in environmental and disposal liability                                                       0                          0
21.	Upward/Downward reestimates of credit subsidy expense (+/-)                                            0                          0
22.	Increase in exchange revenue receivable from the public (-)                                         (339)                         0
23.	Other (+/-)                                                                                       40,417                      2,544
24.	Total components of Net Cost of Operations that will Require or Generate
    Resources in future periods                                                        $              40,078     $                2,544
Components not Requiring or Generating Resources:                                                                                                                                                                                   Army Working Capital Fund 125
25.	Depreciation and amortization                                                      $             321,959     $             255,811
26.	Revaluation of assets or liabilities (+/-)                                                       (79,093)                 (833,774)
27.	Other (+/-)
    27a.	 Trust Fund Exchange Revenue                                                                      0                         0
    27b.	 Cost of Goods Sold                                                                      10,785,235                14,113,747
    27c.	 Operating Material and Supplies Used                                                             0                         0
    27d.	Other                                                                                    (5,217,111)               (6,468,919)
28.	Total Components of Net Cost of Operations that will not Require or Generate
    Resources                                                                          $           5,810,990     $           7,066,865
29.	Total components of Net Cost of Operations that will not Require or Generate
    Resources in the current period                                                    $           5,851,068     $           7,069,409
30.	Net Cost of Operations                                                             $           2,904,145     $           2,573,060
126 FY 2013 United States Army Annual Financial Report


Due to AWCF’s financial systems limitations, budgetary data do not agree with proprietary expenses and capitalized assets.
The difference between budgetary and proprietary data is a previously identified deficiency.

Resources that Finance the Acquisition of Assets were adjusted by $324.6 million to bring the note schedule into
agreement with the Statement of Net Cost.

Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead of consolidated due to
intraagency budgetary transactions not being eliminated:
      Obligations Incurred
      Less: Spending Authority from Offsetting Collections and Recoveries
      Obligations Net of Offsetting Collections and Recoveries
      Less: Offsetting Receipts
      Net Obligations
      Undelivered Orders
      Unfilled Customer Orders

Other Resources, Other consists of other gains and other losses from non exchange activity primarily attributable to
intragovernmental transfers-in/out for which trading partners could not be identified.

Other Resources or adjustments to net obligated resources that do not affect Net Cost of operations, Other consists
of other gains and losses from non exchange activity primarily attributable to intragovernmental transfers-in/out for
which trading partners could not be identified and the correction of prior period adjustments that did not meet the
materiality thresholds.

Components Requiring or Generating Resources in Future Period, Other consists of FECA expense.

Components not Requiring or Generating Resources Other, Other consists of cost capitalization offsets. Agencies must
first record all expenses to Operating Expenses/Program Costs. These expenses are then offset using the Cost Capitalization
Offset account when the costs are capitalized to the appropriate “in-process type” account.

Note 22.	Disclosures Related to Incidental Custodial Collections
Not applicable.

Note 23.	Funds from Dedicated Collections
Not applicable.

Note 24.	Fiduciary Activities
Not applicable.

Note 25.	Other Disclosures
Not applicable.

Note 26.	Restatements
Not applicable.
                                              Army Working Capital Fund 127
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
128 FY 2013 United States Army Annual Financial Report
                                              Army Working Capital Fund 129
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
130 FY 2013 United States Army Annual Financial Report
                                               Army Working Capital Fund 131
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
132 FY 2013 United States Army Annual Financial Report
                                              Army Working Capital Fund 133
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
134 FY 2013 United States Army Annual Financial Report
                                              Army Working Capital Fund 135
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
136 FY 2013 United States Army Annual Financial Report
                                              Army Working Capital Fund 137
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
138 FY 2013 United States Army Annual Financial Report
                                              Army Working Capital Fund 139
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
140 FY 2013 United States Army Annual Financial Report
                         We are interested in your feedback regarding the content of this report.
                      Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:

                                            Department of the Army
                                   Office of the Deputy Assistant Secretary of the Army
                                         (Financial Management and Comptroller)
                                       Office of the Financial Reporting Directorate
                                            Room 3A312, 109 Army Pentagon
                                               Washington, DC 20310-0109
Additional copies of this report can be obtained by sending a written request to the e-mail or mailing address listed above.
                    You may also view this document at: http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
The Soldier’s Creed
I am an American Soldier.
I am a Warrior and a member of a team.
I serve the people of the United States
and live the Army Values.

I will always place the mission first.
I will never accept defeat.
I will never quit.
I will never leave a fallen comrade.

I am disciplined, physically and mentally tough,
trained and proficient in my warrior tasks and
drills. I always maintain my arms,
my equipment and myself.

I am an expert and I am a professional.

I stand ready to deploy, engage, and
destroy the enemies of the United States
of America in close combat.

I am a guardian of freedom and the
American way of life.

I am an American Soldier.

United States Army : 1500 Army Pentagon : Washington, DC, 20310-1500 : www.army.mil
